<html>
<title> - UNMANNED AIRCRAFT SYSTEMS: KEY CONSIDERATIONS REGARDING SAFETY, INNOVATION, ECONOMIC IMPACT, AND PRIVACY</title>
<body><pre>[Senate Hearing 114-195]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-195
 
                       UNMANNED AIRCRAFT SYSTEMS:
 KEY CONSIDERATIONS REGARDING SAFETY, INNOVATION, ECONOMIC IMPACT, AND 
                                PRIVACY

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 24, 2015

                               __________

    Printed for the use of the Committee on Commerce, Science, and Transportation
    
    
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  




                            U.S. GOVERNMENT PUBLISHING OFFICE
  99-424 PDF                          WASHINGTON : 2016       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001
     
     
     
     
                             
                             
                             
                             


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
MARCO RUBIO, Florida                 CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          AMY KLOBUCHAR, Minnesota
TED CRUZ, Texas                      RICHARD BLUMENTHAL, Connecticut
DEB FISCHER, Nebraska                BRIAN SCHATZ, Hawaii
JERRY MORAN, Kansas                  EDWARD MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 CORY BOOKER, New Jersey
RON JOHNSON, Wisconsin               TOM UDALL, New Mexico
DEAN HELLER, Nevada                  JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               GARY PETERS, Michigan
STEVE DAINES, Montana
                    David Schwietert, Staff Director
                   Nick Rossi, Deputy Staff Director
                    Rebecca Seidel, General Counsel
                 Jason Van Beek, Deputy General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
       Clint Odom, Democratic General Counsel and Policy Director
                                 ------                                

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

KELLY AYOTTE, New Hampshire,         MARIA CANTWELL, Washington, 
    Chairman                             Ranking
ROGER F. WICKER, Mississippi         AMY KLOBUCHAR, Minnesota
ROY BLUNT, Missouri                  RICHARD BLUMENTHAL, Connecticut
MARCO RUBIO, Florida                 BRIAN SCHATZ, Hawaii
TED CRUZ, Texas                      EDWARD MARKEY, Massachusetts
DEB FISCHER, Nebraska                CORY BOOKER, New Jersey
JERRY MORAN, Kansas                  TOM UDALL, New Mexico
DAN SULLIVAN, Alaska                 JOE MANCHIN III, West Virginia
RON JOHNSON, Wisconsin               GARY PETERS, Michigan
DEAN HELLER, Nevada
CORY GARDNER, Colorado







                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 24, 2015...................................     1
Statement of Senator Ayotte......................................     1
Statement of Senator Cantwell....................................     3
Statement of Senator Schatz......................................    46
Statement of Senator Moran.......................................    48
Statement of Senator Markey......................................    50
Statement of Senator Peters......................................    52
Statement of Senator Booker......................................    54
Statement of Senator Daines......................................    56
Statement of Senator Heller......................................    58

                               Witnesses

Margaret Gilligan, Associate Administrator for Aviation Safety, 
  Federal Aviation Administration................................     5
    Prepared statement...........................................     7
John B. Morris, Jr., Associate Administrator, Office of Policy 
  Analysis and Development, National Telecommunications and 
  Information Administration, U.S. Department of Commerce........    11
    Prepared statement...........................................    12
Gerald L. Dillingham, Ph.D., Director of Civil Aviation Issues, 
  U.S. Government Accountability Office..........................    14
    Prepared statement...........................................    15
John Villasenor, Nonresident Senior Fellow, The Brookings 
  Institution; National Fellow, The Hoover Institution, Stanford 
  University; Professor of Electrical Engineering and Public 
  Policy, University of California, Los Angeles..................    25
    Prepared statement...........................................    27
Paul Misener, Vice President for Global Public Policy, Amazon.com    36
    Prepared statement...........................................    37
Jeff VanderWerff on behalf of the American Farm Bureau Federation    40
    Prepared statement...........................................    42

                                Appendix

Air Line Pilots Association, International, prepared statement...    65
National Association of Mutual Insurance Companies, prepared 
  statement......................................................    71
Response to written questions submitted to Margaret Gilligan by:
    Hon. John Thune..............................................    83
    Hon. Roger F. Wicker.........................................    83
    Hon. Dean Heller.............................................    84
    Hon. Tom Udall...............................................    85
Response to written questions submitted to John B. Morris, Jr. 
  by:
    Hon. John Thune..............................................    86
    Hon. Roger F. Wicker.........................................    87
Response to written questions submitted to Gerald L. Dillingham, 
  Ph.D. by:
    Hon. John Thune..............................................    87
    Hon. Roger F. Wicker.........................................    88
Response to written questions submitted to John Villasenor by:
    Hon. John Thune..............................................    89
    Hon. Roger F. Wicker.........................................    89
Response to written questions submitted to Paul Misener by:
    Hon. John Thune..............................................    90
    Hon. Roger F. Wicker.........................................    90
Response to written questions submitted to Jeff VanderWerff by:
    Hon. John Thune..............................................    91
    Hon. Roger F. Wicker.........................................    93


                       UNMANNED AIRCRAFT SYSTEMS:



                      KEY CONSIDERATIONS REGARDING



            SAFETY, INNOVATION, ECONOMIC IMPACT, AND PRIVACY

                              ----------                              


                        TUESDAY, MARCH 24, 2015

                               U.S. Senate,
  Subcommittee on Aviation Operations, Safety, and 
                                          Security,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:32 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Kelly Ayotte, 
Chairman of the Subcommittee, presiding.
    Present: Senators Ayotte [presiding], Heller, Moran, 
Daines, Cantwell, Schatz, Markey, Booker, and Peters.

            OPENING STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. I want to call the hearing to order. I want 
to welcome our witnesses here today, appreciate all of you 
being here.
    Before I offer any of our opening statements, news is still 
coming in, but I want to acknowledge the tragedy in Europe this 
morning. My thoughts go out to the friends and families of 
those who were affected. We will be monitoring this as the 
situation develops. I know all of us are very sad to hear about 
this tragedy.
    With that, appreciate all of you being here today. I want 
to thank you because today's hearing represents the second of 
an active spring schedule, including a series of hearings in 
preparation for this year's Federal Aviation Administration 
reauthorization effort, as the agency's authorization expires 
in September of this year.
    For years, unmanned aircraft systems, UAS, also sometimes 
more popularly called ``drones,'' have been identified with 
fighting terrorism abroad. I have appreciated the important 
work that this technology has been used for in terms of 
protecting our country.
    Today's hearing is not about the military use of drones, 
but the commercial, recreational, and public utilization of a 
new technology that represents much promise.
    There has been great interest in this technology and its 
potential on the home front. For example, unmanned aircraft 
have countless civil and public applications. Just to name a 
few, they could assist in furthering precision in agricultural 
methods. They can conduct routine operations like utility line 
inspections that are expensive and sometimes dangerous when 
individuals do those on their own. They could enhance law 
enforcement and our homeland security when used appropriately, 
in protection of civil liberties.
    They could empower creative film makers. They could enable 
faster news gathering. They could bring sports action even 
closer to viewers. They may save lives in search and rescue 
operations, such as are often required on New Hampshire's 
legendary Mount Washington and some of the difficult rescue 
missions that have been done in our White Mountain National 
Forest.
    There is a great deal of potential for unmanned aircraft in 
America and reports estimate that UAS integration could yield 
tens of thousands of manufacturing jobs and tens of billions of 
dollars of positive economic impact, which all of us, of 
course, welcome to our economy.
    We want America to be the location of innovation, but at 
the same time, we have to look at this new technology and 
ability in balancing other important considerations that we 
have in this country.
    We cannot sacrifice safety, privacy, or prudent use of this 
new technology consistent with existing laws that we have and 
standards that we expect from people.
    These principles are not mutually exclusive. This hearing 
is an opportunity to learn more about how all of this fits 
together. We have heard previously, as I scheduled this hearing 
from eager operators that are worried we are falling behind 
competing nations, that integration has been slow.
    The FAA has granted dozens of exemptions allowing for the 
commercial use of unmanned systems, but the list of those 
waiting in line is still long. However, FAA announced a new 
interim policy to speed up authorizations today, and 
additionally, best practices and opportunities for testing UAS 
technologies are incomplete.
    The FAA's designated test sites have potential that has yet 
been fully realized. As with any new technology, incorporation 
requires thoughtful work and caution, particularly when it 
involves our national airspace system, the most complex 
aviation system in the world. There is a great potential here, 
but it must be managed correctly.
    The FAA's proposed rule published last month is a 
meaningful step in that direction. Access is expanded, but the 
proposed restrictions would not throw open the door unfettered 
to the use of unmanned systems.
    Potential operators may be disappointed by limitations 
imposed by this proposed rule. However, it is important that 
this rule is designed to be the next step, and that FAA is 
looking ahead to identify future areas to enable UAS usage.
    At any stage of UAS integration, a primary consideration 
has to be safety. We have all seen reports of UAS being flown 
recklessly, either near commercial aircraft, including the 
airport I regularly use in Manchester, New Hampshire, in 
dangerous proximity to people or landing in sensitive areas, 
like we heard, the White House lawn.
    No doubt as this fledgling industry expands, there will be 
more growing pains, but thoughtful policymaking and industry 
action can ensure the lowest risk to people and property.
    In addition to safety rules, it is important to have an 
ongoing dialogue about how unmanned aircraft will impact our 
lives and our expectations. In furtherance of that objective, 
the National Telecommunications and Information Administration 
is engaging stakeholders to consider best practices to address 
issues of privacy, transparency, and accountability.
    There is no easy cure all, but having concerned parties at 
the table developing ways to respect these considerations while 
enabling utilization of the potentially transformative 
technology is a worthy endeavor.
    Mr. Morris from NTIA is here today to provide information 
on this multi-stakeholder process.
    It is no surprise, and I think we can all understand, that 
one of the primary concerns that people have about the use of 
these unmanned systems is privacy. Unlimited surveillance by 
Government or private actors is not something that our society 
is ready or willing or should accept.
    Because UAS can significantly lower the threshold for 
observation, the risk of abuse and the risk of abusive 
surveillance increases, both from the Government side and also 
in the way that private individuals can interact with each 
other.
    While there are existing legal frameworks that may respond 
to some of these concerns, their application to unmanned 
aircraft pushes the boundaries and requires more attention and 
analysis.
    I look forward to hearing from all of you today about how 
you think we can best address these privacy concerns.
    I also want to point out that unmanned aircraft are not 
unique in their ability to observe. We do have other means 
where people are using telephoto lenses to allow observation at 
great distances, and other means of technology to observe other 
people as well.
    Here today, we want to hear about how we can best address 
the privacy concerns with these unmanned systems.
    This hearing is a chance to explore many of these important 
questions. I look forward to hearing the testimony today, as 
well as the comments of my colleagues, and I want to thank my 
Ranking Member, Senator Cantwell, and turn it over to her.

               STATEMENT OF HON. MARIA CANTWELL, 
           U.S. SENATOR FROM THE STATE OF WASHINGTON

    Senator Cantwell. Thank you, Madam Chair, and thank you for 
scheduling this hearing. I, too, would like to start by 
offering my condolences to the loved ones of passengers and 
crew from Germanwings Flight 9525. Our thoughts and prayers are 
with them in this incredible tragedy.
    I would like to welcome our witnesses today, and thank them 
for testifying on such an important subject as unmanned 
aircraft systems, and certainly appreciate the depth and 
breadth of the expertise that is represented on this panel 
today.
    I look forward to what each of you have to say about this 
area, and I am reminded that two FAA bill discussions ago, I 
think, we had similar discussions about defense and other 
applications as it related to the FAA and unmanned aerial 
vehicles.
    At that point in time, a small company in my state was 
trying to figure out how to move forward in cooperation with 
the FAA, and today that company has more than 800 people.
    This industry has continued to grow. Today, we are here to 
talk about the integration of unmanned aerial systems that 
require a balancing act between the safety of our skies, which 
we cannot and will not compromise, and the many possibilities 
enabled by unmanned systems, such as fighting wildfires, 
inspecting bridges and railroads, pipelines, aiding farmers, 
monitoring our borders, or simply delivering something as 
important as the new Seattle Seahawk Jersey.
    We all have heard from our constituents and local 
businesses about innovative solutions to existing problems or 
want to develop new markets using unmanned aerial system 
technology.
    Unfortunately, many of us have also heard from companies 
who had to move research or testing overseas as they were 
unable to receive the necessary permission from U.S. regulators 
in a timely fashion.
    American engineers and manufacturers will lead the way if 
we give them the ability to conduct the research and 
development, and I hope this panel can take the input here and 
help us move forward on how we do that.
    The small unmanned system rule proposed by the FAA in 
February is an important step forward, but technological 
advancements will not slow down while we determine how to 
address the newest set of challenges.
    For the most part, these challenges come in maintaining the 
safety of our airspace, the safety of people and property on 
the ground, and while the FAA's proposal includes a robust 
analysis of commercial unmanned aerial systems, cost/benefits 
and concerns, there are issues that remain about non-commercial 
users in the recreational community.
    The number of pilots reporting near misses with these 
unmanned systems around airports at altitudes well above 400 
feet speaks to the existing problem, which will only grow as 
technology becomes less expensive and more widely available.
    Some have suggested that we allow technological solutions 
to meet the demands created by technological problems and 
employ geo-fencing around airports and sensitive areas such as 
the White House to prevent reckless behavior or unintentional 
violations of airspace.
    This approach would change the paradigm of aviation, which 
has relied on self-regulation by pilots, but it is something I 
am sure we will be exploring today.
    There is also good news for safety because unmanned systems 
have the potential to save lives by performing dangerous tasks, 
as the Chairwoman was just mentioning. Virtually, all 
industries, such as inspecting power lines or assessing damage 
after a fire or the many natural disasters we have in the 
Pacific Northwest, could all be aided by these technology 
solutions.
    According to the Department of Labor, 4,400 workers died on 
the job in 2013, not all of these deaths could have been 
prevented by unmanned systems, but we have a responsibility to 
continue to improve worker safety, and some of these tasks 
could be performed in other ways.
    Many of the commercial unmanned systems that the FAA has 
already approved are from uses that promote worker safety, so I 
encourage the FAA to look at that in particular in this 
rulemaking.
    As the Chairwoman said, today the FAA just advanced an 
interim policy. That interim policy, a blanket certification of 
the Section 333, would streamline the process so that below 200 
feet, it would be an easier process for people to proceed with 
this technology. I applaud the FAA in that move.
    While we await a final unmanned system rule, which I am not 
sure how long that is going to take, I am sure we will have 
questions about that, I want to make sure that we are keeping 
that time-frame in mind. I do think American owned companies 
are faced with competitive disadvantages because of the slow 
pace of regulation.
    Several governments across the world are already working 
hand in hand with commercial unmanned system operators to find 
solutions where businesses can thrive with this existing new 
technology and also maintain the safety of airspace while they 
operate. I want to make sure that the U.S. stays mindful of 
that, and to being a home for this great technology.
    Another subject that I look forward to discussing here is 
the issue of privacy, including how this new technology will 
fit into our existing privacy laws and how we can protect 
private citizens and businesses from this unwanted 
surveillance.
    Some of the privacy debate is intertwined with larger 
discussions about data protection and security as well as 
tracking, so I hope we will be able to address these issues 
today, and I believe this hearing is an important step towards 
the FAA's authorization bill, which Chairwoman Ayotte and I are 
working together with the Chairman of the full committee, and 
Ranking Member Nelson.
    I hope we can continue to move these bills forward. Thank 
you.
    Senator Ayotte. I want to thank Senator Cantwell and most 
of all welcome our panel of witnesses today, and thank you for 
being here and for taking the time to talk about this important 
topic before our committee.
    First, I would like to welcome Ms. Margaret Gilligan. Ms. 
Gilligan is the Associate Administrator for Aviation Safety at 
the Federal Aviation Administration. Thank you, Ms. Gilligan.

                STATEMENT OF MARGARET GILLIGAN,

          ASSOCIATE ADMINISTRATOR FOR AVIATION SAFETY,

                FEDERAL AVIATION ADMINISTRATION

    Ms. Gilligan. I would like to thank the Chair, Senator 
Ayotte, and the Ranking Member, Senator Cantwell, and members 
of the Subcommittee for the opportunity to be here today.
    Before beginning my testimony, I, too, would like to 
express our condolences to those who were affected by today's 
tragic accident. Both the National Transportation Safety Board 
and the FAA are standing by to assist in the investigation in 
any way that we can.
    We are here today to discuss the safe integration of 
unmanned aircraft systems or UAS into the national airspace 
system. This technology holds huge potential and can be applied 
to a wide range of uses, but the technology also introduces new 
risks into the aviation system.
    As UAS technologies continue to advance at a rapid pace, 
the challenge is to develop a regulatory framework that will 
allow for continued innovation while ensuring the safety of 
other users of the airspace and people and property on the 
ground.
    Since the 2012 FAA Reauthorization Act, we have made a lot 
of progress, and we have learned a lot along the way. The FAA 
put forward a comprehensive plan and a 5-year roadmap to safely 
accelerate the integration of civil UAS. We have an aggressive 
research program that leverages the assets of our interagency 
partners and industry to overcome some of the largest barriers 
to UAS integration, such as detect and avoid technologies and 
standards.
    The six UAS test sites that we selected in 2013 to aid in 
UAS integration are fully operational, and have established 
their research agendas.
    The FAA Technical Center in Atlantic City, New Jersey is 
receiving data from the test sites that will help answer some 
of the key questions about how unmanned aircraft can interface 
with air traffic control. The Tech Center is working closely 
with the test sites to identify the data that will be most 
useful to the FAA.
    To facilitate commercial integration, we have issued over 
60 exemptions under Section 333 of the 2012 Act. These 
operations do not pose a risk to others operating in the NAS, 
to the general public, or to the national security, and they 
can be safely conducted by UAS without an Airworthiness 
Certificate.
    We have learned a lot in the process of approving these 
exemptions, and we are working hard to increase efficiency and 
decrease processing time for these requests.
    The FAA has also issued restricted category type 
certificates to two UAS so they can conduct flights for 
commercial purposes in the Arctic. We have issued 176 Special 
Airworthiness Certificates in the experimental category for 
civil UAS operations. Thirty-four of those approvals are active 
today. These approvals facilitate research and development, 
crew training, and market surveys.
    Last month, we proposed a rule that would allow routine use 
of small unmanned aircraft systems for commercial purposes 
without an Airworthiness Certificate or a Certificate of Waiver 
or Authorization for the use of airspace.
    The proposed rule would cover many potential small UAS 
operations, and offers a flexible framework for the safe use of 
these systems while accommodating future innovation in the 
industry. With this proposal, the United States would have one 
of the most flexible UAS regulatory frameworks in the world.
    As UAS operations in the system increase, we are reaching 
out to educate the public on the safe and responsible use of 
UAS. The FAA provided model aircraft enthusiasts guidance on 
the ``do's and don'ts'' of safe model aircraft operation.
    We have partnered with members of the industry and the 
modeling community to initiate the Know Before You Fly campaign 
to promote safe and responsible UAS operations.
    The FAA is also working to position law enforcement to 
deter, detect, investigate, and report unauthorized or unsafe 
operations. While our first action is to educate UAS operators 
about compliance, when appropriate, we will and we have used 
administrative or legal enforcement actions.
    Issuing a final rule for small UAS operations is a top 
priority for the FAA, but we are already looking beyond that 
rulemaking to identify additional types of operations and what 
technologies we may need to certify.
    The FAA has consulted with the UAS Aviation Rulemaking 
Committee for recommendations for enabling UAS operations with 
the highest societal benefits. These recommendations will 
result in additional focus areas that will become the 
centerpiece of FAA's plans for UAS integration.
    As the industry and system grow more complex, we must 
ensure that our resources are directed to the areas with the 
highest safety risks. We will need to expand collaborative data 
driven processes with the UAS industry to improve safety and 
streamline certification.
    To reach these objectives, we are developing a new advisory 
circular to inform the UAS industry how to use risk based 
decisionmaking to establish certification criteria. This 
advisory circular is essential for enabling the certification 
of larger UAS for operation in the NAS.
    The FAA is safely and steadily integrating UAS into the 
NAS, and as we do, we continue to look to the future to make 
sure the proper framework and standards are in place to 
facilitate safe integration in an increasingly complex airspace 
system.
    We look forward to continuing to work with our partners in 
Government, the aviation community, and this committee to make 
steady progress toward that goal.
    This concludes my statement, and I look forward to 
answering your questions.
    [The prepared statement of Ms. Gilligan follows:]

 Prepared Statement of Margaret Gilligan, Associate Administrator for 
         Aviation Safety, Federal Aviation Administration (FAA)
    Senator Ayotte, Senator Cantwell, Members of the Subcommittee:

    Thank you for the opportunity to appear before you today to discuss 
the status of the safe integration of Unmanned Aircraft Systems (UAS) 
into the National Airspace System (NAS).
    The FAA is safely and steadily integrating UAS into the largest, 
most complex aviation system in the world. At the same time, UAS 
technologies continue to advance at a rapid pace. Consequently, novel 
applications emerge challenging us to develop a regulatory framework 
that will allow for continued innovation while ensuring the safety of 
other users of the airspace and people and property on the ground.
    The FAA Modernization and Reform Act of 2012 (2012 Act) established 
the framework for the integration of UAS into the NAS and tasked the 
FAA with the safe integration of civil UAS into the system by October 
2015. We have followed through with Congress' intent in the 2012 Act 
and have completed milestones forming the foundation for future 
integration. This includes long-term planning for the future of 
integration, collaborative research and development with interagency 
partners and with industry, and the establishment of test sites and 
airspace for UAS research and development and testing.
    Consistent with the authority in section 333 of the 2012 Act, the 
FAA has issued 48 exemptions that allow for commercial activity in the 
NAS in low-risk, controlled environments. An exemption may be granted 
after a two-step process. First, the Secretary of Transportation 
determines that, based on criteria set forth in the statute, the UAS 
does not pose a risk to those operating in the NAS, the general public, 
or national security and it can be safely operated without an 
airworthiness certificate. The FAA will then use its exemption 
authority to grant relief from FAA regulations that may apply. The 
exemption process allows the FAA to evaluate each request to determine 
what conditions are required to ensure that the operation will not 
create an adverse impact on safety. Once an exemption is granted, the 
applicant must then apply for a civil Certificate of Waiver or 
Authorization (COA), an FAA authorization issued by the Air Traffic 
Organization permitting the operator to use specific airspace to 
conduct the proposed operation.
    Last month, we proposed a rule that would allow small unmanned 
aircraft systems to operate for commercial purposes without first 
obtaining an airworthiness certificate, section 333 exemption, or a 
COA. The proposal would cover many potential small UAS operations and 
would offer a flexible framework for the safe use of small unmanned 
aircraft, while accommodating future innovation in the industry. As 
proposed, the United States would have one of the most flexible UAS 
regulatory frameworks in the world.
    In addition to near-term challenges, the FAA is looking ahead at 
what is next, and how to coordinate near and long-goals while 
leveraging available resources to address the most pressing risks to 
the system.
Laying a foundation and taking the next step for safe integration
    From the outset, we have worked closely and successfully with 
government partners and industry stakeholders to achieve milestones put 
forward by the Act. We developed two long-term planning documents, the 
Comprehensive Plan and a five-year Roadmap, in coordination with other 
governmental agencies and industry to safely accelerate the integration 
of civil unmanned aircraft systems in the NAS. We have worked with 
members of the UAS Executive Committee (ExCom) to leverage our 
collective assets and conduct research and development to overcome some 
of the largest barriers to UAS integration and ensure the continued 
safety of the NAS. The FAA has collaborated with the National 
Aeronautics and Space Administration (NASA) on studies advancing air 
traffic control interoperability with the future UAS use of detect-and-
avoid (DAA) systems in controlled airspace. We continue to collaborate 
with members of industry on flight tests to validate RTCA \1\ standards 
for DAA systems as well as command and control radios. RTCA began work 
on the standards at the request of the FAA in 2013 and they are 
scheduled for completion in 2016. These standards will help to resolve 
two of the difficult challenges facing the industry for integration of 
UAS into the NAS. NASA, the FAA, and industry partners have 
successfully demonstrated a proof-of-concept airborne DAA system and 
prototype radios for use as command and control systems for UAS.
---------------------------------------------------------------------------
    \1\ RTCA, Inc. is not-for-profit organization that serves as a 
Federal advisory committee to the FAA. See http://www.RTCA.org.
---------------------------------------------------------------------------
    In November 2012, the FAA released its Arctic Implementation Plan 
to establish permanent operational areas and corridor routes in the 
Arctic for the operation of small UAS as required by the 2012 Act. In 
July 2013, a restricted category type certificate was issued to 
Insitu's ScanEagle X200 and to AeroVironment's PUMA so that each UAS 
could conduct Arctic flights for commercial purposes. In September 
2013, ConocoPhillips began using Insitu's ScanEagle for its marine 
mammal and ice surveys. In June 2014, BP began using AeroVironment's 
Puma AE to survey its pipelines, roads, and equipment at Prudhoe Bay, 
Alaska. Safety and operational data from the operators will be used to 
develop UAS operations and performance standards. The FAA has also 
issued 176 special airworthiness certificates in the experimental 
category for civil UAS, 34 of which are currently active. Special 
airworthiness certificates are issued for research and development, 
crew training, and market surveys.
    In December 2013, the FAA selected six test sites for non-federal 
entities to test UAS technology and operations. By September 2014, all 
of the UAS test sites, which were selected based on geographic and 
climatic diversity, were operational and will help us gather 
operational data to foster further integration. Flights of unmanned 
aircraft have already been conducted at test sites, including flights 
for research on agricultural and wildlife monitoring and on law 
enforcement and emergency services support.
    Once the test sites were ready, the FAA gave them priority for 
their first COA. The test sites all qualified as public entities so 
their initial operations were under the public aircraft operations 
statute. In 2014, the FAA implemented a Designated Airworthiness 
Representatives program which will permit test site designees to issue 
experimental certificates for unmanned aircraft for research and 
development, crew training, and market surveys. Test site designees 
need only complete FAA training, available online or in person, to be 
authorized to work within this new program. This new delegation 
authority will improve access to the test sites by UAS manufacturers, 
as well as help to decrease the workload on the FAA to process UAS 
experimental certificates.
    On February 15, 2015, the FAA announced the Small UAS Notice of 
Proposed Rulemaking that would allow routine use of certain small UAS 
in the NAS. The proposed rule would allow unmanned aircraft weighing up 
to 55 pounds to operate without the need for an airworthiness 
certificate if the operations take place under a set of parameters to 
maintain safety including operating at speeds below 100 mph and below 
500 feet in altitude. The proposal would allow operations during 
daylight hours and would require the operator to be able to see the 
unmanned aircraft at all times. Rather than requiring a private pilot 
certificate, the proposal is for operators to obtain a FAA unmanned 
aircraft operator's certificate by passing a written proficiency test. 
Before each flight, operators would conduct a preflight inspection, 
just as pilots do with manned aircraft today. The proposal does not 
permit flight over any persons not directly involved in the operation 
unless those persons are located under a covered structure. Also, 
unmanned flights would not be allowed in Class A (18,000 feet & above) 
airspace and, unless air traffic control gives permission, would be 
restricted from operating in certain busy airspace or in airspace 
otherwise restricted to most or all aviation users.
    In April 2008, the FAA chartered the small UAS Aviation Rulemaking 
Committee (ARC) that included members from a wide spectrum across the 
aviation community, to provide recommendations on how small UAS could 
be safely integrated into the NAS. In April 2009, the small UAS ARC 
provided recommendations and the FAA began working on a rulemaking that 
encompassed the widest possible range of small UAS operations. The 
approach utilized a regulatory structure similar to the one used for 
manned aircraft; small UAS operations that pose a low risk to people, 
property, and other aircraft would be subject to less stringent 
regulation, while small UAS operations posing a greater risk would be 
subject to more stringent regulation to mitigate the greater risk. 
Developing this broadly-scoped approach to the rulemaking effort took 
significantly longer than anticipated, as the FAA had a desire to put 
forth a proposal that struck the right balance between mitigating 
safety risks, yet allowing for changing technology and innovation.
    The framework for UAS integration established by the FAA 
Modernization and Reform Act of 2012 enabled the FAA to take a more 
stream-lined, risk-based approach to this rule, and to lay a strong 
foundation that will facilitate safe integration and harness innovation 
in this rapidly evolving landscape. The flexibility with regard to 
airworthiness certification for small, low-risk operations that 
Congress provided in section 333 of the 2012 Act, enabled us to proceed 
with multiple incremental UAS rules rather than a single omnibus 
rulemaking.
    The public comment period on the proposed small UAS rule is 
scheduled to close on April 24, 2015. Issuing a small UAS final rule is 
one of the FAA's and the Department of Transportation's highest 
priorities, however the timing to promulgate the final rule will depend 
heavily on the quantity and substance of comments we receive.
Building on the foundation for safe integration of UAS
    The FAA has issued nearly 50 exemptions under section 333 of the 
2012 Act and will apply this experience to increase efficiencies and 
decrease processing time.
    The FAA continues to use information and data provided by test 
sites and other operators, as well as that obtained from its own 
research and development, or partnerships with other agencies or 
industry, to continue to identify challenges, validate advanced 
mitigation strategies, and explore opportunities to progress to the 
next steps in integrating UAS into the NAS.
    Test sites are providing data about the types and sizes of 
aircraft, number of operations, number of flight hours, notable 
operating parameters (for example, whether the flight was within or 
beyond visual line of sight), and any incidents and accidents. Each 
site has also established its own research agenda. A significant 
portion of test site data analysis is being performed at the FAA 
William J. Hughes Technical Center. A Data Lead from the Technical 
Center, regional representatives, and research engineers, are visiting 
each UAS test site to evaluate how data is captured and maintained, 
ensure the integrity of data transferred to the FAA, and determine 
whether additional data collection would facilitate meeting the FAA's 
research objectives. The FAA invited public comment in the proposed 
small UAS rule on how the agency can improve or further leverage its 
test site program to encourage innovation and safe UAS integration into 
the NAS.
    Consistent with the direction in the agency's FY 2014 
appropriation, the FAA is in the process of selecting a new UAS Center 
of Excellence (COE) which will serve as another resource for 
identifying solutions for existing and anticipated UAS-related issues. 
We intend to forge a union of public sector, private sector, and 
academic institutions to create a world-class consortium that will 
identify solutions for existing and anticipated UAS-related issues. We 
are evaluating multiple proposals and plan to establish the COE later 
this year.
    UAS have become increasingly available and affordable to the 
average consumer, many of whom are not trained aviators. Manned 
aircraft operators have reported close calls with UAS flying in the 
airspace. The FAA is taking a proactive approach to educate the public 
on the safe and responsible use of UAS. The FAA provided model aircraft 
enthusiasts guidance on the ``do's and don'ts'' of safe model aircraft 
operations. Last year, we partnered with members of industry and the 
modeling community to initiate the ``Know Before You Fly'' educational 
outreach campaign that provides UAS operators with the information they 
need to fly safely and responsibly. The FAA's No Drone Zone initiative, 
to raise public awareness of the FAA Notice to Airmen, prohibiting 
unauthorized aircraft-including UAS-from flying over or near NFL 
regular-and post-season football, games is a success. The No Drone Zone 
video posted on YouTube prior to the 2015 Super Bowl has received over 
57,000 hits, and most importantly, we did not receive any reports of 
unauthorized activity in the restricted airspace over University of 
Phoenix Stadium during the game.
    Recognizing that local law enforcement is often in the best 
position to respond quickly, the FAA issued guidance for these first 
responders to deter, detect, investigate, and report unauthorized or 
unsafe UAS operations. While our first action is to educate UAS 
operators about statutory and regulatory compliance, when appropriate, 
we will use administrative and legal enforcement action to gain 
compliance.
Future vision and challenges
    We are already looking beyond the small UAS rulemaking at what 
comes next in terms of the types of operations expected, and what 
technologies we may need to certify. The FAA has consulted with the UAS 
ARC to determine the next areas on which to focus so as to enable those 
UAS operations with the highest net societal benefits. These 
recommendations are being assessed and will result in additional focus 
areas that will become the centerpiece for FAA's strategic plans for 
UAS integration.
    As the aerospace industry and aviation system grow more complex, we 
must ensure that our resources are directed to the areas with the 
highest safety risk. We will need to expand collaborative, data-driven 
processes with the UAS industry to improve safety and streamline 
process in areas such as certification. We must meet challenges and 
take advantage of opportunities.
    To reach these objectives, a new advisory circular is being 
developed to inform the UAS industry how to use a risk based decision-
making process to establish certification criteria. This advisory 
circular is essential for enabling the certification of larger UAS for 
operation in the NAS.
    Another key initiative is one that the FAA is undertaking through a 
Cooperative Research and Development Agreement with CNN to look at the 
operations of UAS engaged in newsgathering and at flexible ways to 
facilitate safe operation over people and in urban areas. These 
activities will support the development of standards for small UAS 
intended for use in populated areas. These standards are under 
development by ASTM International.
    The safe integration of UAS into the NAS will be facilitated by new 
technologies being deployed as part of the Next Generation Air 
Transportation System (NextGen). NAS Voice System (NVS), Data 
Communications (Data Comm), and System Wide Information Management 
(SWIM) will provide more information, flexibility, situational 
awareness and a greater ability to communicate with NAS users.
    The United States has the safest aviation system in the world, and 
our goal is to integrate this new and important technology while 
maintaining safety as our highest priority. We are committed to 
ensuring that the United States continues to lead the world in the 
development and implementation of aviation technology for safety. We 
look forward to continuing to work with Congress as we continue to 
integrate UAS into the NAS.
    This concludes my statement. I will be happy to answer your 
questions at this time.

    Senator Ayotte. Thank you very much. I now would like to 
introduce Mr. John Morris, Jr. Mr. Morris is the Associate 
Administrator for the Office of Policy Analysis and Development 
at the National Telecommunications and Information 
Administration, or known as NTIA.
    Thank you for being here, Mr. Morris.

          STATEMENT OF JOHN B. MORRIS, JR., ASSOCIATE

            ADMINISTRATOR, OFFICE OF POLICY ANALYSIS

          AND DEVELOPMENT, NATIONAL TELECOMMUNICATIONS

                AND INFORMATION ADMINISTRATION,

                  U.S. DEPARTMENT OF COMMERCE

    Mr. Morris. Chairman Ayotte, Ranking Member Cantwell, and 
members of the Subcommittee, thank you for the opportunity to 
testify regarding NTIA's upcoming multi-stakeholder process to 
enhance privacy, transparency, and accountability in the use of 
commercial and private unmanned aircraft systems, or UAS.
    NTIA is the principal advisor to the President on 
communications and information policy issues. Our focus frankly 
is not on aircraft systems but on increasing broadband access 
and adoption, on expanding spectrum opportunities, and assuring 
that the Internet remains an engine for continued innovation 
and economic growth.
    Increasingly, our Internet policy work has focused on 
enhancing consumer privacy in order to strengthen the trust and 
consumer adoption of new and evolving technologies, and the 
critical method of developing flexible and effective policy in 
the Internet era is through the multi-stakeholder approach.
    In this model, stakeholders work together to reach 
consensus on best practices and codes of conduct that can be 
implemented in the marketplace. Stakeholders can include 
private industry, consumer groups, academics, and others with 
an interest in an area.
    The hallmark of these processes is they are open, 
transparent, and consensus based. NTIA's role in multi-
stakeholder processes is as a convener and facilitator of the 
stakeholder discussions. We are not a regulator in this area, 
and we do not substitute our judgment for those of the 
stakeholders.
    We have used and are using the multi-stakeholder approach 
in a wide range of policy areas including privacy, online 
copyright, and cybersecurity.
    The February Presidential Memorandum on UAS calls on NTIA 
to convene a multi-stakeholder process to bring industry, civil 
society, technical experts, academics, and others together to 
craft best practices that address the very important issues of 
privacy, transparency, and accountability in the commercial and 
private use of UAS.
    In early March, NTIA issued a Request for Comment seeking 
public input on the structure of the multi-stakeholder 
engagement on UAS, and on the substantive issues that 
stakeholders will discuss.
    In the RFC, NTIA seeks input on questions that could frame 
the multi-stakeholder discussions, including just as some 
examples, what UAS enabled commercial services raises the most 
pressing privacy challenges, what best practices would mitigate 
privacy challenges while supporting innovation, what 
information should commercial UAS operators make public and how 
best should that information be made public.
    How can UAS operators ensure that their operations comply 
with the relevant policies and best practices, and importantly, 
are there different policy issues raised by different aircraft 
sizes and different commercial uses.
    Comments on these and other questions are due on April 20, 
and we expect to convene the first public meeting later this 
spring. NTIA will use the comments it receives to help 
establish an efficient and effective structure for the multi-
stakeholder engagement.
    We courage all individuals and entities that have interest 
in these important issues to submit comments and we will 
certainly encourage them to participate in the multi-
stakeholder meetings as well.
    We hope the stakeholders will work collaboratively to 
identify safeguards that address the privacy, accountability, 
and transparency challenges posed by commercial and private UAS 
use.
    NTIA is pleased to be able to contribute to the 
Administration's efforts to ensure that the integration of UAS 
under the national airspace takes into account not only public 
safety and economic competitiveness, but also the privacy and 
civil liberties issues that these systems may raise.
    Thank you again for the opportunity to participate in 
today's hearing, and I look forward to answering any questions 
you may have.
    [The prepared statement of Mr. Morris follows:]

  Prepared Statement of John B. Morris, Jr., Associate Administrator, 
Office of Policy Analysis and Development, National Telecommunications 
                                  and 
        Information Administration, U.S. Department of Commerce
    Chairman Ayotte, Ranking Member Cantwell, members of the 
Subcommittee, thank you for this opportunity to testify on behalf of 
the National Telecommunications and Information Administration (NTIA) 
regarding NTIA's process to enhance privacy, transparency, and 
accountability regarding commercial and private use of unmanned 
aircraft systems (UAS).
    NTIA, part of the U.S. Department of Commerce, is the principal 
advisor to the President on communications and information policy 
issues. NTIA's programs and policymaking priorities include: expanding 
broadband Internet access and adoption in America; expanding the use of 
spectrum by all users; and ensuring that the Internet remains an engine 
for continued innovation and economic growth.
    In 2012, Congress recognized the potential wide-ranging benefits of 
UAS operations within the United States in the FAA Modernization and 
Reform Act (Public Law 112-95), which requires a plan to safely 
integrate civil UAS into the National Airspace System (NAS) by 2015. 
Our colleagues at the Federal Aviation Administration are leading the 
Administration's development and implementation of the integration 
plan, supporting safe and efficient UAS operations in the NAS. As 
discussed below, NTIA is contributing to the Administration's efforts 
by convening stakeholders to develop best practices that can enhance 
privacy, transparency, and accountability in the operation of UAS, 
thereby facilitating the adoption of this innovative technology 
platform in the most responsible and efficient manner possible.
    Compared to manned aircraft, UAS may lower operation costs and 
augment existing capabilities while reducing risks to human life. 
Estimates suggest the positive economic impact to U.S. industry of the 
integration of UAS into the national airspace could be substantial and 
likely will grow for the foreseeable future. UAS may be able to provide 
a variety of commercial services less expensively than manned aircraft, 
including aerial photography and farm management, while reducing or 
eliminating safety risks to aircraft operators. In addition, UAS may be 
able to provide some commercial services that would be impossible for 
manned aircraft. For example, improvements in technology may allow 
small UAS to deliver packages to homes and businesses where manned 
aircraft cannot land, and high-altitude UAS could provide Internet 
service to remote areas by remaining aloft for months at a time--far 
longer than manned aircraft.
    On February 15, 2015, President Obama issued the Presidential 
Memorandum ``Promoting Economic Competitiveness While Safeguarding 
Privacy, Civil Rights, and Civil Liberties in Domestic Use of Unmanned 
Aircraft Systems.'' \1\ The Memorandum states: ``[a]s UAS are 
integrated into the NAS, the Federal Government will take steps to 
ensure that the integration takes into account not only our economic 
competitiveness and public safety, but also the privacy, civil rights, 
and civil liberties concerns these systems may raise.''
---------------------------------------------------------------------------
    \1\ Presidential Memorandum, ``Promoting Economic Competitiveness 
While Safeguarding Privacy, Civil Rights, and Civil Liberties in 
Domestic Use of Unmanned Aircraft Systems,'' (Feb. 15, 2015), available 
at: http://www.whitehouse.gov/the-press-office/2015/02/15/presidential-
memorandum-promoting-economic-competitiveness-while-safegua.
---------------------------------------------------------------------------
    The focus of the Memorandum is on UAS usage by the Federal 
government, but it also contains a key provision focused on commercial 
UAS use. The Memorandum calls on NTIA to bring industry, civil society, 
technical experts, academics, and other stakeholders together to craft 
best practices that mitigate potential privacy risks, while at the same 
time promoting growth and innovation. UAS can enable aerial data 
collection that is more sustained and pervasive than manned flight; at 
the same time, UAS flights can reduce costs, provide novel services, 
and promote economic growth. These attributes create opportunities for 
innovation, but also pose privacy challenges regarding collection, use, 
retention, and dissemination of data collected by UAS. We hope that 
stakeholders will identify safeguards that address the privacy 
challenges posed by commercial and private UAS use.
    NTIA has an established track record of promoting the 
multistakeholder approach to policy development both internationally 
and domestically. Pursuant to President Obama's 2012 privacy blueprint, 
NTIA has convened stakeholders to develop privacy codes of conduct for 
mobile apps and commercial uses of facial recognition technology.\2\ 
The hallmark of these processes is that they are open, transparent, and 
consensus-driven.
---------------------------------------------------------------------------
    \2\ The White House, ``Consumer Data Privacy in a Networked World: 
A Framework for Protecting Privacy and Promoting Innovation in the 
Global Digital Economy,'' (Feb. 23, 2012), available at: http://
www.whitehouse.gov/sites/default/files/privacy-final.pdf.
---------------------------------------------------------------------------
    On March 4, 2015, NTIA issued a Request for Comment (RFC) seeking 
public input on the structure of a multistakeholder engagement on UAS, 
and on the substantive issues stakeholders will discuss.\3\ In the RFC, 
NTIA seeks input on questions that could frame the multistakeholder 
discussions, including:
---------------------------------------------------------------------------
    \3\ NTIA, ``NTIA Seeks Comment on Process for Developing Best 
Practices for Commercial and Private Use of Unmanned Aircraft 
Systems,'' (Mar. 4, 2015), available at: http://www.ntia.doc
.gov/press-release/2015/ntia-seeks-comment-process-developing-best-
practices-commercial-and-private-use-u.

  <bullet> Do some UAS-enabled commercial services raise unique or 
---------------------------------------------------------------------------
        heightened privacy issues?

  <bullet> What specific best practices would mitigate the most 
        pressing privacy challenges while supporting innovation?

  <bullet> What information should commercial UAS operators make 
        public?

  <bullet> How can UAS operators ensure that oversight procedures for 
        commercial and private UAS operation comply with relevant 
        policies and best practices?

  <bullet> Should discussions be divided to address the needs of 
        different aircraft sizes or commercial uses?

    The RFC asks a number of additional detailed questions. Comments 
are due on April 20, 2015, and NTIA expects to convene the first public 
meeting later this spring. NTIA will use the comments it receives to 
help establish an efficient, effective structure for the 
multistakeholder engagement and to identify the substantive issues 
stakeholders wish to discuss. We encourage all individuals and entities 
with interests in these important issues to submit comments, and we 
urge stakeholders to participate in the multistakeholder process.
    In addition to privacy concerns, the NTIA-convened process also is 
aimed at helping stakeholders develop best practices for the 
transparency of UAS operations. Transparent operation might include 
identifying the entities that operate particular UAS, the purposes of 
UAS flights, and the data practices associated with UAS operations. 
Transparent UAS operation can enhance privacy, increase consumer trust 
in the technology, and bolster other values. Transparency can help 
property owners identify UAS if an aircraft erroneously operates over 
or lands on private property. Transparency can also facilitate reports 
of UAS operations that cause nuisances or appear unsafe. We will 
encourage stakeholders to identify mechanisms, such as standardized 
physical markings or electronic identifiers, which could promote 
transparent UAS operation and facilitate appropriate response to 
illegal UAS operations.
    The NTIA-convened process will also provide an opportunity for 
stakeholders to build consensus around best practices for accountable 
UAS operation. Accountability mechanisms can include rules regarding 
oversight and privacy training for UAS pilots, as well as policies for 
how companies and individuals operate UAS and handle data collected by 
UAS. Accountability programs can also employ audits, assessments, and 
internal or external reports to verify UAS operators' compliance with 
their privacy and transparency commitments. Accountability mechanisms 
can be implemented by companies, model aircraft clubs, UAS training 
programs, or others. We hope that stakeholders will identify mechanisms 
that can promote accountable UAS operation.
    NTIA is pleased to play a role in the Administration's efforts to 
ensure that the integration of UAS into the national airspace takes 
into account not only our economic competitiveness and public safety, 
but also the privacy, civil rights, and civil liberties concerns these 
systems may raise.
    Thank you again for the opportunity to participate in today's 
hearing.

    Senator Ayotte. Thank you, Mr. Morris. I would like to 
welcome Dr. Gerald Dillingham here today. Dr. Dillingham is the 
Director of Civil Aviation Issues at the U.S. Government 
Accountability Office, better known as the GAO. Thank you, Dr. 
Dillingham.

           STATEMENT OF GERALD L. DILLINGHAM, Ph.D.,

               DIRECTOR OF CIVIL AVIATION ISSUES,

             U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Dr. Dillingham. Thank you, Madam Chairman, Ranking Member 
Cantwell, members of the Subcommittee.
    Since the early 1990s, UAS have operated on a limited basis 
in the national airspace system, primarily supporting military 
and border security. As the Chair and the Ranking Minority 
Member said in their remarks, the list of potential uses is now 
rapidly expanding, and the economic impact of UAS integration 
into the NAS has been estimated to grow to more than $82 
billion by 2025.
    As Ms. Gilligan has testified, FAA has taken some steps 
toward integration, including establishing the six test sites 
and most recently issuing the NPRM for small UAS, but there is 
more work to be done.
    My statement today focuses on three areas for moving 
forward with UAS integration. First, the status of the FAA 
designated UAS test sites. Second, how other countries are 
integrating UAS into the airspace for commercial purposes, and 
third, critical next steps for integration.
    Regarding the test sites, in December 2014, we reported 
problems with the working relationship and communications 
between FAA and the test sites. For example, some of the test 
site operators reported that they were not receiving adequate 
guidance from FAA on the kind of research needed to support 
integration or how it should be reported.
    More recently, officials in FAA and some test sites told us 
that the situation had improved in part because both FAA and 
the sites have made a dedicated effort to work together through 
activities such as bi-weekly meetings and information sharing 
about research needs.
    Continued coordination will be important to ensuring that 
the test sites produce the data that supports standard 
development for UAS integration.
    With regard to international UAS activities, our work shows 
that a number of countries allow commercial UAS operations and 
have done so for years. For example, Australia and Canada have 
had UAS regulations in place for a decade or more.
    My written statement contains a table with the regulatory 
requirements among four selected countries and the U.S., and 
showing common traits and differences. One key difference is 
that in these other countries, they generally have a different 
legal structure than the U.S., which may allow more flexibility 
in the development of regulations.
    Second, these countries have less general aviation and 
commercial air traffic and a much less complex airspace, which 
means there is a lower risk of UAS collisions with a manned 
aircraft. However, if UAS were to be flying in the NAS today 
under FAA's proposed rules, they would operate under 
restrictions that are very similar to regulations in these four 
countries, with some notable exceptions.
    For example, Canada relies more heavily on a risk 
management approach to allow more UAS commercial operations 
than the U.S.
    Going forward, FAA still needs to take several critical 
steps to maintain the current momentum toward integration. 
These steps including the following: first, FAA must develop a 
detailed implementation plan that would identify the 
activities, resources, and schedule which could also serve as a 
means to hold FAA accountable.
    Second, FAA should continue to process the comments it 
receives on the NPRM and issue a final rule for small UAS 
operations as soon as possible. To date, there have been more 
than 1,000 comments submitted with thousands more expected. FAA 
estimates this process will likely not be completed until late 
2016 or early 2017.
    Third, FAA must continue its efforts to make the test sites 
useful, including working with the operators to identify 
incentives to encourage greater activities at the sites.
    Fourth, in concert with the UAS industry, FAA should 
consider expanding the public education campaign on permissible 
and safe UAS operations, which could begin to ease public 
concerns about privacy and safety.
    Finally, FAA will need to ensure that the integration of 
UAS is closely coordinated with the development of the next 
generation air transportation system.
    Thank you, Madam Chair, Ranking Member Cantwell, and 
members of the Subcommittee. That completes my oral statement.
    [The prepared statement of Dr. Dillingham follows:]

 Prepared Statement of Gerald L. Dillingham, Ph.D., Director, Physical 
 Infrastructure Issues, United States Government Accountability Office
Unmanned Aerial Systems
Status of Test Sites and International Developments
    Chairwoman Ayotte, Ranking Member Cantwell, and Members of the 
Subcommittee:

    I appreciate the opportunity to testify on the Federal Aviation 
Administration's (FAA) efforts to integrate unmanned aerial systems 
(UAS)\1\ into the national airspace system (NAS). Since the early 
1990s, unmanned aerial systems have operated on a limited basis in the 
national airspace system primarily supporting public operations, such 
as military and border-security operations.\2\ The list of potential 
uses is now rapidly expanding to include a broad range of other 
activities including assisting in search and rescue operations, 
inspecting pipelines, photographing real estate, surveying land and 
crops, disaster assistance, gathering news, and filming movies. The 
term ``unmanned aerial system'' is used to recognize that UASs include 
not only the airframe and power plant, but also associated elements 
such as a ground control station and the communications links as shown 
in figure 1. In fact, according to a 2013 report by a UAS industry 
group, the economic impact of integrating UASs into the national 
airspace system will total more than $13.6 billion in the first 3 years 
of integration and grow to more than $82.1 billion from 2015 through 
2025. However, without specific UAS regulations in place, authorized 
UAS access to the national airspace can generally only occur after a 
case-by-case safety review by the FAA. These approved operations are 
generally limited to flights within the operator's ``line of sight'' at 
a few specified locations.\3\ Under the FAA Modernization and Reform 
Act of 2012, enacted in February 2012 (the 2012 Act), FAA issued a 
Notice of Proposed Rulemaking (NPRM) for small UAS operations in 
February 2015.\4\ However, FAA has stated that it will take 16 months 
to address comments and issue a final rule.
---------------------------------------------------------------------------
    \1\ UAS--also known as ``unmanned aerial vehicles,'' ``unmanned 
aircraft systems,'' ``remotely piloted aircraft,'' ``unmanned 
aircraft,'' or ``drones''--refer to aircraft that operate by following 
commands from pilot-operated ground control stations and pre-programmed 
routes.
    \2\ GAO, Unmanned Aerial Systems: Department of Homeland Security's 
Review of U.S. Customs and Border Protection's Use and Compliance with 
Privacy and Civil Liberty Laws and Standards, GAO-14-849R (Washington, 
D.C.: Sept. 30, 2014).
    \3\ NASA and the Department of Homeland Security--U.S. Customs and 
Border Protection operate large UAS beyond visual line-of-sight 
operations with prior approval from FAA.
    \4\ FAA Modernization and Reform Act of 2012, Pub. L. No. 112-95, 
Sec. Sec. 331-335, 126 Stat. 11 (2012).

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    While FAA continues to make incremental progress on integration, 
questions have been raised about whether the six UAS test sites 
established by FAA, as required by the 2012 Act, are being used 
effectively enough to help FAA meet its UAS research needs. FAA 
requires safety and operations data from UAS operators for continued 
development of standards supporting the safe and routine integration of 
UASs. Furthermore, questions have been raised as to whether other 
countries are making greater progress toward allowing commercial UAS 
operations, and may outpace efforts made in the United States. Finally, 
the safety of the national airspace is threatened on nearly a daily 
basis by UAS operating without approval. The FAA has reported that 
there have been 25 incidents a month involving unmanned aircraft. These 
incidents have included UASs operating dangerously close to commercial 
aircraft, and numerous instances of UASs flying over professional and 
college football stadiums full of people.
    My statement today provides preliminary observations on: (1) the 
status of activity at FAA's designated UAS test sites, (2) how other 
countries have progressed toward UAS integration into their airspace 
for commercial purposes, and (3) the challenges for FAA going forward.
    My statement is based on our ongoing study for this committee and 
the House Committee on Transportation and Infrastructure and its 
subcommittee on Aviation on UAS integration into the national airspace 
system. We expect to issue this report later this year. We conducted 
the ongoing work from January 2014 through March 2015. For this 
testimony, we reviewed FAA's Comprehensive Plan \5\ and Roadmap for UAS 
integration.\6\ To identify the status of activity at the UAS test 
sites, we reviewed documents from each of these six test sites where 
FAA has recently allowed UAS operations and spoke with officials from 
all six of the test sites. To identify how other countries have 
progressed toward UAS integration for civil and commercial purposes, we 
spoke with the International Civil Aviation Organization (ICAO) and 
other stakeholders familiar with the UAS activities currently occurring 
in other countries.\7\ We also reviewed relevant empirical literature 
and media reports to obtain information and perspectives on current 
developments and future challenges, and spoke with representatives from 
aviation authorities from Australia, Canada, France, and the United 
Kingdom, to understand their regulations related to UASs and associated 
activities. To identify key challenges to UAS integration, we conducted 
semi-structured interviews with FAA officials and a wide range of 
stakeholders, including representatives of Federal agencies such as 
Department of Defense, National Aeronautics and Space Administration 
(NASA), test site officials, research organizations, academics, and 
industry experts.
---------------------------------------------------------------------------
    \5\ JPDO, Unmanned Aircraft Systems (UAS) Comprehensive Plan: A 
Report on the Nation's UAS Path Forward (Washington, D.C.: September 
2013).
    \6\ FAA, Integration of Civil Unmanned Aircraft Systems (UAS) in 
the National Airspace System (NAS) Roadmap: First Edition--2013 
(Washington, D.C.: November 2013).
    \7\ ICAO is the international body that, among other things, 
promulgates international standards and recommended practices in an 
effort to harmonize global aviation standards.
---------------------------------------------------------------------------
    The work this statement was based on was performed in accordance 
with generally accepted government auditing standards. Those standards 
require that we plan and perform the audit to obtain sufficient, 
appropriate evidence to provide a reasonable basis for our findings and 
conclusions based on our audit objectives. We believe that the evidence 
obtained provides a reasonable basis for our findings and conclusions 
based on our audit objectives.
Background
    FAA has authority to authorize all UAS operations in the national 
airspace--military; public (academic institutions and federal, state, 
and local governments including law enforcement organizations); and 
civil (non-government including commercial). Currently, since a final 
rulemaking is not completed, FAA only allows UAS access to the national 
airspace on a case-by-case basis. FAA provides access to the airspace 
through three different means:

  <bullet> Certificates of Waiver or Authorization (COA): Public 
        entities including FAA-designated test sites may apply for COA. 
        A COA is an authorization, generally for up to 2 years, issued 
        by the FAA to a public operator for a specific UAS activity. 
        Between January 1, 2014 and March 19, 2015 FAA had approved 674 
        public COAs.

  <bullet> Special Airworthiness Certificates in the Experimental 
        Category (Experimental Certificate): Civil entities, including 
        commercial interests, may apply for experimental certificates, 
        which may be used for research and development, training, or 
        demonstrations by manufactures.

  <bullet> Section 333 exemptions: Since September 2014, commercial 
        entities may apply to FAA for issued exemptions under section 
        333 of the 2012 Act, Special Rules for Certain Unmanned 
        Aircraft Systems. This exemption requires the Secretary of 
        Transportation to determine if certain UASs may operate safely 
        in the national airspace system prior to the completion of UAS 
        rulemakings. FAA has granted such exemptions to 48 of 684 total 
        applications (7 percent) from companies or other entities 
        applying under section 333. These companies may apply to fly at 
        their own designated sites or the test sites.\8\
---------------------------------------------------------------------------
    \8\ As of March 19, 2014.

    While limited operations continue through these means of FAA 
approval, FAA has been planning for further integration.
    In response to requirements of the 2012 Act, FAA issued the UAS 
Comprehensive Plan and the UAS Integration Roadmap, which broadly map 
the responsibilities and plans for the introduction of UAS into the 
national airspace system. These plans provide a broad framework to 
guide UAS integration efforts. The UAS Comprehensive Plan described the 
overarching, interagency goals, and approach and identified six high-
level strategic goals for integrating UAS into the national 
airspace.\9\ The FAA Roadmap identified a broad three-phase approach to 
FAA's UAS integration plans--Accommodation, Integration, and 
Evolution--with associated priorities for each phase that provide 
additional insight into how FAA plans to integrate UAS into the 
national airspace system. This phased approach has been supported by 
both academics and industry. FAA plans to use this approach to 
facilitate further incremental steps toward its goal of seamlessly 
integrating UAS flight into the national airspace.
---------------------------------------------------------------------------
    \9\ The six goals address small UAS (under 55 pounds) operating 
within visual line-of-sight, larger UASs and operations beyond visual 
line-of-sight, planning and managing growing automation capabilities 
through research, and the opportunity for the U.S. to remain world 
leaders in UAS technology.

  <bullet> Accommodation phase: According to the Roadmap, in the 
        accommodation phase, FAA will apply special mitigations and 
        procedures to safely facilitate limited UAS access to the 
        national airspace system in the near-term. Accommodation is to 
        predominate in the near-term with appropriate restrictions and 
        constraints to mitigate any performance shortfalls. UAS 
        operations in the national airspace system are considered on a 
        case-by-case basis. During the near-term, R&D is to continue to 
        identify challenges, validate advanced mitigation strategies, 
        and explore opportunities to progress UAS integration into the 
---------------------------------------------------------------------------
        national airspace system.

  <bullet> Integration phase: The primary objective of the integration 
        phase is establishing performance requirements for UAS that 
        would increase access to the NAS. During the mid-to far-term, 
        FAA is to establish new or revised regulations, policies, 
        procedures, guidance material, training, and understanding of 
        systems and operations to support routine NAS operations. FAA 
        plans for the integration phase to begin in the near-to mid-
        term with the implementation of the small UAS rule and is to 
        expand the phase further over time (mid-and far-term) to 
        consider wider integration of a broader field of UASs.

  <bullet> Evolution phase: In the evolution phase, FAA is to work to 
        routinely update all required policy, regulations, procedures, 
        guidance material, technologies, and training to support UAS 
        operations in the NAS operational environment as it evolves 
        over time. According to the Roadmap, it is important that the 
        UAS community maintains the understanding that the NAS 
        environment is not static and that many improvements are 
        planned for the NAS over the next 13--15 years. To avoid 
        obsolescence, UAS developers are to maintain a dual focus: 
        integration into today's NAS while maintaining cognizance of 
        how the NAS is evolving.

    In February 2015, FAA issued a Notice for Proposed Rulemaking for 
the operations of small UASs--those weighing less than 55 pounds--that 
could, once finalized, allow greater access to the national 
airspace.\10\ To mitigate risk, the proposed rule would limit small 
UASs to daylight-only operations, confined areas of operation, and 
visual-line-of-sight operations. FAAs release of this proposed rule for 
small UAS operations started the process of addressing additional 
requirements of the 2012 Act. See table 1 for a summary of the rule's 
major provisions.
---------------------------------------------------------------------------
    \10\ 80 Fed. Reg. 9544 (Feb. 23, 2015).

 
 
------------------------------------------------------------------------
 


    Table 1.--Summary of Major Categories and Selected Provisions of
       Proposed Rule for Small Unmanned Aerial Systems Operations
------------------------------------------------------------------------
           Category                 Summary of proposed requirements
------------------------------------------------------------------------
Operational limitations        <bullet> Must weigh less than 55 lbs (25
                                kg).
                               <bullet> Must operate within visual line-
                                of-sight only.
                               <bullet> May not operate above any
                                persons not directly involved in the
                                operation.
                               <bullet> Must only operate during the
                                day, no nighttime operations.
                               <bullet> Maximum airspeed of 100 mph.
                               <bullet> Maximum altitude of 500 feet
                                above ground level.
                               <bullet> Must not operate carelessly or
                                recklessly.
                               <bullet> Establishment of a micro-
                                unmanned aerial system (UAS) category
                                (4.4 lbs or less).
                               <bullet> Must yield right-of-way to other
                                aircraft, manned or unmanned.
------------------------------------------------------------------------
Operator certification and     <bullet> Must pass a knowledge test
 responsibilities               initially and every 24 months.
                               <bullet> Must be vetted by the
                                Transportation Security Administration.
                               <bullet> Must obtain an unmanned-aircraft
                                operator's certificate with a small UAS
                                rating.
------------------------------------------------------------------------
Aircraft requirements          <bullet> FAA airworthiness certification
                                not required, but operator must inspect
                                the UAS to ensure that it is in a
                                condition for safe operation.
                               <bullet> Aircraft markings required, if
                                aircraft is too small to display
                                markings in standard size, then the
                                aircraft simply needs to display
                                markings in the largest practicable
                                manner.
------------------------------------------------------------------------
Model aircraft                 <bullet> Would not apply to model
                                aircraft that satisfy all of the
                                criteria specified in section 336 of
                                Public Law 112-95.
                               <bullet> Would codify the FAA's
                                enforcement authority by prohibiting
                                model aircraft operators from
                                endangering the safety of the national
                                airspace system.
------------------------------------------------------------------------
Source: Notice of Proposed Rulemaking for small UAS./GAO-15-486T

    FAA has also met additional requirements outlined in the 2012 Act 
pertaining to the creation of UAS test sites. In December 2013, FAA 
selected six UAS test ranges.\11\ According to FAA, these sites were 
chosen based on a number of factors including geography, climate, 
airspace use, and a proposed research portfolio that was part of the 
application. All UAS operations at a test site must be authorized by 
FAA through either the use of a COA or an experimental certificate. In 
addition, there is no funding from FAA to support the test sites. Thus, 
these sites rely upon revenue generated from entities, such as those in 
the UAS industry, using the sites for UAS flights.
---------------------------------------------------------------------------
    \11\ The test sites are located at the University of Alaska 
(includes test ranges in Hawaii, Oregon, and Iceland); State of Nevada; 
New York's Griffiss International Airport (includes test range 
locations in Massachusetts); North Dakota Department of Commerce; Texas 
A&M University-Corpus Christi; and Virginia Polytechnic Institute and 
State University (Virginia Tech) (includes test ranges in Maryland, 
partnered with the University of Maryland, and New Jersey, partnered 
with Rutgers University).
---------------------------------------------------------------------------
    Foreign countries are also experiencing an increase in UAS use, and 
some have begun to allow commercial entities to fly UASs under limited 
circumstances. According to industry stakeholders, easier access to 
testing in these countries' airspace has drawn the attention of some 
U.S. companies that wish to test their UASs without needing to adhere 
to FAA's administrative requirements for flying UASs at one of the 
domestically located test sites, or obtaining an FAA COA. It has also 
led at least one test site to partner with a foreign country where, 
according to the test site operator, UAS test flights can be approved 
in 10 days.
FAA's Six Test Sites Are Operational and Beginning to Conduct UAS 
        Flights
    Since being named in December 2013, the six designated test sites 
have become operational, applying for and receiving authorization from 
FAA to conduct test flights. From April 2014 through August 2014, as we 
were conducting our ongoing work, each of the six test sites became 
operational and signed an Other Transaction Agreement with FAA.\12\ All 
flights at a test site must be authorized under the authority of a COA 
or under the authority of an experimental certificate approved by FAA. 
Since becoming operational in 2014 until March 2015, five of the six 
test sites received 48 COAs and one experimental certificate in support 
of UAS operations resulting in over 195 UAS flights across the five 
test sites. These flights provide operations and safety data to FAA in 
support of UAS integration. While there are only a few contracts with 
industry thus far, according to test site operators these are important 
if the test sites are to remain operational. Table 2 provides an 
overview of test-site activity since the sites became operational.
---------------------------------------------------------------------------
    \12\ Other Transaction Agreements (OTA) are administrative vehicles 
used by the agency that take many forms and are generally not required 
to comply with Federal laws and regulations that apply to contracts, 
grants, or cooperative agreements. OTAs enable the Federal government 
and others entering into these agreements to freely negotiate 
provisions that are mutually agreeable.

 
 
------------------------------------------------------------------------
 


   Table 2.--Overview of Five Designated Test Sites' Activities since
                          Becoming Operational
------------------------------------------------------------------------
  Type of test site activity           Overview as of March 2015
------------------------------------------------------------------------
Total Unmanned Aerial System   <bullet> Over 195 total UAS flights
 (UAS) Flights at FAA          <bullet> One test site has had over 80
 designated test sites          UAS flights since becoming operational.
------------------------------------------------------------------------
Number and types of            <bullet> Five test sites hold 48 COAs.
 certificate of waiver or       <bullet> One test sites held 4 broad
 authorizations (COA)           area COAs allowing flights over nearly
 received                       the entire state by specific aircraft.
                               <bullet> Four other test sites were
                                seeking COAs for large flight ranges
                                that could apply to any aircraft.
------------------------------------------------------------------------
Number of special              <bullet> One test site has reviewed and
 airworthiness certificate      approved an aircraft to operate under an
 for experimental aircraft      experimental certification.
                               <bullet> Three test sites have certified
                                representatives affiliated with the test
                                site to review and approve and aircraft
                                for experimental certification.
------------------------------------------------------------------------
Signed contracts with UAS      <bullet> Five test sites have 22
 companies                      contracts with industry groups and
                                companies to conduct UAS operations at
                                their respective test site.
                               <bullet> These contracts are to allow the
                                test sites to generate revenue.
                               <bullet> All test sites have additional
                                negotiations with companies underway.
------------------------------------------------------------------------
Source: FAA designated test site officials./GAO-15-486T
Note: FAA designated six test sites but we did not get a response from
  the Texas A&M University--Corpus Christi test site. We do believe this
  test site has received COA's and conducted test flights.

    FAA officials and some test sites told us that progress has been 
made in part because of FAA's and sites' efforts to work together. Test 
site officials meet every two weeks with FAA officials to discuss 
current issues, challenges, and progress. According to meeting minutes, 
these meetings have been used to discuss many issues from training for 
designated airworthiness representatives to processing of COAs. In 
addition, test sites have developed operational and safety processes 
that have been reviewed by FAA. Thus, while FAA has no funding directed 
to the test sites to specifically support research and development 
activities, FAA dedicates time and resources to supporting the test 
sites, and FAA staff we spoke to believe test sites are a benefit to 
the integration process and worth this investment.\13\
---------------------------------------------------------------------------
    \13\ FAA and several other Federal agencies and private sector 
stakeholders also have research and development efforts under way to 
develop technologies that are designed to allow safe and routine UAS 
operations. Furthermore, in support of research and development efforts 
in the future, FAA solicited for bids for the development of a Center 
of Excellence. The Center of Excellence is expected to support academic 
UAS research and development.
---------------------------------------------------------------------------
    According to FAA, its role is to ensure each test site sets up a 
safe-testing environment and to provide oversight that guarantees each 
test site operates under strict safety standards. FAA views the test 
sites as a location for industry to safely access the airspace. FAA 
told us it expects to collect data obtained from the users of the test 
ranges that will contribute to the continued development of standards 
for the safe and routine integration of UASs. The Other Transaction 
Agreement between FAA and the test sites defines the purpose of the 
test sites as research and testing in support of safe UAS integration 
into the national airspace. FAA and the test sites have worked together 
to define the role of the test sites and see that both the FAA and the 
test sites are effectively supporting each other and the goal of the 
test sites, we will continue to examine this progress and will report 
our final results late this year.
Other Countries Have Progressed with UAS Integration to Allow some 
        Level of Commercial UAS Use
    As part of our ongoing work, we identified a number of countries 
that allow commercial UAS operations and have done so for years. In 
Canada and Australia, regulations pertaining to UAS have been in place 
since 1996 and 2002, respectively. According to a MITRE study, the 
types of commercial operations allowed vary by country.\14\ For 
example, as of December 2014, Australia had issued over 180 UAS 
operating certificates to businesses engaged in aerial surveying, 
photography, and other lines of business. In Japan, the agriculture 
industry has used UASs to apply fertilizer and pesticide for over 10 
years.\15\ Furthermore, several European countries have granted 
operating licenses to more than 1,000 operators to use UASs for safety 
inspections of infrastructure, such as rail tracks, or to support the 
agriculture industry.\16\ The MITRE study reported that the speed of 
change can vary based on a number of factors, including the complexity 
and size of the airspace and the supporting infrastructure. In 
addition, according to FAA, the legal and regulatory structures are 
different and may allow easier access to the airspace in other 
countries for UAS operations. While UAS commercial operations can occur 
in some countries, there are restrictions controlling their use.
---------------------------------------------------------------------------
    \14\ MITRE Corporation, UAS International Harmonization: A 
Comparative Policy Assessment of Selected Countries, Outcome 6, Output 
4 (Fiscal Year 2014).
    \15\ According to the MITRE study, Japan's regulations also allow 
UAS operations for agricultural purposes with UASs weighing less than 
220 pounds.
    \16\ In support of developing common standards across Europe, the 
United States, and other areas of the world, standards-making 
organizations from around the world have memorandums of understanding 
supporting their relationships with other standards-making 
organizations.
---------------------------------------------------------------------------
    We studied the UAS regulations of Australia, Canada, France, and 
the United Kingdom and found these countries impose similar types of 
requirements and restrictions on commercial UAS operations. For 
example, all these countries except Canada require government-issued 
certification documents before UASs can operate commercially.\17\ In 
November 2014, Canada issued new rules creating exemptions for 
commercial use of small UASs weighing 4.4 pounds or less and from 4.4 
pounds to 55 pounds. UASs in these categories can commercially operate 
without a government-issued certification but must still follow 
operational restrictions, such as a height restriction and a 
requirement to operate within line of sight. Transport Canada officials 
told us this arrangement allows them to use scarce resources to 
regulate situations of relatively high risk. In addition, each country 
requires that UAS operators document how they ensure safety during 
flights and that their UAS regulations go into significant detail on 
subjects such as remote pilot training and licensing requirements. For 
example, the United Kingdom has established ``national qualified 
entities'' that conduct assessments of operators and make 
recommendations to the Civil Aviation Authority as to whether to 
approve that operator.
---------------------------------------------------------------------------
    \17\ UASs lighter than 55 lbs. are exempt from Canada's requirement 
to obtain a Special Flight Operations Certificate. Those heavier than 
55 lbs or otherwise not complying with the exemption requirements must 
obtain a Special Flight Operations Certificate.
---------------------------------------------------------------------------
    If UASs were to begin flying today in the national airspace system 
under the provisions of FAA's proposed rules, their operating 
restrictions would be similar to regulations in these other four 
countries. However, there would be some differences in the details. For 
example, FAA proposes altitude restrictions of below 500 feet, while 
Australia, Canada, and the United Kingdom restrict operations to 
similar altitudes. Other proposed regulations require that FAA certify 
UAS pilots prior to commencing operations, while Canada and France do 
not require pilot certification. Table 3 shows how FAA's proposed rules 
compare with the regulations of Australia, Canada, France, and the 
United Kingdom.

 
 
----------------------------------------------------------------------------------------------------------------
 


   Table 3.--Comparison of Regulatory Requirements for Commercial Unmanned Aerial Systems Operations in Select
                                                    Countries
----------------------------------------------------------------------------------------------------------------
     Regulatory
 requirements  for     United States         Australia           Canada            France        United Kingdom
  commercial UASs        (proposed)
----------------------------------------------------------------------------------------------------------------
Weight               < 55                0.2                <4.4              <4.4               15
 classifications                        0.2 <  331          4.4 <> 55         4.4  > 55         15 <  44
(in pounds)                             > 331 a             >55               55  > 331         44 <> 331
                                                                              331                331
----------------------------------------------------------------------------------------------------------------
Government issued    Unmanned aircraft  Unmanned aerial     None; meet        Authorization     Permission from
 documents for       operator           system (UAS)        specified                           Civil Aviation
 airspace access      certificate       operator            conditions for                      Authority
                                         certificate        < 55 lbs.b
----------------------------------------------------------------------------------------------------------------
Pilot training or    Certification c    Certification       Training          Operator          Certification e
 certification                                                                 certifies
 required                                                                     pilot
                                                                               qualification d
----------------------------------------------------------------------------------------------------------------
Pilot proficiency    Biennially         Annually            Upon              None f            Noneg
 check                                                      application
----------------------------------------------------------------------------------------------------------------
Airworthiness        No                 No, for < 331 lbs.  No, for < 55      No < 55 lbs.      Depends upon
 certification                                               lbs.                               the weight of
required                                                                                         the
                                                                                                UAS h
----------------------------------------------------------------------------------------------------------------
Beyond line of       No                 Not specifically    No                No j              No k
 sight operations                       addressed in
allowed by                              regulation i
 regulation
----------------------------------------------------------------------------------------------------------------
Restrictions from    May operate over   Unless              5.75 miles        Do not allow      Limited, based
 congested or        congested area      specifically                         overfly           on case-by-case
built-up area         but               authorized must                                         review
                     not over any        fly
                     persons not        at sufficient
                      involved           height
                     with the           where, if any of
                      operations         its
                                        components fail,
                                         it
                                        would be able to
                                        clear the area.
----------------------------------------------------------------------------------------------------------------
Altitude             500 ft.            Unless              300 ft. if < 4.4  492 ft.           400 ft.
 restrictions                            specifically        lbs.
                                         authorized, 400    500 ft. if 4.4
                                         ft.                 lbs
                                                            <> 55 lbs.
----------------------------------------------------------------------------------------------------------------
Source: GAO analysis of UAS regulations in foreign countries./GAO-15-486T
Note: In certain instances, UASs may operate outside the requirements shown in this table with prior approval
  from the cognizant authority, e.g., the civil aviation authority or air traffic control. This table shows
  regulatory requirements for the UAS category used most frequently in each country.
a Regulations for large fixed-wing UASs (exceeding 331 lbs.) apply to helicopters or rotary wing UASs heavier
  than 221 pounds.
bOperators must have certain documents available, including the exemption regulation and proof of liability
  insurance.
cPilot must pass a test at an FAA-approved testing center.
dOwner of the UAS must self-certify that the UAS pilots have the required training.
ePilot qualifications are determined on a case-by-case basis based a number of factors including pilot
  experience and aircraft weight. Permission is not required for aircraft 44 lbs. or less being flown within
  direct unaided line of sight and away from people, property, and congested areas.
fOwner of the UAS must self-certify that the UAS pilots have the required training if the pilot has not flown
  the UAS in proceeding 12 months.
gSelf-certification accepted using logbook entries unless the pilot changes aircraft type, or the pilot has less
  than 2-hours experience logged in preceding 3 months on same aircraft type.
hAn airworthiness certification is not required for UAS weighing less than 44 lbs. but is required for UAS
  weighing more than 44 lbs. Exemptions may be available in specified circumstances.
iAn Advisory Circular issued by Australia's Civil Aviation Safety Authority (AC 101-1(0)) provides for beyond
  line of sight operations under certain circumstances
jUAS operations beyond line of sight are very limited and allowed only on a case-by-case basis, according to a
  French civil aviation official.
kBeyond line of sight operations are allowed with aircraft fitted with a Sense-and-Avoid system or, operated
  within a Segregated Airspace. The Civil Aviation Authority has noted that it is not aware of any Sense-and-
  Avoid system with adequate performance and reliability, but has several areas of segregated airspace.

    While regulations in these countries require UAS operations remain 
within the pilot's visual line of sight, some countries are moving 
toward allowing limited operations beyond the pilot's visual line of 
sight. For example, according to Australian civil aviation officials, 
they are developing a new UAS regulation that would allow operators to 
request a certificate allowing beyond line-of-sight operations. 
However, use would be very limited and allowed only on a case-by-case 
basis. Similarly, according to a French civil aviation official, France 
approves on a case-by-case basis, very limited beyond line-of-sight 
operations. Finally, in the United States, there have been beyond line-
of-sight operations in the Arctic, and, NASA, FAA and the industry have 
successfully demonstrated detect-and-avoid technology, which is 
necessary for beyond line-of-sight operations.
    In March 2015, the European Aviation Safety Agency (EASA) issued a 
proposal for UAS regulations that creates three categories of UAS 
operations--open, specific, and certified.\18\ Generally, the open 
category would not require authorization from an aviation authority but 
would have basic restrictions including altitude and distance from 
people. The specific category would require a risk assessment of the 
proposed operation and an approval to operate under restrictions 
specific to the operation. The final proposed category, certified 
operations, would be required for those higher-risk operations, 
specifically when the risk rises to a level comparable to manned 
operations. This category goes beyond FAA's proposed rules by proposing 
regulations for large UAS operations and operations beyond the pilot's 
visual line-of-sight. As other countries work toward integration 
standards organizations from Europe and the United States are 
coordinating to try and ensure harmonized standards. Specifically, RTCA 
and the European Organization for Civil Aviation Equipment (EUROCAE) 
have joint committees focused on harmonization of UAS standards.\19\
---------------------------------------------------------------------------
    \18\ EASA is the European Union Authority in aviation safety. The 
main activities of the organization include the strategy and safety 
management, the certification of aviation products and the oversight of 
approved organizations and EU Member States.
    \19\ RTCA is a private non-profit organization consisting of 
industry experts. RTCA provides a venue for public-private 
collaboration supporting consensus building on aviation modernization 
issues. EUROCAE is a non-profit organization dedicated to aviation 
standards. The organization is composed of members, which are 
specialized in technical fields of aeronautics.
---------------------------------------------------------------------------
Key Critical Steps Remain for UAS Integration
    We found during our ongoing work that FAA faces some critical steps 
to keeping the UAS integration process moving forward, as described 
below:
    Issue final rule for small UASs: As we previously discussed, the 
NPRM for small UAS was issued in February 2015. However, FAA plans to 
process comments it receives on the NPRM and then issue a final rule 
for small UAS operations. FAA told us that it is expecting to receive 
tens of thousands of comments on the NPRM. Responding to these comments 
could extend the time to issue a final rule. According to FAA, its goal 
is to issue the final rule 16 months after the NPRM, but it may take 
longer. If this goal is met, the final rule would be issued in late 
2016 or early 2017, about 2 years after the 2012 Act required. FAA 
officials told us that it has taken a number of steps to develop a 
framework to efficiently process the comments it expects to receive. 
Specifically, the officials said that FAA has a team of employees 
assigned to lead the effort with contractor support to track and 
categorize the comments as soon as they are received. According to FAA 
officials, the challenge of addressing comments could be somewhat 
mitigated if industry groups consolidated comments, thus reducing the 
total number of comments that FAA must address.
    Implementation plan: The Comprehensive Plan and Roadmap provide 
broad plans for integration, but some have pointed out that FAA needs a 
detailed implementation plan to predict with any certainty when full 
integration will occur and what resources will be needed. The UAS 
Aviation Rulemaking Committee developed a detailed implementation plan 
to help FAA and others focus on the tasks needed to integrate UAS into 
the national airspace.\20\ The Rulemaking Committee emphasized the need 
for an implementation plan that would identify the means, necessary 
resources, and schedule to safely and expeditiously integrate civil 
UASs into the national airspace. The proposed implementation plan 
contains several hundred tasks and other activities needed to complete 
the UAS integration process. FAA stated it used this proposed plan and 
the associated tasks and activities when developing its Roadmap. 
However, unlike the Roadmap, an implementation plan would include 
specific resources and time frames to meet the near-term goals that FAA 
has outlined in its Roadmap. An internal FAA report from August 2014 
discussed the importance for incremental expansion of UAS operations. 
While this report did not specifically propose an implementation plan, 
it suggested that for each incremental expansion of operations, FAA 
identify the tasks necessary, responsibilities, resources, and expected 
time frames. Thus, the internal report suggested FAA develop plans to 
account for all the key components of an implementation plan. The 
Department of Transportation's--Inspector General issued a report in 
June 2014 that contained a recommendation that FAA develop such a plan.
---------------------------------------------------------------------------
    \20\ The UAS Aviation Rulemaking Committee was chartered in 2011 to 
provide a mechanism for industry and academic stakeholders as well as 
other federal, state, and local government entities to provide 
recommendations and standards to FAA on issues related to UAS 
integration.
---------------------------------------------------------------------------
    Test sites: Several challenges still exist with the test sites, 
including identifying the research that test sites should be 
conducting. According to FAA, it cannot direct the test sites to 
address specific research and development issues, nor specify what data 
test operators should provide FAA. Further, FAA officials told us that 
some laws may prevent the agency from directing specific test-site 
activities without providing compensation.\21\ As a result, according 
to some of the test-site operators we spoke to, there is uncertainty 
about what research and development should be conducted to support the 
integration process. As part of the Other Transaction Agreement between 
FAA and the test sites, all UAS operations conducted by the test sites 
must have a COA.\22\ The COA requires the test sites to provide safety 
and operations data collected for each flight.
---------------------------------------------------------------------------
    \21\ The FAA mentioned concerns regarding the augmentation of 
appropriations and limitations on accepting voluntary services. As a 
general proposition, an agency may not augment its appropriations from 
outside sources without specific statutory authority. The 
Antideficiency Act prohibits Federal officers and employees from, among 
other things, accepting voluntary services except for emergencies 
involving the safety of human life or the protection of property. 31 
U.S.C. Sec. 1342.
    \22\ In order to fly under a COA, the commercial entity leases its 
UAS to the public entity for operation.
---------------------------------------------------------------------------
    Test site operators have told us incentives are needed to encourage 
greater UAS operations at the test sites. The operators explained that 
industry has been reluctant to operate at the test sites because under 
the current COA process, a UAS operator has to lease its UAS to the 
test site, thus potentially exposing proprietary technology. With a 
special airworthiness certificate in the experimental category, the UAS 
operator would not have to lease its UAS to the test site, therefore 
protecting any proprietary technology. FAA is, however, working on 
providing additional flexibility to the test sites to encourage greater 
use by industry. Specifically, FAA is willing to train designated 
airworthiness representatives for each test site. These individuals 
could then approve UASs for a special airworthiness certificate in the 
experimental category for operation at a test site. As previously 
indicated, three test sites had designated airworthiness 
representatives aligned with the test site, but only one experimental 
certificate had been approved. More broadly, we were told that FAA 
could do more to make the test sites accessible. According to FAA and 
some test site operators, FAA is working on creating a broad area COA 
that would allow easier access to the test site's airspace for research 
and development. Such a COA would allow the test sites to conduct the 
airworthiness certification, typically performed by FAA, and then allow 
access to the test site's airspace. As previously stated, one test site 
received 4 broad area COAs that were aircraft specific. Officials from 
test sites we spoke with during our ongoing work were seeking broad 
area COAs that were aircraft ``agnostic''--meaning any aircraft could 
operate under the authority of that COA. According to FAA officials, in 
an effort to make test sites more accessible, they are working to 
expand the number of test ranges associated with the test sites, but 
not increasing the number of test sites. Currently, test sites have 
ranges in 14 states.
    Public education program: UAS industry stakeholders and FAA have 
begun an educational campaign that provides prospective users with 
information and guidance on flying safely and responsibly. The public 
education campaign on allowed and safe UAS operations in the national 
airspace may ease public concerns about privacy and support a safer 
national airspace in the future. UASs' operating without FAA approval 
or model aircraft operating outside of the safety code established by 
the Academy of Model Aeronautics potentially presents a danger to 
others operating in the national airspace. To address these safety 
issues, FAA has teamed up with industry to increase public awareness 
and inform those wishing to operate UAS how to do so safely. For 
example, three UAS industry stakeholders and FAA teamed up to launch an 
informational website for UAS operators.\23\ UASs are increasingly 
available online and on store shelves. Prospective operators--from 
consumers to businesses--want to fly and fly safely, but many do not 
realize that, just because you can easily acquire a UAS, that does not 
mean you can fly it anywhere, or for any purpose. ``Know Before You 
Fly'' is an educational campaign that provides prospective users with 
information and guidance on flying safely and responsibly (see table 
4).
---------------------------------------------------------------------------
    \23\ Know Before You Fly (www.knowbeforeyoufly.org) was founded by 
three organizations with a stake in UAS safety: the Association for 
Unmanned Vehicle Systems International (AUVSI), the Academy of Model 
Aeronautics (AMA), and the Small UAV Coalition. The Federal Aviation 
Administration (FAA) is partnering with the founding members to spread 
the word about safe and responsible flying.

 
 
------------------------------------------------------------------------
 


 Table 4.--Unmanned Aerial Systems Industry Stakeholders and FAA Safety
               Guidelines for Small UAS Recreational Users
------------------------------------------------------------------------
 
------------------------------------------------------------------------
<bullet> Follow community-based      <bullet> Do not fly in adverse
 safety guidelines, as developed by   weather conditions such as in high
 organizations such as the Academy    winds or reduced visibility.
 of Model Aeronautics (AMA).         <bullet> Do not fly under the
<bullet> Fly no higher than 400       influence of alcohol or drugs.
 feet and remain below any           <bullet> Ensure the operating
 surrounding obstacles when           environment is safe and that the
 possible.                            operator is competent and
<bullet> Keep your small-unmanned     proficient in the operation of the
 aerial system (UAS) in eyesight at   small UAS.
 all times, and use an observer to   <bullet> Do not fly near or over
 assist if needed.                    sensitive infrastructure or
<bullet> Remain well clear of and     property such as power stations,
 do not interfere with manned         water treatment facilities,
 aircraft operations, and you must    correctional facilities, heavily
 see and avoid other aircraft and     traveled roadways, government
 obstacles at all times.              facilities, etc.
<bullet> Do not intentionally fly    <bullet> Check and follow all local
 over unprotected persons or moving   laws and ordinances before flying
 vehicles, and remain at least 25     over private property.
 feet away from individuals and      <bullet> Do not conduct
 vulnerable property.                 surveillance or photograph persons
<bullet> Contact the airport or       in areas where there is an
 control tower before flying within   expectation of privacy without the
 five miles of an airport.            individual's permission (see AMA's
                                      privacy policy).
------------------------------------------------------------------------
Source: www.knowbeforeyoufly.org./GAO-15-486T

    UAS and air traffic management: As FAA and others continue to 
address the challenges to UAS integration they are confronted with 
accounting for expected changes to the operations of the national 
airspace system as a part of the Next Generation Air Transportation 
System (NextGen)\24\ FAA has stated that the safe integration of UAS 
into the national airspace will be facilitated by new technologies 
being deployed. However, according to one stakeholder, UASs present a 
number of challenges that the existing national airspace is not set up 
to accommodate. For example, unlike manned aircraft, UASs that 
currently operate under COAs do not typically follow a civil aircraft 
flight plan where an aircraft takes off, flies to a destination, and 
then lands. Such flights require special accommodation by air-traffic 
controllers. Additionally, the air-traffic-control system uses 
navigational waypoints for manned aircraft, while UASs use Global 
Positioning System coordinates. Finally, if a UAS loses contact with 
its ground-control station, the air traffic controller might not know 
what the UAS will do to recover and how that may affect other aircraft 
in the vicinity. NextGen technologies, according to FAA, are 
continually being developed, tested, and deployed at the FAA Technical 
Center, and the FAA officials are working closely with MITRE to 
leverage all available technology for UAS integration.
---------------------------------------------------------------------------
    \24\ NextGen is a new satellite-based air-traffic management system 
that will replace the current radar-based system for a variety of 
aircraft types, including UAS. NextGen is expected to enhance the 
safety and capacity of the air transport system and will provide a 
number of operational, technical, economic, and environmental 
opportunities and challenges for all national airspace system users.
---------------------------------------------------------------------------
    Chairman Ayotte, Ranking Member Cantwell, and Members of the 
Subcommittee, this completes my prepared statement. I would be pleased 
to respond to any questions that you may have at this time.

    Senator Ayotte. Thank you, Dr. Dillingham. I want to 
welcome Professor John Villasenor. Professor Villasenor is a 
Nonresident Senior Fellow at The Brookings Institution. Thank 
you, Professor, for being here today.

        STATEMENT OF JOHN VILLASENOR, NONRESIDENT SENIOR

      FELLOW, THE BROOKINGS INSTITUTION; NATIONAL FELLOW,

          THE HOOVER INSTITUTION, STANFORD UNIVERSITY;

         PROFESSOR OF ELECTRICAL ENGINEERING AND PUBLIC

         POLICY, UNIVERSITY OF CALIFORNIA, LOS ANGELES

    Mr. Villasenor. Thank you very much. Good afternoon, Chair 
Ayotte, Ranking Member Cantwell, members of the Subcommittee. I 
appreciate the opportunity to testify today on this very 
important topic.
    I am a Nonresident Senior Fellow at The Brookings 
Institution, and I am also a National Fellow at the Hoover 
Institution of Stanford, and I am on the faculty at UCLA. The 
views I am expressing here are my own and are not necessarily 
those of The Brookings Institution, Stanford, or the University 
of California.
    I am going to devote my remarks to the very important issue 
of privacy. It is important to start by acknowledging that 
privacy is a very legitimate concern. For the first time ever, 
unmanned aircraft systems are making it easy and inexpensive to 
obtain overhead imagery.
    The overwhelming majority of the time UAS operators in both 
the public and private sectors will be mindful of the need to 
respect privacy, but as the number of UAS users and flights 
continues to increase, and as imagery technology continues to 
improve, simple statistics make it inevitable that sometimes 
either inadvertently or intentionally, UAS will be used in ways 
that violate privacy.
    That raises a key question. To what extent are our current 
legal frameworks up to the task for addressing UAS privacy? I 
believe that our existing legal framework will provide 
substantially more protection against privacy violating misuses 
of UAS than is commonly recognized.
    That does not mean there is no need for new privacy laws, 
but it means we have to have a full appreciation for the power 
of the laws that we already have.
    The applicable framework for privacy for UAS depends in 
large part on who is making the observations. For UAS operated 
by the Government, the Fourth Amendment is a key pillar of 
privacy protection. For privately operated UAS, privacy 
protections are provided through common law invasion of privacy 
tort as well as through civil and criminal invasion of privacy 
statutes.
    I will start with the Fourth Amendment and government UAS. 
It is sometimes suggested that because the Fourth Amendment was 
ratified over 200 years ago, it will not be effective in 
providing protection from privacy violations using UAS, the 
technology that the founders could scarcely have imagined.
    I disagree. In fact, a review of the Supreme Court's 21st 
Century jurisprudence in relation to other technologies 
provides cause for optimism that the Fourth Amendment will 
prove to be protective with respect to UAS as well.
    I will mention three notable Supreme Court cases related to 
technology, although not specifically to unmanned aircraft 
systems.
    In 2001, in Kyllo v. United States, the Supreme Court ruled 
against the Government when the Government used, without a 
warrant, a thermal imager to measure the temperature of the 
walls of a house, and thereby infer that marijuana was being 
grown inside the house.
    In 2012, the United States v. Jones decision, the Court 
again ruled against the Government. That decision involved the 
installation and use of a GPS tracker on a car. The majority 
opinion in that case was based on the very narrow act of the 
physical trespass involved in installing the GPS tracker.
    More interestingly, with respect to this issue today, there 
were two concurrences involving a total of five Justices in 
which the Justices expressed great skepticism about the 
constitutional concerns, in other words, they were very 
skeptical of the Government's behavior and suggested that 
tracking someone for weeks on end with technology without a 
warrant would in fact raise very serious constitutional 
concerns.
    Most recently in 2014, in Riley v. California, the Court 
ruled against the Government and said when conducting a search 
incident to arrest, police did not generally have the right to 
search the contents of an arrestee's mobile phone without a 
warrant. Writing for the Court, Chief Justice Roberts explained 
with respect to mobile phone technology, ``The fact that 
technology now allows an individual to carry such information 
in his hand does not make the information any less worthy of 
the protection for which the founders fought.''
    Thus, the Court is on record recognizing that despite the 
unimaginable technological changes that have occurred since the 
Constitution was written, ``The protection for which the 
founders fought'' remains a central tenet of applying the 
Fourth Amendment. Clearly, that has direct relevance to privacy 
from Government unmanned aircraft systems.
    I will briefly talk about non-government unmanned aircraft 
and privacy. Private entities are not bound by the Fourth 
Amendment restrictions that apply to Government, and in 
addition, have an affirmative First Amendment privilege to 
gather information. However, while that privilege is extensive, 
it ends when it crosses into invasion of privacy.
    There are both common law and statutory frameworks that 
would certainly apply if a private entity violates privacy 
using unmanned aircraft systems.
    In closing, I would like to emphasize the importance of 
First Amendment rights and First Amendment consistency. 
Consider a law that might prohibit an UAS operator from 
photographing private property without permission. Viewed 
solely through the lens of privacy, that would certainly be 
protective, but it is easy to see how this could lead to some 
disturbing unintended consequences.
    Peaceful demonstrators, for example, might be told they are 
not permitted to use an UAS to film a demonstration on the 
grounds that the footage might include adjacent buildings owned 
by people who disagree with their viewpoint.
    In closing, without in any way diminishing the importance 
of the UAS privacy issue, I think it is important to recognize 
the protections we already have. Some of the best protections 
may in fact lie not in statutory text drafted with a keen eye 
on the latest innovations in unmanned aircraft technology, but 
instead in constitutional text drafted over 200 years ago.
    I look forward to your questions. Thank you.
    [The prepared statement of Mr. Villasenor follows:]

 Prepared Statement of John Villasenor, Nonresident Senior Fellow, The 
    Brookings Institution; National Fellow, The Hoover Institution, 
  Stanford University; Professor of Electrical Engineering and Public 
                                Policy, 
                 University of California, Los Angeles
    Good afternoon Chair Ayotte, Ranking Member Cantwell, and Members 
of the Subcommittee. Thank you very much for the opportunity to testify 
today on the important topic of domestic unmanned aircraft systems 
(UAS).\1\
---------------------------------------------------------------------------
    \1\ The acronym ``UAS'' is also sometimes expanded to ``unmanned 
aerial systems.''
---------------------------------------------------------------------------
    I am a nonresident senior fellow in Governance Studies and the 
Center for Technology Innovation at the Brookings Institution. I am 
also a National Fellow at the Hoover Institution at Stanford, and a 
professor at UCLA, where I hold appointments in the Electrical 
Engineering Department and the Department of Public Policy. The views I 
am expressing here are my own, and do not necessarily represent those 
of the Brookings Institution, Stanford University or the University of 
California.
    My testimony today can be summarized as follows:\2\
---------------------------------------------------------------------------
    \2\ A small portion of this written testimony is excerpted from 
John Villasenor, Observations From Above: Unmanned Aircraft Systems and 
Privacy, 36 Harv. J.L. & Pub. Pol'y 457 (2013) and from Eyes in the 
Sky: The Domestic Use of Unmanned Aerial Systems, Written Testimony of 
John Villasenor before the House Committee on the Judiciary--
Subcommittee on Crime, Terrorism, Homeland Security, and Investigations 
(May 13, 2013), available at http://www
.brookings.edu//media/research/files/testimony/2013/05/
17%20privacy%20drones%20villase
nor/villasenortestimonymay17.
---------------------------------------------------------------------------
    With respect to privacy:

  <bullet> When considering the possibly of new privacy laws relating 
        to UAS, it is important not to lose sight of the protections we 
        already have. I believe that that our existing legal framework 
        will provide substantially more protection against privacy-
        violating misuses of UAS than is commonly recognized.

  <bullet> UAS-specific privacy legislation at the Federal or state 
        level must be carefully crafted to avoid unintended 
        consequences. Absent such care, new legislation could 
        inadvertently end up impeding uses of UAS that pose no privacy 
        concerns at all.

  <bullet> Privacy legislation that would impact non-government UAS 
        users needs to be drafted in a manner that avoids colliding 
        with the First Amendment freedom to gather information.

    With respect to the integration of UAS into the National Airspace 
System:

  <bullet> Successful integration of UAS will require fundamentally 
        rethinking our approach to managing the airspace below 500 feet 
        above ground level.

  <bullet> In future years, with proper design and testing, autonomous, 
        beyond-line-of-sight UAS flight can enable important new 
        applications (such as automated search and rescue operations). 
        Congress should provide a mechanism to allow safe testing of 
        these technologies in appropriately selected subareas within 
        the FAA-designated UAS test sites.

    With respect to ensuring America's continued technology leadership:

  <bullet> Robotics will be one of the key technologies of this 
        century. Ensuring that the United States remains a global 
        technology leader will require ensuring that we have a strong 
        robotics industry, and that in turn will require that we 
        maintain leadership in UAS technology. Congress has a central 
        role to play in achieving that goal.

  <bullet> The unmanned aircraft hobbyist community--which includes 
        both model airplane hobbyists as well as hobbyists who fly what 
        are commonly called ``drones''--is a vital pipeline for careers 
        in aviation and technology. It is important to avoid overly 
        narrow regulatory interpretations that unreasonably limit 
        hobbyists, and that as a consequence also impede America's 
        future capacity for innovation.
UAS: Growing Attention In Congress, and More Broadly
    Much has happened in the three years since the FAA Modernization 
and Reform Act of 2012 (FMRA)\3\ was signed into law. As Members of 
this Subcommittee know well, that law addressed both government (more 
formally, ``public'') UAS as well as those operated by non-government 
(i.e., private and commercial) entities (more formally, ``civil''). In 
particular, under the FMRA, the FAA was directed to ``develop and 
implement operational and certification requirements for the operation 
of public unmanned aircraft systems in the national airspace system'' 
\4\ by the end of 2015. In addition, the FAA was directed to ``provide 
for the safe integration of civil unmanned aircraft systems into the 
national airspace system as soon as practicable, but not later than'' 
the end of September 2015.\5\
---------------------------------------------------------------------------
    \3\ Pub. L. No. 112-95, Sec. 331, 126 Stat. 11, 72 (2012)
    \4\ Id. Sec. 334(b), 126 Stat. at 76.
    \5\ Id. Sec. 332(a)(3).
---------------------------------------------------------------------------
    In February 2015, the FAA released a long awaited Notice of 
Proposed Rulemaking (NPRM)\6\ for civil ``small'' (defined as weighing 
less than 55 pounds) aircraft. The process of developing these proposed 
rules had been ongoing since well before the enactment of the FMRA, and 
their publication marked a significant milestone in developing a civil 
UAS integration framework.
---------------------------------------------------------------------------
    \6\ Operation and Certification of Small Unmanned Aircraft Systems, 
80 Fed. Reg. 9544 (Feb. 23, 2015), available at http://www.faa.gov/
regulations_policies/rulemaking/recently
_published/media/2120-AJ60_NPRM_2-15-2015_joint_signature.pdf.
---------------------------------------------------------------------------
    The past several years have also seen a high level of activity in 
state legislatures in relation to UAS. According to the National 
Conference of State Legislatures, UAS-specific laws were enacted in 13 
states in 2013 \7\ and 10 states in 2014.\8\
---------------------------------------------------------------------------
    \7\ 2013 Unmanned Aircraft System (UAS) Legislation, NCSL.Org, 
http://www.ncsl.org/research/civil-and-criminal-justice/unmanned-
aerial-vehicles.aspx (last visited on Mar. 15, 2015).
    \8\ Rich Williams, 2014 State Unmanned Aircraft System (UAS) 
Legislation, NCSL.Org (Sept. 16, 2014), http://www.ncsl.org/research/
civil-and-criminal-justice/2014-state-unmanned-aircraft-systems-uas-
legislation.aspx.
---------------------------------------------------------------------------
UAS and Privacy: An Important and Legitimate Concern
    It is important to start by acknowledging that the privacy concerns 
raised by UAS are real and worthy of attention. For the first time 
ever, UAS are making it easy and inexpensive to obtain overhead 
imagery. In the coming decade, that capability will be used by dozens 
of Federal government agencies, by hundreds of state and local law 
enforcement agencies, and by thousands of private companies and 
individuals.
    The overwhelming majority of the time, UAS operators in both the 
public and private sectors will be mindful of the need to respect 
privacy. But as the number of UAS users and flights continues to 
increase, and as imaging technology continues to improve, simple 
statistics make it inevitable that sometimes, either inadvertently or 
intentionally, UAS will be used in ways that violate privacy.
    That leads to a series of key questions: To what extent are current 
legal frameworks up to the task of addressing UAS privacy? What new 
laws, if any, are needed? Should those laws be at the Federal or state 
level, or both? And how can we ensure that any new laws are 
constitutional and avoid impeding non-privacy-violating uses of UAS?
The February 2015 Presidential Memorandum on UAS Privacy
    The UAS privacy question is particularly timely in light of 
President Obama's February 2015 Presidential Memorandum titled 
``Promoting Economic Competitiveness While Safeguarding Privacy, Civil 
Rights, and Civil Liberties in Domestic Use of Unmanned Aircraft 
Systems'' (hereafter, the ``Presidential UAS Memorandum'').\9\ The 
Presidential UAS Memorandum addresses UAS operated by the Federal 
government and, separately, those operated by commercial and private 
entities.
---------------------------------------------------------------------------
    \9\ The White House, Office of the Press Secretary, Presidential 
Memorandum: Promoting Economic Competitiveness While Safeguarding 
Privacy, Civil Rights, and Civil Liberties in Domestic Use of Unmanned 
Aircraft Systems White House.Gov (Feb. 15, 2015), available at https://
www.whitehouse.gov/the-press-office/2015/02/15/presidential-memorandum-
promoting-econo
mic-competitiveness-while-safegua.
---------------------------------------------------------------------------
    With respect to Federal government UAS, the Presidential UAS 
Memorandum provides a series of policies and procedures aimed at 
protecting privacy and civil liberties and ensuring transparency and 
accountability. For example, the Presidential UAS Memorandum limits the 
duration of time that Federal agencies can retain information collected 
using UAS that may contain personally identifiable information.\10\ It 
also requires an agency using UAS to ``provide notice to the public 
regarding where the agency's UAS are authorized to operate in the 
NAS,'' \11\ and to ``make available to the public, on an annual basis, 
a general summary of the agency's UAS operations during the previous 
Fiscal Year, to include a brief description of types or categories of 
missions flown, and the number of times the agency provided assistance 
to other agencies, or to State, local, tribal, or territorial 
governments.'' \12\
---------------------------------------------------------------------------
    \10\ Id. at Sec. 1(a)(ii).
    \11\ Id. at Sec. 1(d)(i).
    \12\ Id. at Sec. 1(d)(iii).
---------------------------------------------------------------------------
    One important government UAS category not directly \13\ addressed 
by the Presidential UAS Memorandum is state and local government use. 
The policies identified in the Presidential UAS Memorandum are of 
necessity limited to Federal government agencies using UAS. However, 
those policies can and should serve as a model for states to consider 
and potentially adopt, either as is or with modifications.
---------------------------------------------------------------------------
    \13\ The Presidential UAS Memorandum indirectly addresses state and 
local government use by requiring that ``State, local, tribal, and 
territorial government recipients of Federal grant funding for the 
purchase or use of UAS for their own operations have in place policies 
and procedures to safeguard individuals' privacy, civil rights, and 
civil liberties prior to expending such funds.'' See the Presidential 
UAS Memorandum at Sec. 1(c)(vi).
---------------------------------------------------------------------------
    Separately, with respect to nongovernment (i.e., commercial and 
private) UAS, the Presidential UAS Memorandum directed the National 
Telecommunications and Information Administration (NTIA) to initiate a 
``multi-stakeholder engagement process to develop a framework regarding 
privacy, accountability, and transparency for commercial and private 
UAS.'' \14\ This framework will not have the force of law, but will 
instead be a set of ``best practices'' that commercial and private UAS 
operators will presumably be encouraged to adopt. On March 5, 2014, the 
NTIA published a request for public comment \15\ and identified a set 
of 16 questions relating to privacy, accountability, and transparency 
in relation to commercial and private UAS. Comments are due to the NTIA 
on April 20, 2015. The dialog generated during this process will be 
vital in identifying any loopholes that might exist in current privacy 
law in relation to non-government UAS, and that could be addressed with 
suitably crafted legislation.
---------------------------------------------------------------------------
    \14\ Id. at Sec. 2(b).
    \15\ Privacy, Transparency, and Accountability Regarding Commercial 
and Private Use of Unmanned Aircraft Systems, 80 Fed. Reg. 11978 (Mar. 
5, 2015), available at http://www.ntia
.doc.gov/files/ntia/publications/rfc_uas_privacy_03052015.pdf.
---------------------------------------------------------------------------
``Public Navigable Airspace''
    One of the most interesting and important questions relating to UAS 
generally, and to the privacy issues they raise specifically, relates 
to the definition of ``public navigable airspace.''
    Discussions about public navigable airspace in the context of 
manned aircraft often assert that it is the airspace above 500 feet 
above ground level. However, that assertion provides an incomplete 
picture for several reasons. First, it is only partially accurate. 
Fixed-wing aircraft obviously have a right to use altitudes lower than 
500 feet when taking off and landing. In addition, the altitude 
minimums are higher ``[o]ver any congested area of a city, town, or 
settlement, or over any open air assembly of persons.'' \16\ 
Furthermore, helicopters are not subject to the same altitude minimums 
as fixed-wing aircraft as long as ``the operation is conducted without 
hazard to persons or property on the surface.'' \17\
---------------------------------------------------------------------------
    \16\ 14 C.F.R. Sec. 91.119(b).
    \17\ 14 C.F.R. Sec. 91.119(d).
---------------------------------------------------------------------------
    With UAS the picture gets even more complicated because of rules 
limiting operation of certain classes of small UAS to a maximum of 400 
or 500 feet.\18\ Clearly, then, when it comes to UAS the public 
navigable airspace must include some altitudes below 500 feet. But just 
as clearly, it shouldn't include the airspace two inches above ground 
in a person's backyard.
---------------------------------------------------------------------------
    \18\ The NPRM released in February 2015 (supra note 8) identifies a 
proposed upper limit of 500 feet for small (up to 55 pounds) UAS and an 
upper limit of 400 feet for the ``Micro UAS'' sub-classification, which 
covers UAS up to 4.4 pounds.
---------------------------------------------------------------------------
    In a 1946 case involving manned aircraft (United States v. Causby), 
the Supreme Court recognized the need to provide the public with access 
to the airspace while also recognizing the need to provide property 
owners with a zone of control over their land: ``We have said that the 
airspace is a public highway,'' the Court wrote. ``Yet it is obvious 
that if the landowner is to have full enjoyment of the land, he must 
have exclusive control of the immediate reaches of the enveloping 
atmosphere.'' \19\
---------------------------------------------------------------------------
    \19\ United States v. Causby, 328 U.S. 256, 264 (1946).
---------------------------------------------------------------------------
    But exactly how far up should this exclusive control extend? In a 
November 2014 paper,\20\ Professor Gregory McNeal of the Pepperdine 
University School of Law provided an excellent framing of the 
complexities involved. Dr. McNeal observes that one component of a 
solution could be to give property the owners the right ``to exclude 
aircraft, persons, and other objects from a column of airspace 
extending from the surface of their land up to 350 feet above ground 
level.'' \21\ Dr. McNeal also notes that a height limit alone won't be 
sufficient:
---------------------------------------------------------------------------
    \20\ Gregory McNeal, Drones and Aerial Surveillance: Considerations 
for Legislators, The Brookings Institution (Nov. 2014), available at 
http://www.brookings.edu/research/reports2/2014/11/drones-and-aerial-
surveillance.
    \21\ Id. at 4.

        Granted a rule extending property rights in a manner to prevent 
        low altitude flights directly over a landowner's property won't 
        preclude the police from asking a neighbor if they can fly 
        above their adjacent property to obtain a better vantage point, 
        just like existing rules don't preclude the police (or a 
        private citizen) from asking a neighbor if they can come inside 
        to look out a second floor window into neighboring property. 
        Similarly, such a rule won't preclude the police from flying 
        above public land (such as sidewalks and streets), but local 
        zoning laws could address flights over public land.\22\
---------------------------------------------------------------------------
    \22\ Id. at 13.

    To that, I would add the additional concern that codifying the 
specific boundaries of a property owner's zone of control over airspace 
would also codify a region (e.g., above 350 feet) in which the property 
owner does not have control. It is easy to envision how this could be 
exploited. And, with improvements in imaging technology, images 
acquired from just above the upper limit of a property owner's region 
of control could still be very invasive.
    A more fundamental issue is that while height is certainly one of 
the factors that impacts whether UAS use over (or in the vicinity of) 
private property is invasive, it is not the only factor. It is also 
important to consider what the UAS is doing. A UAS that transits 
quickly and quietly over a property at 320 feet is generally far less 
intrusive than one that hovers overhead for many minutes at 380 feet. 
And a UAS equipped with a very advanced imaging system is potentially 
much more invasive than one with a very basic imaging system.
    Given these complexities, I do not think it is feasible to 
effectively protect privacy by attempting to codify in advance the 
specific ways in which it is permissible--or impermissible--to overfly 
private property. I believe that the better way to address this is to 
let courts apply tort law and (when applicable \23\) statutory law 
using the well-established, non-technology-specific standard of a 
``reasonable expectation of privacy'' to the facts specific to any 
particular case that might arise.
---------------------------------------------------------------------------
    \23\ Some invasion of privacy statutes codify a ``reasonable 
expectation of privacy'' as the standard to use when judgeing whether 
the statute has been violated.
---------------------------------------------------------------------------
How Protective is the Current Legal Framework?
    Of course, in considering new laws addressing UAS privacy, one of 
the first questions to ask is: What protections do we already have? The 
answer, I believe, is that our existing legal framework will provide 
substantially more protection against privacy-violating misuses of UAS 
than is commonly recognized.
    The applicable framework for privacy from UAS depends in large part 
on who is making the observations. For UAS operated by the government, 
the Fourth Amendment, which provides the ``right of the people to be 
secure in their persons, houses, papers, and effects, against 
unreasonable searches and seizures,'' is a key pillar of privacy 
protection. For privately operated UAS, privacy protections are 
provided through the common law invasion of privacy tort as well as 
through civil and criminal invasion of privacy statutes.
Government UAS and the Fourth Amendment
    It is sometimes suggested that because the Fourth Amendment was 
ratified over 200 years ago, it will not be effective in providing 
protection from privacy violations using UAS--a technology that the 
Founders could scarcely have imagined.
    I disagree. To explain why, it is helpful to start by considering 
several manned aircraft cases from the 1980s in which the Supreme Court 
did not find a Fourth Amendment violation--and then to consider why, in 
light of more recent Supreme Court jurisprudence, I believe that the 
UAS privacy picture is somewhat more optimistic than those precedents 
might initially appear to suggest.
    The Supreme Court's 1986 decision in California v. Ciraolo \24\ 
considered police use of a small airplane to overfly a Santa Clara, 
California residence at 1000 feet and look into the backyard, where 
they saw marijuana plants. When presented with the question of whether 
the observations violated the Fourth Amendment, the Supreme Court found 
in favor of the government, writing that because the observations of 
the curtilage of the respondent's home were made from ``public 
navigable airspace . . . in a physically nonintrusive manner,'' the 
respondent's expectation of privacy from such aerial observations was 
not one ``that society is prepared to honor.'' \25\ The Court concluded 
that ``[i]n an age where private and commercial flight in the public 
airways is routine, it is unreasonable for respondent to expect that 
his marijuana plants were constitutionally protected from being 
observed with the naked eye from an altitude of 1,000 feet.'' \26\
---------------------------------------------------------------------------
    \24\ 476 U.S. 207 (1986).
    \25\ Id. at 213-14.
    \26\ Id. at 215.
---------------------------------------------------------------------------
    Also in 1986, in a ruling involving government overflights of an 
industrial facility, the Court found in Dow Chemical Co. v. United 
States that ``the taking of aerial photographs of an industrial plant 
complex from navigable airspace is not a search prohibited by the 
Fourth Amendment.'' \27\ The Court in Dow Chemical considered the open 
areas in the 2000-acre industrial facility more akin to an ``open 
field'' than to the curtilage of a home, and concluded that those areas 
were ``open to the view and observation of persons in aircraft lawfully 
in the public airspace immediately above or sufficiently near the area 
for the reach of cameras.'' \28\ And in 1989, in Florida v. Riley,\29\ 
a case similar in some respects to Ciraolo, the Supreme Court again 
considered the constitutionality of aerial observations of a home's 
curtilage by law enforcement. A majority of the justices in Riley found 
the observations constitutional.\30\
---------------------------------------------------------------------------
    \27\ Dow Chem. Co. v. United States, 476 U.S. 227, 239 (1986).
    \28\ Id.
    \29\ 488 U.S. 445 (1989).
    \30\ The 1989 Riley decision comprised an opinion delivered by 
Justice White and joined by three other Justices and an opinion from 
Justice O'Connor concurring in the judgment. Thus, while there was no 
majority opinion, a majority of the Justices found the observations 
constitutional.
---------------------------------------------------------------------------
    In combination, these rulings certainly suggest that some 
observations from government UAS will be deemed constitutional. 
However, and critically, that does not mean that all such observations 
will be constitutional. If the government uses a UAS, without a 
warrant, in a manner violating a reasonable expectation of privacy--
either through the duration of the observations or the detail they 
reveal--then those observations should not pass constitutional muster.
    We don't yet know how the Supreme Court would rule in a case 
involving UAS privacy, but a review of the Court's 21st century 
jurisprudence in relation to other technologies provides cause for 
optimism. In 2001, for example, the Supreme Court ruled in Kyllo v. 
United States \31\ that the warrantless use by the police of a thermal 
imaging camera to measure the temperature of the walls of a house--and 
to thereby infer that the occupant was growing marijuana--was a 
violation of the Fourth Amendment.
---------------------------------------------------------------------------
    \31\ 533 U.S. 27 (2001).
---------------------------------------------------------------------------
    In 2014, the Court ruled in Riley v. California \32\ that when 
conducting a search incident to arrest, police did not generally have 
the right to search the contents of the arrestee's mobile phone without 
a warrant. Writing for the Court, Chief Justice Roberts explained:
---------------------------------------------------------------------------
    \32\ 134 S. Ct. 2473 (2014).

        Our cases have recognized that the Fourth Amendment was the 
        founding generation's response to the reviled ``general 
        warrants'' and ``writs of assistance'' of the colonial era, 
        which allowed British officers to rummage through homes in an 
        unrestrained search for evidence of criminal activity.\33\
---------------------------------------------------------------------------
    \33\ Id. at 2494.

---------------------------------------------------------------------------
    And:

        Modern cell phones are not just another technological 
        convenience. With all they contain and all they may reveal, 
        they hold for many Americans ``the privacies of life''. The 
        fact that technology now allows an individual to carry such 
        information in his hand does not make the information any less 
        worthy of the protection for which the Founders fought. Our 
        answer to the question of what police must do before searching 
        a cell phone seized incident to an arrest is accordingly 
        simple--get a warrant.\34\
---------------------------------------------------------------------------
    \34\ Id. at 2494-2495, internal citations omitted.

    The 2012 United States v. Jones \35\ decision also sheds light on 
how some of the Justices view the Fourth Amendment in light of modern 
technologies. That case considered the government's installation, 
without a valid warrant, of a GPS tracking device on a vehicle used by 
a suspect in a narcotics investigation. The Court's decision was 
unanimous in finding the government's actions unconstitutional, but 
there was considerable divergence in the basis for that finding. The 
majority opinion, delivered by Justice Scalia, found a Fourth Amendment 
violation in the physical trespass that occurred during the placement 
of the GPS device on the vehicle. That intrusion, wrote Justice Scalia, 
``would have been considered a `search' within the meaning of the 
Fourth Amendment when it was adopted.'' \36\
---------------------------------------------------------------------------
    \35\ 132 S. Ct. 945 (2012).
    \36\ Id. at 949.
---------------------------------------------------------------------------
    In terms of viewing the Fourth Amendment in light of today's 
technologies, the concurrences in Jones were more instructive than the 
majority opinion. In a concurrence joined by three other Justices, 
Justice Alito wrote that the question is whether the ``respondent's 
reasonable expectations of privacy were violated by the long-term 
monitoring'' \37\ of his vehicle. Because ``law enforcement agents 
tracked every movement that respondent made in the vehicle he was 
driving'' \38\ for four weeks--a level of monitoring that Justice Alito 
felt impinged on reasonable expectations of privacy--Justice Alito 
concluded that the tracking constituted a search.
---------------------------------------------------------------------------
    \37\ Id. at 958 (Alito, J., concurring).
    \38\ Id. at 964.
---------------------------------------------------------------------------
    Justice Sotomayor, in addition to joining the majority, provided a 
separate concurring opinion arguing that ``the trespassory test . . . 
reflects an irreducible constitutional minimum'' \39\ and agreeing with 
Justice Alito's view that the respondent's reasonable expectations of 
privacy were violated. Justice Sotomayor also expressed concern that 
the unchecked ability of the government to assemble ``the sum of one's 
public movements'' could enable it to obtain private information 
regarding political and religious beliefs.\40\
---------------------------------------------------------------------------
    \39\ Id. at 955 (Sotomayor, J., concurring).
    \40\ Id. at 956.
---------------------------------------------------------------------------
    So we have a total of five Justices--Justice Alito and the three 
others \41\ who joined his concurrence, and Justice Sotomayor in her 
own concurrence--on record with statements indicating a view that 
warrantless use of technology to perform long-term tracking violates 
the Fourth Amendment. This is relevant to UAS both directly and 
indirectly.
---------------------------------------------------------------------------
    \41\ Justice Alito's concurrence was joined by Justices Ginsburg, 
Breyer, and Kagan.
---------------------------------------------------------------------------
    The direct relevance arises because there is one class of UAS, 
called ``High Altitude, Long Endurance'' (HALE) UAS, that can stay 
aloft at very high altitudes for weeks, months, or even years at a 
time. The concurrences in Jones suggest that government use of such 
platforms to perform warrantless long-term tracking of individuals 
using this or any other technology would raise serious constitutional 
concerns for a majority of the Justices.
    There is also an indirect and far broader relevance that is not 
specific to UAS. After all, most UAS can only stay aloft only for short 
periods of time--usually measured in minutes, not hours. They simply 
cannot be used to perform long-term tracking. They can potentially, 
however, be misused in ways that would violate reasonable expectations 
of privacy. The concurrences in Jones--as well as the majority opinions 
in Kyllo and in Riley v. California--indicate that the Fourth 
Amendment, when properly interpreted, retains the power to prevent the 
government from using modern technologies in ways that violate privacy.
Non-Government Unmanned Aircraft and Privacy
    Private entities are not bound by Fourth Amendment restrictions 
that apply to the government and have an affirmative First Amendment 
privilege to gather information. However, while that privilege is 
extensive, it ends when it crosses into an invasion of privacy.
    Use of a UAS to invade an individual's privacy could result in 
civil or criminal liability. With respect to civil liability, courts in 
most jurisdictions recognize the two forms of common law invasion of 
privacy most likely to arise in connection with UAS: intrusion upon 
seclusion and public disclosure of private facts.\42\ In addition, some 
states also have civil or criminal statutes, or both, related to 
invasion of privacy.\43\
---------------------------------------------------------------------------
    \42\ See William L. Prosser, Privacy, 48 Calif. L. Rev. 383, 389 
(1960); see also Restatement (Second) Of Torts Sec. Sec. 652A-652E 
(1997).
    \43\ See, e.g., Cal. Civ. Code Sec. 1708.8 (West 2011).
---------------------------------------------------------------------------
    State laws aimed at bolstering privacy protections from non-
government UAS should be enacted only if, and to the extent that, 
current frameworks are insufficiently protective. After all, the set of 
existing protections against invasion of privacy can be powerful and 
adaptable precisely because they are not technology-specific, and can 
therefore be reinterpreted as needed as new technologies emerge. 
Technology-specific privacy laws, by contrast, risk becoming quickly 
obsolete as the technology changes. Alternatively, or in addition, they 
can sometimes lead to unintended consequences that impede uses of the 
technology that pose no threat at all to privacy.
The Importance of First Amendment Consistency
    There is also an additional consideration to keep in mind: Laws 
drafted to address privacy with respect to a specific, rapidly evolving 
technology such as UAS can inadvertently run counter to the goal of a 
technology-neutral interpretation of the First Amendment freedom to 
gather information. This can create some problematic consequences.
    Consider a photograph of the countryside taken using a smartphone 
by a passenger \44\ riding in a privately owned single-engine airplane 
as it descends through 350 feet on the way to landing. No one would 
reasonably deny the passenger's First Amendment right to take that 
photograph. The owners of properties within the frame of view would not 
have an ownership interest in the photograph; nor would they have the 
right to control its use, to require notification that the photograph 
had been acquired, or to require that it be retained for a certain 
amount of time.
---------------------------------------------------------------------------
    \44\ I am assuming in this example that the passenger is not a 
government employee or otherwise acting on behalf of a government 
entity.
---------------------------------------------------------------------------
    Now consider a similar photograph taken from a privately-owned UAS 
350 feet above the ground, using a camera with similar imaging 
capabilities.\45\ Under some of the UAS privacy laws that have been 
proposed (and in some states, introduced and adopted), the owners of 
properties within the frame of view might have substantially more 
control over the acquisition, use, dissemination, or retention of the 
UAS-acquired photograph than of the photograph taken by the on-board 
passenger.
---------------------------------------------------------------------------
    \45\ Of course, a UAS would not be able to operate in the immediate 
vicinity of an airport, which is why the photograph could be 
``similar'' but could not be ``identical.''
---------------------------------------------------------------------------
    I will emphasize that neither the UAS operator nor the on-board 
passenger has the right to acquire images that constitute an invasion 
of privacy. But, assuming that the images are such that no one's 
privacy is invaded (for example, if the image resolution is low and no 
private details are contained in the images), why should the UAS 
operator's right to take a photograph be so much more limited than that 
of the on-board passenger? Put another way, why should the scope of the 
First Amendment be so much narrower for the UAS operator than for the 
on-board passenger?
    If the First Amendment is in effect narrowed for a particular class 
of people--UAS users, in this instance--it is easy to see how this 
could lead to some disturbing unintended consequences. Peaceful 
demonstrators, for example, might be told that they are not permitted 
to use a UAS to film a demonstration, on the grounds that the footage 
might include adjacent buildings owned by people who disagree with 
their viewpoint.
Integrating UAS Into the NAS: Meeting the Challenges
    Without in any way diminishing the importance of the issue of UAS 
privacy, I would also like to offer some more general comments 
regarding the integration of UAS into the NAS.
    The airspace in the United States is a complex, busy place. It is 
shared every day by thousands of manned aircraft, including single-
engine private planes flying at 100 miles per hour and 500-ton 
commercial passenger aircraft \46\ travelling at well over 500 miles 
per hour. At this moment, and in fact at most times during most days, 
there are many thousands of manned aircraft in the air over the United 
States.\47\ We take it for granted that nearly all of the time, all of 
these aircraft share the airspace without incident, in all types of 
weather, day and night. Anyone who spends a few minutes watching the 
radar tracks of airplanes above a major U.S. metropolitan area will 
come away amazed by the complex, three-dimensional choreography 
involved in keeping our skies safe.
---------------------------------------------------------------------------
    \46\ The gross takeoff weight of an Airbus A380 is over one million 
pounds.
    \47\ Air Traffic NextGen Briefing: Keeping America's Skies Safe, 
FAA.Org (last modified Sept. 18, 2014), https://www.faa.gov/
air_traffic/briefing/ (last visited on Mar. 15, 2015).
---------------------------------------------------------------------------
    To this already complicated mix, we will be adding thousands of new 
unmanned aircraft. For UAS integration to occur as safely and 
successfully as possible, we will need to rethink management of the 
airspace below 500 feet above ground level. In addition, we should 
recognize that autonomous flight can play an important longer-term 
role. And, we should provide a mechanism to enable safe testing of 
autonomous, beyond-line-of-sight UAS operation.
The Airspace Below 500 Feet: The Need For a New Approach
    We need to rethink management of the airspace below 500 feet above 
ground level. The paradigms developed for manned flight that generally 
occurs above 500 feet are much less well suited to unmanned flight that 
will occur below 500 feet. Instead, we need a new approach that 
recognizes 1) the important stake of property owners in how sub-500-
foot altitudes will be managed and used, 2) the fact that UAS will 
outnumber manned aircraft at those altitudes, and 3) that since so much 
of the low-altitude traffic will be unmanned, the traditional 
assumption that every aircraft must have at least one human pilot 
devoting his or her full attention to flying it will, in the long term, 
need to be revisited. This last point ties directly to the role of 
autonomous flight technologies that, with proper design, have the 
potential to improve both safety and efficiency in the lower airspace.
Autonomous Flight
    ``Autonomous'' UAS flight refers to a UAS that is flown without 
being actively and continuously controlled by a ground-based human 
pilot.\48\ Autonomy is actually a continuum, including fully autonomous 
flight as well as flight that is mostly under the control of a human 
pilot. It is also possible to have a UAS that flies autonomously during 
some, but not all, portions of a flight. (In some respects, this isn't 
so different from what routinely occurs today in the context of manned 
flight using technologies like autopilot.) In discussions about UAS 
integration, there is often an assumption that autonomous unmanned UAS 
will pose more dangers than human-piloted UAS. I believe that is an 
oversimplification.
---------------------------------------------------------------------------
    \48\ Autonomy is actually a continuum, depending upon the level of 
control over the flight maintained by an on-the-ground human pilot.
---------------------------------------------------------------------------
    Certainly, autonomous UAS flight without the proper safeguards 
would pose very real safety risks. But when the algorithms used to 
control flight are designed with sufficient care and properly tested, 
autonomous flight has the potential to deliver very important benefits, 
including enabling new applications such as the automated search and 
rescue scenario that I discuss below.
Autonomous, Beyond-Line-of-Sight UAS Operation
    UAS flight that is both autonomous and beyond-line-of-sight (BLOS) 
is another important area of technology development. BLOS refers to 
operation in which the UAS cannot be seen by a person overseeing its 
operation--either because it is obscured by intervening objects such as 
trees or buildings, or because it is over the horizon.\49\
---------------------------------------------------------------------------
    \49\ I am referring here to beyond the visual line of sight, in 
which the UAS operator cannot see the UAS. In some other contexts, the 
term ``line of sight'' is used to in association with whether or not 
there is direct radio communication with the UAS, without any need to 
relay the radio signal through an intermediate location.
---------------------------------------------------------------------------
    BLOS and autonomous flight are not necessarily coupled. Today's 
technology makes it possible (though it is not generally permitted \50\ 
in the current regulatory environment) for a ground-based human pilot 
to fly a UAS beyond the line of sight using a computer, console, or 
other display system showing live video from a UAS-mounted camera. The 
pilot sees what he or she would see from onboard the UAS, and can 
navigate the aircraft accordingly, despite not being able to actually 
see the UAS from his or her location on the ground.\51\ This is an 
example of BLOS flight that is not autonomous. Conversely, autonomous 
UAS flight could be performed in very close proximity to--and within 
view of--the person who initiated the flight. This is an example of 
autonomous flight that is not BLOS.
---------------------------------------------------------------------------
    \50\ There is an exception under which, in regions of arctic 
Alaska, certain beyond-line-of-sight UAS operations are permitted. See 
http://www.faa.gov/news/updates/?newsId=73981
    \51\ This type of flight is called ``first person view'' or 
``FPV.''
---------------------------------------------------------------------------
    But some of the most compelling future applications of UAS involve 
flight that is both autonomous and BLOS. Consider the challenge of 
looking for a lost hiker in the wilderness at night, several miles from 
the nearest road. It could be very helpful to be able to program a UAS 
to fly autonomously to the search area, and then to fly automated 
search patterns, using a thermal imager to identify heat signatures 
that may indicate the lost hiker. Upon finding a possible match, the 
UAS could then alert a human pilot, who would then retake control and 
use the UAS to perform a closer inspection to see if the hiker had 
indeed been located. To take this example one step further, it would be 
possible to have half a dozen UAS collaboratively perform a search. 
This would allow searches to be conducted much faster and much more 
cost effectively than is possible today using manned aircraft.
    Under current regulations (as well as those proposed in the recent 
NPRM), a UAS flight operation of this sort would not be 
permissible.\52\ In addition, it is currently very difficult for 
companies or government agencies interested in developing this 
capability to even test these capabilities. Rules at the six UAS test 
sites recently chosen by the FAA currently prohibit flight that is 
simultaneously BLOS and autonomous. This forces developers of this 
technology to either limit their testing to the small confines of 
indoor spaces, or to test overseas in a country where the rules 
relating to autonomous UAS flight offer more flexibility.
---------------------------------------------------------------------------
    \52\ Under the NPRM, operators of ``small'' UAS would be required 
to be ``visually capable of seeing the small UAS'', i.e., BLOS 
operations would not be permitted.
---------------------------------------------------------------------------
    Today, UAS technology is not yet sufficiently mature to allow 
autonomous, beyond-line-of-sight UAS operations in the regular (outside 
of suitable test sites) airspace. But I think it is important to move 
towards a regulatory framework that could provide a mechanism to safely 
test and refine these technologies. This could occur, for example, in 
regions within the already-designated FAA test sites and/or on large 
parcels of private property owned or leased by the company performing 
the tests.
Promoting Innovation and Economic Prosperity
    In the coming years, UAS will be used to improve agricultural 
yields, to perform scientific research, to spot and fight forest fires, 
to perform search and rescue, and to support disaster response. 
Developing the UAS technologies to enable these and many other 
applications will involve new business models, new companies, and new 
jobs. But that will only occur if there is a regulatory climate that 
fosters a thriving community of companies and individuals with an 
interest in investing their time, money, and energy to create the 
safest, most innovative unmanned aircraft technologies of the future.
    While there has been plenty of attention to the important issue of 
commercial UAS, I would also like to highlight the importance of the 
unmanned aircraft hobbyist community. This community, which includes 
both model airplane hobbyists as well as those who fly what are 
commonly called ``drones,'' provides a critically important pipeline 
for careers in aviation and technology. I would urge the FAA and 
Congress to ensure that as we navigate the complex process of making 
and interpreting rules for unmanned aircraft, we keep in mind the vital 
importance of the hobbyist community for our future innovation 
capacity.
    Thank you again for the opportunity to testify on this important 
topic.
    The views expressed in this piece are those of the author and 
should not be attributed to the staff, officers or trustees of the 
Brookings Institution.

    Senator Ayotte. Thank you, Professor. I want to welcome Mr. 
Paul Misener. Mr. Misener is the Vice President of Global 
Public Policy at Amazon, Inc. Thank you.

  STATEMENT OF PAUL MISENER, VICE PRESIDENT OF GLOBAL PUBLIC 
                       POLICY, AMAZON.COM

    Mr. Misener. Thank you, Chairwoman Ayotte and Ranking 
Member Cantwell for your attention to this very important 
topic, for holding this hearing, and for inviting me to 
testify.
    Amazon Prime Air is a future service that will deliver 
packages to customers in 30 minutes or less using small UAS 
flying below 500 feet and generally above 200 feet, and 
weighing less than 55 pounds. Prime Air UAS will take advantage 
of sophisticated sense and avoid technology as well as a high 
degree of automation to ensure safe operations, including 
distances of 10 miles or more well beyond visual line of sight.
    Amazon Prime Air has been conducting outdoor R&D flight 
testing in multiple locations abroad. Our testing abroad has 
required but minimal aviation regulatory approval. Nowhere 
outside of the United States have we been required to wait more 
than one or 2 months to begin testing, and permission has been 
granted for operating a category of UAS, giving us room to 
expand, experiment, and rapidly perfect designs without being 
required to continually obtain new approvals for specific UAS 
vehicles.
    Our outdoor flight testing is going well, and we are very 
pleased with the R&D progress this testing has enabled. No 
country in which we now have distribution facilities has yet 
adopted rules that would allow commercial UAS packaged 
deliveries. In addition to our Prime Air R&D testing, we are 
working with government agencies to develop appropriate rules 
for small UAS operations.
    Such rules must allow UAS applications to take advantage of 
the core capability of the technology, to fly with minimal 
human involvement, beyond visible line of sight.
    Safety is Amazon's top priority, and earlier this month we 
discussed UAS safety with Europe's most senior leaders of 
aviation regulation. I am delighted to report that these 
aviation authorities are enthusiastically pursuing regulatory 
frameworks and operational rules for UAS.
    The approach they are taking is imminently reasonable. UAS 
rules should be simple and performance-based, and the basic 
regulatory framework should be put in place without delay.
    American commercial entities want to innovate and perfect 
UAS technology, and to do so, we must conduct R&D testing. 
Amazon has a large indoor R&D facility in downtown Seattle. Of 
course, we need to test these designs outdoors, exposed to 
flight conditions our UAS will eventually experience in 
operations.
    We are very grateful to the FAA for granting us permission 
to conduct UAS testing outdoors in the United States. This 
approval came last Thursday, and we are eager to get flying 
here as we have abroad.
    However, the permission the FAA granted to us is more 
restrictive than are the rules and approvals by which we 
conduct outdoor testing in the U.K. and elsewhere. It is even 
more limited than the rules applicable to non-commercial 
amateur UAS flyers in the United States.
    Moreover, obtaining permission took far too long and 
certainly much longer, over half a year, than it took in other 
countries.
    The good news is that while the FAA was considering our 
applications for testing, we innovated so rapidly, that the UAS 
approved last week by the FAA has become obsolete. We do not 
test it any more. We have moved on to more advanced designs 
that we already are testing abroad. Last Friday we asked the 
FAA for permission to fly one of these advanced UAS in the 
United States as well, and we are hopeful this permission will 
be granted quickly.
    Although the United States is catching up and permitting 
current commercial UAS testing, the United States remains 
behind in planning for future commercial UAS operations.
    We are grateful for the FAA's newly released NPRM so far as 
it goes, but it does not go far enough. Unlike the planning in 
Europe, the FAA is not adequately addressing compelling UAS 
applications that involve highly automated operations beyond 
visible line of sight. The NPRM only briefly requests comments 
on whether the rules should permit operations beyond visible 
line of sight and if so, how enabling technology should be 
evaluated.
    This is not to suggest that regulators here or abroad can 
quickly adopt actual rules for UAS operations beyond visual 
line of sight. That may take some time. Surely, U.S. regulators 
should start proposing regulatory frameworks and rules for 
future commercial operations now.
    Because the United States remains behind in planning for 
future commercial UAS operations, one might assume that 
Congress must step in to provide the FAA authority to act. The 
fact is that with few exceptions, the agency already has 
adequate statutory authority. What the FAA needs is impetus, 
less the United States falls further behind.
    Any impetus given by, embraced by the FAA should result in 
the agency commencing now to plan and develop rules for UAS 
operations that would encompass highly automated flights beyond 
visual line of sight.
    In conclusion, Madam Chair, I look forward to working with 
you and your Subcommittee and the FAA to ensure that important 
commercial UAS services become available in the United States 
safely and soon. I look forward to your questions.
    [The prepared statement of Mr. Misener follows:]

   Prepared Statement Paul Misener, Vice President for Global Public 
                           Policy, Amazon.com
    Thank you, Chairwoman Ayotte and Ranking Member Cantwell. My name 
is Paul Misener, and I am Amazon's Vice President for Global Public 
Policy. Unmanned aircraft systems (``UAS'') present tremendous 
opportunities for innovation and soon will provide consumer services 
unimagined only a decade ago. Thank you for your attention to this 
important topic; for calling this hearing; and for inviting me to 
testify.
I. Amazon Prime Air
    Amazon Prime Air is a future service that will deliver packages to 
customers in 30 minutes or less using small UAS. Flying below 500 feet, 
and generally above 200 feet except for takeoff and landing, and 
weighing less than 55 pounds total, Prime Air UAS will take advantage 
of sophisticated ``sense and avoid'' technology, as well as a high 
degree of automation, to ensure safe operations including at distances 
of 10 miles or more, well beyond visual line of sight.
    Not only do we think our customers will love this service, we 
believe it will benefit society more broadly. Once operational, Prime 
Air will increase the overall safety and efficiency of the current 
ground transportation system, by allowing people to skip the quick trip 
to the store or by decreasing package delivery by truck or car. For the 
same reasons, Prime Air will reduce buyers' environmental footprint: if 
a consumer wants a small item quickly, instead of driving to go 
shopping or causing delivery automobiles to come to her home or office, 
a small, electrically-powered UAS will make the trip faster and more 
efficiently and cleanly. To realize these tremendous opportunities for 
innovation and other benefits in the United States, additional research 
and development--and, soon, rules of operation--are needed.
    Amazon Prime Air has been conducting outdoor R&D flight testing in 
multiple locations abroad, i.e., in other countries. Our testing abroad 
has required but minimal aviation regulatory approval, given the low 
risk presented by our small UAS designs; the R&D nature of our flight 
activity; and our relatively rural test sites. Nowhere outside of the 
United States have we been required to wait more than one or two months 
to begin testing, and permission has been granted for operating a 
category of UAS, giving us room to experiment and rapidly perfect 
designs without being required to continually obtain new approvals for 
specific UAS vehicles. Our outdoor flight testing is going well, and we 
are very pleased with the R&D progress this testing has enabled.
    In addition to this work, we also will prepare our distribution 
network for the eventual integration of Prime Air delivery service. 
Preparation will include optimizing our internal systems because, in 
order to meet our Prime Air customer delivery goal of 30 minutes or 
less, our UAS must be loaded quickly, and this presents fascinating 
logistical challenges, including within our huge warehouses.
II. International Regulatory Activities
    No country in which we now have distribution facilities has yet 
adopted rules that would allow commercial UAS package deliveries. So, 
in addition to our Prime Air R&D; testing; and distribution network 
preparations, we are working with government agencies to develop 
appropriate rules for small UAS operations. Such rules must allow UAS 
applications to take advantage of a core capability of the technology: 
to fly with minimal human involvement, beyond visual line of sight. 
Such rules of operation should be proportionate to risk, setting a 
level of safety but not mandating how that level must be met.
    UAS present obvious safety risks of mid-air collisions and crashes 
to the ground. In its recently-released Notice of Proposed Rulemaking 
(``NPRM''), the U.S. Federal Aviation Administration (``FAA'') tied 
these concerns to the lack of human ``see and avoid'' abilities and the 
hazard of ground-to-air communications ``link loss.'' Both of these 
factors would have been difficult to address even just a decade ago, 
but automated UAS sense and avoid technology and on-board intelligence 
address these factors and will mitigate the related risks.
    Safety is Amazon's top priority and, earlier this month, I 
discussed UAS safety with Europe's most senior leaders of aviation 
regulation, including at the UK's Department for Transport and Civil 
Aviation Authority; the European Commission (``EC''); and the European 
Aviation Safety Agency (``EASA''). I also conferred with leadership of 
the Joint Authorities for Rulemaking on Unmanned Systems (``JARUS''), 
in which Asian, European, and North American aviation officials are 
working on a set of UAS technical, safety, and operational requirements 
to be recommended to aviation authorities worldwide. Amazon also 
participated in the EC conference on UAS in Riga, Latvia, and this week 
we are attending the International Civil Aviation Organization 
(``ICAO'') UAS conference in Montreal, Canada.
    I'm delighted to report that these aviation authorities with whom 
we met in the UK and at the multinational bodies are enthusiastically 
pursuing regulatory frameworks and operational rules for UAS. The 
approach they are taking is eminently reasonable: it is risk-and 
performance-based, and it is mindful of the tremendous opportunities 
for innovation and economic benefits that UAS present.
    Two reports released this month, from the EC's Riga conference and 
from EASA, demonstrate the important planning already underway for 
future commercial UAS operations. The official report of the Riga 
conference included several important conclusions: UAS should be 
treated as new types of aircraft with proportionate rules based on the 
risk of the operation (``rules should be simple and performance 
based''); rules must be developed now (``the basic regulatory framework 
should be put in place without delay''); technologies and standards 
need to be developed for the full integration of UAS in the airspace; 
and EASA should lead the harmonization of UAS regulation across Europe. 
Following the EC's Riga conference, EASA presented its new regulatory 
approach for UAS operations, concluding that:

        The operation of [UAS] should be regulated in a manner 
        proportionate to the risk of the specific operation. 
        Considering the broad range of operations and types of [UAS], 
        it is proposed to establish 3 categories of operations and 
        their associated regulatory regime. . . . This concept has been 
        developed to address two main goals: (a) Integration and 
        acceptance of [UAS] into the existing aviation system in a safe 
        and proportionate manner; [and] (b) Foster an innovative and 
        competitive European [UAS] industry, creating new employment, 
        in particular for SMEs.

    By the end of 2015, EASA plans to present a ``draft regulatory 
framework'' to the European Commission.
III. Testing and Planning in the United States
A. Current Rules for R&D Testing
    American commercial entities want to innovate and perfect UAS 
technology, and to do so we must conduct R&D testing. Amazon has a 
large indoor R&D facility in Seattle. In this facility, our Prime Air 
team of roboticists, scientists, aeronautical engineers, remote sensing 
experts, and a former NASA astronaut has conducted flight tests on 
rapidly improving designs. But of course we need to safely test these 
designs outdoors, exposed to the flight conditions our UAS eventually 
will experience in operations--namely, wind, turbulence, and the 
variety of temperature, humidity, and precipitation conditions of the 
real world.
    So, beginning in early 2014, we began talking to the FAA about 
obtaining permission to conduct R&D testing outdoors. And, from the 
beginning, we made clear that the rapid pace of UAS innovation means 
that we need permission to rapidly modify our test vehicles, without 
administrative delays associated with every change.
    We are very grateful to the FAA for granting us permission to 
conduct UAS testing outdoors in the United States. This approval came 
last Thursday, and we're eager to get flying here as we have been 
abroad. However, the permission the FAA granted is more restrictive 
than are the rules and approvals by which we conduct outdoor testing in 
the UK and elsewhere. (It's even more limited than the rules applicable 
to non-commercial, amateur UAS fliers in the United States.) Moreover, 
obtaining permission took far too long, and certainly much longer--over 
half a year--than it took in other countries.
    The good news is that, while the FAA was considering our 
applications for testing, we innovated so rapidly that the UAS approved 
last week by the FAA has become obsolete. We don't test it anymore. 
We've moved on to more advanced designs that we already are testing 
abroad. Last Friday, we asked the FAA for permission to fly one of 
these advanced UAS in the United States, as well, and we are hopeful 
that this permission will be granted quickly.
B. Planning for Future Operations
    Although the United States is catching up in permitting current 
commercial UAS testing, the United States remains behind in planning 
for future commercial UAS operations.
    We are grateful for the FAA's newly-released NPRM, so far as it 
goes. But it doesn't go far enough. Unlike the planning by the national 
and multinational groups with whom I met in Europe earlier this month, 
the FAA is not adequately addressing compelling UAS applications that 
involve highly automated operations beyond visual line of sight. The 
FAA has proposed rules in the NPRM--to be adopted probably in 18-24 
months--that simply do not address these extremely important 
applications. The NPRM only briefly requests comments on whether the 
rules should permit operations beyond visual line of sight and, if so, 
how enabling technology should be evaluated.
    Although the FAA has asked a subcommittee of one of its industry 
advisory committees to examine beyond visual line of sight operations 
(and I am a member of this subcommittee), the group has only met twice 
since its inception last year. This low level of government attention 
and slow pace are inadequate, especially compared to the regulatory 
efforts in other countries. This is not to suggest that regulators here 
or abroad can quickly adopt actual rules for UAS operations beyond 
visual line of sight. That may take some time. But surely regulators 
should start proposing regulatory frameworks and rules for future 
commercial UAS operations now.
IV. Opportunities for FAA and Congressional Action
    Because the United States remains behind in planning for future 
commercial UAS operations, one might assume that Congress must step in 
to provide the FAA authority to act. But the fact is that, with few 
exceptions, the agency already has adequate statutory authority. What 
the FAA needs is impetus, lest the United States fall further behind.
    Any impetus embraced by, or given to, the FAA should result in the 
agency commencing--now--to plan and develop rules for UAS operations 
that would encompass highly automated flights, beyond visual line of 
sight. A good starting point could be the ongoing work in the 
multinational body JARUS, in which an FAA staffer serves as the vice 
chair. Elevating the level and intensity of FAA participation in this 
group is one way the United States could confirm its commitment to UAS 
technology and services. And, here at home, the FAA could immediately 
begin--or be directed to begin--proposing regulatory frameworks and 
rules for operations of highly automated UAS beyond visual line of 
sight, perhaps through a further notice of proposed rulemaking.
    Consumer privacy is an area in which the U.S. approach to UAS 
regulation already is particularly strong. We recognize that UAS 
technology could cause privacy infringement if commercial operations 
are not undertaken in a sensible, privacy-conscious manner. Prime Air 
is a future delivery service, not a surveillance operation, and we will 
respect the privacy of every person, with stringent privacy policies 
accessible to all. We strongly support the Commerce Department's effort 
to develop, through a multi-stakeholder process, best practices on 
privacy, transparency, and accountability.
    Lastly, international harmonization of rules is strongly desirable, 
and domestic balkanization by states and localities is not. Harmonized 
rules, perhaps developed through JARUS or ICAO, should be a top FAA 
priority internationally. And within the United States, uniform Federal 
rules should apply.
V. Conclusion
    In conclusion, Madam Chair, I look forward to working with you, 
your Subcommittee, and the FAA to ensure that important commercial UAS 
services become available in the United States safely and soon. And I 
welcome your questions.

    Senator Ayotte. Thank you, Mr. Misener. I would like to 
welcome Mr. Jeff VanderWerff. Mr. VanderWerff is representing 
the American Farm Bureau Federation. Thank you, Mr. 
VanderWerff.

 STATEMENT OF JEFF VANDERWERFF ON BEHALF OF THE AMERICAN FARM 
                       BUREAU FEDERATION

    Mr. VanderWerff. Thank you, Subcommittee Chair Ayotte, 
Ranking Member Cantwell, and members of the Subcommittee.
    My name is Jeff VanderWerff, and I am a farmer from 
Casnovia, Michigan. I farm with my family just outside the Town 
of Sparta, where I raise corn, wheat, soybeans, and apples, 
with my father, uncle, and brother. I am the fourth generation 
of my family to work our home farm which was purchased by my 
great grandfather, a Dutch immigrant, nearly 80 years ago. 
Today, my wife and I are proud to be raising the fifth 
generation on that same farm.
    Within our farm, I am responsible for the day-to-day 
activities and operations including precision agriculture and 
our agronomics. As a farmer who uses precision agriculture and 
understands the importance of the agronomic data, I am here 
today to discuss the potential benefits and pitfalls of 
unmanned aircraft systems for my farm in Michigan.
    Last summer, I attended a precision agriculture 
demonstration that includes unmanned aircraft flying across 
fields gathering data. The demonstration concluded with the 
explanation of the images and that data. I walked away knowing 
this was the next evolution in precision agriculture on my 
farm.
    As an agronomist and a farmer who relies on precision 
agricultural techniques, I rely heavily on the data to produce 
accurate information. Accurate information is critical to the 
day to day business decisions I make. These decisions affect my 
yields, environmental impact, and ultimately the economic 
viability of my operation.
    Using an unmanned aircraft has the potential to provide me 
with another accurate tool to use in making optimal decisions 
to maximize the return of my family's business.
    One takeaway I had after seeing the unmanned aircraft 
demonstration was its ability to provide detailed scouting 
information on weed emergence, insect infestations, and 
potential nutrient shortages.
    Currently, I spend about 12 hours a week walking nearly 
3,000 acres of land that we farm, and while this method is 
effective, it is not real efficient. Using an unmanned aircraft 
would allow me to address threats quicker and more importantly 
before they develop into significant or potentially 
catastrophic problems.
    Reducing environmental impact is another significant 
benefit of using unmanned aircraft. The imagery from unmanned 
aircraft allows me to spot treat sections of my fields as 
opposed to watering or spraying an entire field.
    Images from the unmanned aircraft will allow me to identify 
the specific locations where a specific treatment, be it 
fertilizer, water, or pesticides, is necessary. This allows me 
to eliminate the need to use these applications more broadly 
across an entire field.
    By spot treating threats to a crop, I not only lower the 
cost of treatment, but I also have the potential of lowering 
the environmental impact by minimizing the application.
    While this technology has the potential to be another tool 
in the toolbox, there are certainly some pitfalls that we need 
to discuss. The privacy and security of the data collected by 
unmanned aircraft is concerning to farmers and ranchers.
    Even if an individual operator follows all the applicable 
rules, regulations, and best management practices on his or her 
farming operation, there is still concern that regulatory 
agencies or one of the numerous environmental organizations 
that unnecessary target production agriculture might gain 
access to individual farm data through subpoenas.
    The biggest fear that farmers face in data collection is 
that third parties, including the United States Government, 
could gain access to our data and use it against us.
    Questions abound within the agricultural community about 
who owns and controls the data we generate. If a farmer 
contracts with a company authorized to fly an UAS, does the 
farmer then own the data that is generated or is it shared with 
both the contractor and the farmer. In the case of a farm on 
rented ground, do I, the tenant, or does my landlord own that 
data.
    Again, the use of unmanned aerial systems will be an 
important addition to farmers' management techniques, but it is 
critical that the data remain under the ownership and control 
of the farmer, and is not available to Government agencies or 
others without permission.
    In conclusion, the Farm Bureau is glad to see the Federal 
Aviation Administration introduce its Notice of Proposed 
Rulemaking for small UAS. The Farm Bureau is in the process of 
developing our comments to the FAA regarding this proposed 
rule.
    It is our hope that farmers and ranchers will be able to 
secure the rights through this process to use UAS as part of 
their precision agriculture systems.
    I thank you for the opportunity today, and look forward to 
answering your questions.
    [The prepared statement of Mr. VanderWerff follows:]

        Prepared Statement of Jeff VanderWerff on Behalf of the 
                    American Farm Bureau Federation
    The American Farm Bureau Federation (Farm Bureau) is the Nation's 
largest general farm organization, representing agricultural producers 
of nearly every type of crop and livestock across all 50 states and 
Puerto Rico. We appreciate the opportunity to submit a statement to the 
Subcommittee on Aviation Operations, Safety, and Security for this 
hearing on Unmanned Aircraft Systems: Key Considerations Regarding 
Safety, Innovation, Economic Impact, and Privacy.
    Farm Bureau supports the use of unmanned aircraft systems (UAS) as 
another tool for farmers and ranchers to use in managing their crops 
and livestock and making important business decisions. A farmer faces 
daily challenges that can affect the farmer's yield, environmental 
conditions on the farmer's property and, ultimately, the economic 
viability of the farm. Farmers rely on accurate data to make these 
decisions and the use of UAS adds a valuable and accurate tool for the 
farmer in making optimal decisions to maximize return on farming 
operations.
    It has become widely accepted that the introduction of UAS into the 
commercial industry will begin with American agriculture. The primary 
reason American agriculture is viewed as the pioneer industry to use 
UAS for a commercial purpose is that the airspace above the fields used 
in agriculture is low risk, and many of the fields are located in 
remote areas.
    Farm Bureau sees another reason American agriculture will pioneer 
this effort. America's farmers and ranchers embrace technology that 
allows their farming businesses to be more efficient, economical and 
environmentally friendly. American agriculture continues to evolve, and 
today's farmers and ranchers are using precision agricultural 
techniques to make business decisions. These decisions can impact the 
amount of fertilizer a farmer needs to purchase and apply to the field; 
the amount of water needed to sustain the crop; and the amount and type 
of herbicides or pesticides the farmer may need to apply. These are 
only a few examples of the business decisions a farmer makes on a daily 
basis to achieve optimal yield, lower environmental impact and maximize 
profits.
    Farmers and ranchers are excited to see the transformation of a 
hobbyist activity into the newest tool for precision agriculture. The 
U.S. Department of Agriculture defines precision agriculture as ``a 
management system that is information and technology based, is site 
specific and uses one or more of the following sources of data: soils, 
crops, nutrients, pests, moisture, or yield, for optimum profitability, 
sustainability, and protection of the environment.'' \1\ This 
definition encompasses the purpose of UAS within the agriculture 
industry.
---------------------------------------------------------------------------
    \1\ USDA, Natural Resources Conservation Service, ``Precision 
Agriculture: NRCS Support for Emerging Technologies.'' http://
www.nrcs.usda.gov/Internet/FSE_DOCUMENTS/stelprdb104
3474.pdf. June 2007.
---------------------------------------------------------------------------
    Farm Bureau sees the benefit of UAS through their ability to 
provide detailed scouting information on weed emergence, insect 
infestations and potential nutrient shortages. This valuable 
information allows the farmer to catch these threats before they 
develop into significant and catastrophic problems. By addressing 
threats quickly, the farmer has a greater likelihood of being able to 
respond appropriately so as to optimize yields.
    The imagery from UAS also allows the farmer to spot-treat sections 
of the fields as opposed to watering or spraying the entire field. The 
quicker a farmer can discover a potential threat, the quicker the 
farmer can address the issue. Images from UAS allow the farmer to 
identify the specific location where a specific treatment--be it 
fertilizer, water, pesticides or herbicides--is necessary; in doing so, 
the farmer can eliminate the need to use these applications more 
broadly across the entire field. By spot-treating threats to the crop, 
the farmer not only lowers the cost of treatment but also has the 
potential of lowering the environmental impact by minimizing 
application.
    Farm Bureau is glad to see the Federal Aviation Administration 
(FAA) introduce its notice of proposed rulemaking for small-UAS. Farm 
Bureau is in the process of developing its comments to the FAA 
regarding the proposed rule. It is our hope that farmers and ranchers 
are able to secure the rights through this process to use UAS as part 
of their precision agricultural systems. That will allow them to scout 
fields and will serve as another tactic at their disposal to limit the 
use of agricultural inputs to only those areas of the field that 
require treatment. That will be good for the environment as we will be 
able to grow more with less. Many farmers will adopt this technology as 
yet another way to live up to the promise of continuous improvement in 
food production.
    While Farm Bureau supports this new technology and the potential 
opportunities it offers for farmers and ranchers, Farm Bureau is also 
concerned about the data collected from UAS and the privacy and 
security of that data.
    Even if an individual operator follows all the applicable rules, 
regulations, and best management practices in his or her farming 
operation, there is still concern that regulatory agencies or one of 
the numerous environmental organizations that unnecessarily targets 
agriculture might gain access to individual farm data through 
subpoenas. While a farmer's pesticide or biotech seed usage may be a 
necessary and accepted practice, it could also be politically unpopular 
with certain groups.
    The biggest fear that farmers face in data collection is government 
accessing their data and using it against them.
    Questions abound within the agricultural community about ``who owns 
and controls the data.'' If a farmer contracts with a company 
authorized to fly UAS, does the farmer own all the data from that UAS 
or is it shared by both the contractor and the farmer? In the case of a 
farm on rented ground, does the tenant or the landlord own the data?
    Farm Bureau supports the use of UAS and believes it will be an 
important addition to farmers' management toolbox, but it is critical 
that the data remain under the ownership and control of the farmer and 
is not available to government agencies or others without permission.

    Senator Ayotte. Thank you, Mr. VanderWerff. I want to thank 
all of our panelists. I would like to direct my first question 
to Ms. Gilligan. What I wanted to ask you about was with this 
new area of rulemaking by the FAA and implementation of the 
small UAS rule and subsequent rules that obviously need to be 
addressed, how does the agency plan to fund this effort?
    I saw in the Notice of Proposed Rulemaking that there is 
some contemplation of cost recovery. It was $5 to register an 
unmanned aircraft that we could discern, $150 for knowledge and 
tests of operators, and $50 to verify the I.D. of an applicant.
    Is that going to cover all the resources that you need 
going forward in an expanding area, given that we have other 
areas including implementing NextGen and lots of other things 
we want to do for the airspace?
    Ms. Gilligan. Senator, at this point, the FAA has absorbed 
a lot of the costs of beginning the implementation process for 
bringing UAS into the airspace. We do have pending in the 
President's Fiscal Year 2016 budget request some additional 
growth, both in personnel as well as in research and 
development dollars and facilities and equipment dollars.
    As we identify our requirements, we may be making 
additional requests through the budget process. If we can 
defend those requests, we would hope the Congress can support 
them as well.
    Senator Ayotte. Do you anticipate this is going to be a 
self-funded thing? In other words, that the fees that people 
pay that want to do this will fund this within the FAA or not?
    Ms. Gilligan. No, at this point the Notice of Proposed 
Rulemaking does not suggest fees fund the entire FAA program. 
Those fees that you identified are to offset the costs of those 
particular elements.
    In terms of finalizing the rulemaking and providing safety 
oversight and issuing approvals, as we do with manned 
operations right now, we do not charge fees for those services. 
FAA provides those services to the industry. We would at this 
point provide those services to the UAS industry as well.
    Senator Ayotte. Can I also follow up on the issue of as I 
understand the proposed rule, it prohibits UAS operation above 
people. We obviously allow other types of aircraft to go over 
people, including helicopters, blimps, et cetera.
    What was the thinking behind the prohibition, and is it a 
perceived dangerousness with these unmanned systems themselves, 
or is this something that you anticipate looking at and 
addressing in the next reiteration of rules?
    Ms. Gilligan. With respect to the proposal for small UAS, 
we are talking about vehicles that are not designed against any 
standards, either FAA set standards or industry set standards, 
which is different from what we have for manned vehicles.
    Because of that, we were looking at how to mitigate that 
risk, and one of the limitations in the proposal is to limit 
the amount of operation over people not involved in the 
operation. This is an area that we have asked for comment on, 
and we will be looking at whether and how we can best balance 
that risk.
    Again, because we are talking about introducing systems 
that are not designed or manufactured in any kind of system 
that we are accustomed to, we think that is a risk that needs 
to be addressed in this rulemaking.
    Senator Ayotte. Mr. Misener, as you hear this and with some 
of the issues that you have raised, given how Amazon proposes 
to be able to use these unmanned systems to help package 
delivery, where do you see this issue in the rulemaking going 
forward, and Ms. Gilligan, if you could help address some of 
the concerns that Mr. Misener raised as well, but first I would 
like to hear from Mr. Misener on this.
    Mr. Misener. Thank you, Senator Ayotte. What the FAA has 
done in its NPRM is fine as far as it goes. It really needs to 
go further. We need to be looking further down the road to 
beyond visible line of sight, highly automated operations. It 
is coming. I can assure you that it is coming quickly.
    The fact that we are not yet even proposing rules or 
proposing frameworks for rules is lamentable. I think we ought 
to move ahead now and at least be thinking about those rules as 
opposed to just dismissing them as the NPRM did.
    Senator Ayotte. Thank you. How do you address the concerns 
that Mr. Misener raises in terms of the pace with which the FAA 
is going forward to issue these rules in light of our 
international competitors?
    Ms. Gilligan. We agree that we need to and, in fact, we are 
focusing on the area of authorizing operations beyond visible 
line of sight. There are several technology challenges to being 
able to do that, including the need to address the issue of 
what we call ``sense and avoid.''
    Pilots in manned aircraft have a regulatory responsibility 
to see and avoid other traffic. That is a technology challenge 
that still needs to be completely addressed for unmanned 
vehicles.
    There are also issues around the command and control system 
and assuring again that there is a standard against which those 
can be designed in a way that will assure a level of safety.
    We have a number of initiatives underway with the UAS 
industry. RTCA is working on standards for both sense and avoid 
and command and control, and that involves all of the industry. 
We have another subgroup under our Aviation Rulemaking 
Committee that is looking at beyond visual line of sight 
operations as well.
    That will be the next focus area. That will be an area that 
we will look at setting standards for, but it is a far more 
complex area, and it is one where we do not yet have the 
technology standards established. We expect to get those from 
RTCA over the next year or so.
    Senator Ayotte. I thank you. I will have follow-up 
questions, but I would like to turn it over to Ranking Member 
Cantwell.
    Senator Cantwell. Thank you, Chairwoman Ayotte. With this 
new interim rule that is out this afternoon, does that put us 
on par with the Europeans or are we still behind? Ms. Gilligan?
    Ms. Gilligan. I think we are in a different place than the 
Europeans, and I think, as Dr. Dillingham indicated, that there 
are a number of locations where they are able to authorize 
different types of operations because they have much less 
complexity in their airspace system. They have much less 
general aviation that tends to operate at those lower 
altitudes.
    We are faced with some additional challenges that a number 
of our aviation partners around the world just do not face.
    What we have authorized today is that as we are issuing our 
exemptions under Section 333 from reauthorization, the operator 
will be able to immediately operate as long as the operation is 
below 200 feet.
    If they want to go above 200 feet, they must still go to 
the air traffic organization and identify the airspace where 
they want to operate so that we can assure safe separation of 
the unmanned system from whatever general aviation or other 
operations there may be in that airspace. We believe this is 
increasing the flexibility that we can give now as we grant 
exemptions.
    Senator Cantwell. Mr. Misener, I do not know if you have 
any input on that, but Mr. Dillingham, I wanted to ask you, are 
we always going to be behind the Europeans because they have 
already implemented GPS and we are still on radar, so they have 
much more information about who and what is in the airspace?
    Dr. Dillingham. Senator Cantwell, I would not say we are 
behind. When you talk about GPS and NextGen, the U.S. and the 
Europeans are working hand in hand to try to harmonize and make 
those systems interoperable. With regard to the UAS, I think 
that one difference between the U.S. and some foreign countries 
is the legal framework. For example, in Japan where they have 
been flying agricultural unmanned aerial systems for a while, 
one of the differences is the farmer owns the airspace above 
his land, so therefore, it is sort of a different perspective.
    I think moving forward, with the U.S. working with the 
international aviation community and the UAS industry, we will 
in fact maintain our position as aeronautical leaders in the 
world.
    One of the things that I said in my statement is that if we 
were to implement the Notice of Proposed Rulemaking now, we 
would be on par in many ways with foreign countries. However, 
we are probably 16 to 18 months away from doing that, and they 
will still keep moving forward.
    It is going to be that kind of back and forth, but there 
are some reasons for it. FAA should be congratulated for moving 
to the point that it has. As you said, there are still some 
very critical things that need to happen to keep us in the 
game.
    Senator Cantwell. Mr. Misener?
    Mr. Misener. Thank you, Senator. I think it is true that we 
are on par when these rules get adopted, probably 18 to 24 
months from now, for operations. Where we truly lag behind is 
planning for the future. It is that high degree of automation 
beyond visual line of sight flying is coming. The Europeans are 
getting ready for it, we are not so much.
    Senator Cantwell. I wonder, Ms. Gilligan, a couple of 
things that we have done in Congress in partnership with the 
FAA is to, within the FAA, create these centers of excellences 
on things that we do not quite yet understand, whether it is 
composite light weight manufacturing materials and approval on 
products like the 787, so to keep the FAA up to date, they 
created before they did that a center of excellence, same 
center of excellence now in existence with the FAA in the lead 
on biofuels, how are you going to get a drop in jet fuel.
    Do we need one of these centers of excellence to help the 
FAA on the technical side get the answers in advance so as the 
market continues to develop, those questions are being 
addressed, the research is being done, so to speak?
    Ms. Gilligan. Yes, Senator. Again and actually, we have 
gotten good support from Congress. In the last appropriations 
bill, we were given additional appropriations for the purposes 
of establishing a center of excellence.
    That process is underway. The applications have been 
received. They are under review. We expect to name the center 
of excellence before the end of this Fiscal Year, and the 
Administrator has challenged us to do that even sooner, as soon 
as we possibly can.
    I think it is in part because we see not only at the test 
sites but again with a center of excellence that we can frame 
these technology issues and some of the other challenges and 
get the best minds in academia working on helping us solve 
them.
    Senator Cantwell. I think that last phrase is key, the best 
minds in academia to help you. Thank you. Thank you, Madam 
Chair.
    Senator Ayotte. Thank you, Senator Cantwell. I would like 
to call on Senator Schatz.

                STATEMENT OF HON. BRIAN SCHATZ, 
                    U.S. SENATOR FROM HAWAII

    Senator Schatz. Thank you, Chairwoman. Ms. Gilligan, the 
FAA guidelines for recreational drones, I would like to go 
through them and then ask for your comment. My understanding is 
a drone must weigh less than 55 pounds, be flying below 400 
feet, visual line of sight. Must not be flying carelessly or 
recklessly, not interfere with manned aircraft operations and 
not fly near an airport.
    Importantly, there appears to be no speed limit for 
recreational drones, and no prohibition on flying over people.
    My question for you is although the Notice of Proposed 
Rulemaking, I think, is progress, what are we doing at the 400 
foot and down level, and who has jurisdiction?
    Ms. Gilligan. The Notice, sir, is actually directed toward 
operators who would want to be in commercial operation, which 
we do not authorize right now at all. Hobbyists or recreational 
users, in accordance with the reauthorization bill, are sort of 
overseen by what we call a ``community standard,'' and we are 
working with the American Modelers Association for them to 
serve in that function.
    They actually have a set of operating expectations for 
their members, and those will be the----
    Senator Schatz. Will they have the force of law?
    Ms. Gilligan. They do not, but again, the reauthorization 
was specific that it should be a community standard as opposed 
to regulation.
    Senator Schatz. Is preemption at play? In other words, if a 
mayor wants to set aside--a mayor can decide to use a city or 
county park how they wish in consultation with their Parks 
Department, with their City Council. You can say no golfing, no 
Frisbees, no dogs, dogs here, dogs not there, this is a passive 
park. They have jurisdiction over the land. This goes to 
Professor Villasenor's testimony.
    My question is did we just preempt local decision makers 
from making choices with respect to where recreational drones 
are allowed and where they are not?
    Ms. Gilligan. The Congress has preempted authority for 
airspace to the Federal Government for quite a long time. FAA 
is the sole entity responsible for the airspace. We do consider 
that to be from the ground through as high as aircraft operate. 
In fact, now we have commercial space operations as well.
    Senator Schatz. I just want to be clear on this. There 
would be no prohibition on flying a 54 pound drone 10 feet 
above a ball field as fast as you want, because our statute and 
the 2012 reauthorization preempts a local decisionmaker from 
deciding what is allowable in public space and what is not; is 
that correct?
    Ms. Gilligan. I actually would have to ask our lawyers to 
check the reading of the law. I think more importantly what we 
see is there are a tremendous number of people who are using 
these vehicles for recreational purposes, who are not well 
informed about their responsibilities.
    That is why the FAA, the modeling community, and the 
manufacturers are doing the outreach that we are doing. Several 
of the manufacturers are providing information in the packaging 
so that people who buy UAS understand that they have a 
responsibility if they are going to operate in the airspace.
    Senator Schatz. Right. Professor Villasenor, did you want 
to comment on that? I was taken by your citing of the 1946 
Supreme Court case. I will just quote the Court, ``It is 
obvious that if a landowner is to have full enjoyment of the 
land, he must have exclusive control of the immediate reaches 
of the enveloping atmosphere.''
    It seems to me this question of at what sort of elevation a 
landowner, either a public entity or private individual, ceases 
to have full control over their land.
    It is an open question, and it seems to me it is still 
being adjudicated; is that correct?
    Mr. Villasenor. I would say we are being forced, thanks to 
unmanned aircraft, to actually figure out what we really could 
afford not to figure out in as much detail before. No one would 
really reasonably argue that as a landowner, I have the right 
to stop United Airlines from flying over my property at 30,000 
feet. Of course, the Causby ruling and many other rulings, it 
is very clear that the airspace is a public resource.
    The challenge is how low is public navigable airspace, and 
clearly it does not include the airspace two inches above the 
ground in my backyard. That would be ridiculous.
    Senator Schatz. Do you think this should be articulated 
through the lawmaking process, through the rulemaking process, 
by community standards?
    Mr. Villasenor. My concern is if we try to pick a specific 
limit, like for example you have control up to 100 feet, then 
you almost invite people to then sit right outside that limit 
in ways that might be very problematic.
    I think in that sense, it is better to sort of have things 
be general in terms of reasonable expectation of privacy is not 
specific, but we all know when it is in violation----
    Senator Schatz. Even the courts have----
    Mr. Villasenor. The courts have figured it out. That has 
worked well.
    Senator Schatz. I just have one final question, with your 
indulgence, for Ms. Gilligan. I guess my basic question is are 
model aircrafts--should we be treating model aircrafts and 
drones synonymously? It seems to me some of the kind of policy 
infrastructure did not really envision drones as they are 
emerging. Maybe I am wrong here.
    When I hear model aircraft, I do not picture a 54 pound 
object moving at 100 miles an hour. Maybe I am still catching 
up myself. Can you just comment on that very briefly?
    Ms. Gilligan. I think what we are seeing, as you 
highlighted, is that many people who are buying unmanned 
systems are not what we would have historically considered 
modelers. Modelers were generally aviators. They came into it 
because of a love of aviation, they wanted to experiment with 
the physics of flight and build their airplanes, those kinds of 
things.
    We have a different part of the community joining us now, 
and we and the modeling community are working hard to make them 
understand they have aviation responsibilities that go beyond 
being able to buy this really interesting toy that they want to 
use in their backyard.
    Senator Cantwell [presiding]. Thank you. Senator Moran?

                STATEMENT OF HON. JERRY MORAN, 
                    U.S. SENATOR FROM KANSAS

    Senator Moran. Chairwoman, thank you very much. Ms. 
Gilligan, the FAA's proposed rules, there is no requirement for 
an UAS operator flight training, nor is there any requirement 
for any airworthiness certification of the equipment.
    Those standards exist to ensure that vehicles are safe and 
operators can safely utilize them. How are those issues going 
to be addressed in the future?
    Ms. Gilligan. Senator, on the issue of airworthiness, we 
looked at the language in the reauthorization bill, which 
authorized the Secretary to make a finding that there was no 
need for an Airworthiness Certificate if certain other 
criterial were met. Those were related to the speed, weight, 
and location of operation.
    What the rule does is describe those criteria and provide 
limitations that are consistent with the statute in such a way 
that we felt met the expectation that there would not be a need 
for airworthiness certification to a particular set of 
standards.
    I am sorry, I forgot the other one you asked about.
    Senator Moran. The operator. Airworthiness of equipment and 
the operator.
    Ms. Gilligan. There is an operator testing requirement. It 
is different from the private pilot requirements because, of 
course, they will not have to actually manipulate the aircraft. 
In order to pass the test, it will be necessary to receive some 
education in the standards of operating in the airspace.
    We believe that the testing requirement will assure that 
people are competent for the purposes of operating their 
system.
    We have asked for comment. We will be interested to see 
what we get back from the community, to see if we need to 
adjust those proposals in any way.
    Senator Moran. Thank you very much. Mr. Morris, let me 
change topics. In the discussion of developing a system of 
control of UAS over long distances using existing cellular 
telephone networks or at least existing cell towers, that 
conversation, are we recognizing the considerable technological 
hurdles that are out there, and are the telecommunication 
companies prepared for this task?
    Mr. Morris. Senator, we really are, I think, at the very 
beginning of the development of kind of the commercial 
aviation. I am honestly not thoroughly familiar with the use of 
the cell towers in connection with UAS.
    I think that is something that we would need to get back to 
you on.
    Senator Moran. I would welcome that.
    Let me switch to the Farm Bureau. I am sure you said this 
in your testimony, and I was not here to hear it. I would be 
glad to hear about the value of UAS in Kansas. Much of 
agriculture recognizes there is a great potential here.
    I wanted to ask you a specific question about how necessary 
are beyond line of sight operations for agricultural purposes?
    Mr. VanderWerff. Thank you for the question, Senator. One 
of the other panelists spoke earlier about the use by the 
Japanese and some of the uses that are going on in the Asian 
countries. They are using UAS in ways far beyond where we are 
now in terms of they are not only using them for scouting, but 
they are using them for application of nutrients, things of 
that nature. Many of those things are beyond line of sight 
control.
    Presently, all UAS we have available in the U.S. are line 
of sight controlled. I will say, and to some of the other 
points that have been made, the safety features are extremely 
redundant.
    Once that vehicle exceeds the prescribed distance within 
the software, it automatically turns and returns to the 
geosynchronous point at which it started. When the battery is 
running low, it drops to a specified elevation and returns to 
where it started from. If you lose control of it, it comes back 
to where it started from.
    It is not like these things leave your line of sight and 
just go buzzing out around the countryside. They do return to 
where they started from. That is all based on the 
geosynchronous information that was put in when they were 
launched.
    Senator Moran. Thank you very much. Thank you, Chairwoman.
    Senator Ayotte [presiding]. Thank you. Senator Markey?

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Madam Chair, very much. I am 
aware of the many beneficial uses of drones, including spotting 
wildfires, examining crops, monitoring traffic. While there are 
benefits to drone use, there are also risks of misuse, these 
21st century eyes in the skies should not become spies in the 
skies.
    Today, just as we have rules of the road, we are going to 
need rules for the sky as well. I believe we can achieve both, 
protect privacy and give life to this new technology that will 
bring jobs and economic growth to our country.
    Unfortunately, today, when it comes to privacy protections 
for the American people, we are flying blind, flying and 
potentially spying robots sounds like science fiction, but they 
are a reality right now. Their technology is getting cheaper 
and more accessible.
    This drone here has two cameras on it that can be easily 
purchased and online for only $100. Two cameras flying over 
everybody's house in the United States.
    The FAA has already given exemptions to nearly 50 
commercial operators and announced today that it is planning to 
expedite the process so that drones can fly in the national 
airspace with no clear privacy rules.
    Today, operators are allowed to collect whatever 
information they want about you and me, and they can then use 
or sell that information however they choose. This is why 
earlier this month, I introduced the Drone Aircraft Privacy and 
Transparency Act.
    The bill requires, one, commercial drone operators to 
disclose what data they have collected, how that data is used, 
and whether the data will be sold, and when the data will be 
deleted, if at all.
    Number two, law enforcement must obtain a warrant before 
using drones except in emergency circumstances, and three, the 
FAA must create a publicly available website that lists where 
and when drones fly.
    As the Committee continues to process the FAA 
reauthorization, I look forward to working with my colleagues 
on these issues.
    Ms. Gilligan, if the FAA does not incorporate any Federal 
privacy protections into the final drone licensing process, and 
I saw a commercial drone flying over my house, would I be able 
to find out how the company uses the data they collect or if 
they sell my private information?
    Ms. Gilligan. Senator, we do make available the information 
about which operators we have authorized, and we do make 
available information about the airspace in which they are 
operating.
    Senator Markey. But would I be able to find out the data 
which they have collected? Would I be able to do that? If I see 
it flying over my house, can I call the FAA and can you then 
say provide the data over what you filmed in the backyard of 
that American? Can you do that?
    Ms. Gilligan. The FAA does not currently collect that 
information.
    Senator Markey. Would I be able to at least find out who 
owns or operates the drone that was flying over my house?
    Ms. Gilligan. As I said, we do keep records about what 
airspace operators are authorized to operate in. That is 
publicly available today.
    Senator Markey. It is on a public website right now?
    Ms. Gilligan. Yes.
    Senator Markey. I could find out who just flew a drone over 
my backyard?
    Ms. Gilligan. I believe that is the case, sir. I know it is 
publicly available. We also release it in response to FOIA 
requests. It is available. I apologize, offhand, I do not know 
if it is one that you can access from your IPad here today.
    Senator Markey. You are saying if somebody sees this 
outside of their window and they are filming their family 
members in the backyard, that right now, an individual in 
America could call the FAA or go to a website and find out who 
owned that drone? Is that what you are saying?
    Ms. Gilligan. We have the information about who has been 
authorized to operate in what airspace. Whether or not that was 
an authorized operation, I cannot tell you. If it was 
authorized, the records on who is authorized to use that 
airspace are available.
    Senator Markey. Are people authorized to just film families 
in the backyards of their homes?
    Ms. Gilligan. The purpose for which they are filming is not 
something I think we keep track of.
    Senator Markey. Again, that goes to the privacy issue. If 
families have their children in the backyard and those children 
are now being filmed by a drone, what can we do to protect that 
family from all these nefarious individuals, maybe now trying 
to take advantage of the absence of real privacy rules?
    Ms. Gilligan. I think that is why the Administration has 
begun the initiative that was announced and that NTIA is taking 
the lead on what Mr. Morris described earlier.
    Senator Markey. Again, what I am saying is in the absence 
of Federal laws that we put on the books, these drones with 
cameras, for $100, are just flying over backyards of people, 
parks, people all over the country.
    We have to put strong, enforceable laws on the books that 
ensure that ordinary Americans know that information is being 
gathered about their children, that it is being collected, and 
it potentially is being sold, and there are no rules against 
any of that.
    In the absence of us putting those protections on the books 
in this committee, then we are allowing all of these 
technologies to take off without the values that Americans 
would want to have being built into this new technology. That 
is our job on this committee.
    This is an inanimate object. It has no values, good or bad. 
We are the ones who are going to have to animate it with the 
values that we believe it should have, as it potentially 
engages in predatory activity against the families of our 
country.
    I thank you, Madam Chair.
    Senator Ayotte. Senator Peters?

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you, Madam Chair. Mr. VanderWerff, it 
is wonderful to see you here as a fellow Michigander, and 
hearing your testimony today. In addition to being a fellow 
Michigander, you are also a proud alumni of Michigan State 
University. It is great to have you here, of course, from one 
of the great agricultural universities in the country.
    I think it is important for you to be here as well in the 
fact that I think if you look at the applications of these 
drones and the opportunities for economic benefit, it is 
probably the agricultural sector where we can see some of the 
most significant increases of productivity.
    That is what I want to talk to you a little bit about. You 
mentioned it in your testimony. Perhaps we can flush it out a 
little bit.
    I know farming has changed very dramatically over the 
years, and I have had the opportunity, for a guy who did not 
grow up on a farm, to be on the tractors which look like 
computers now. They do not look like tractors, with GPS and all 
sorts of geographic information on them as you are dealing with 
a field.
    You talked about the ways these unmanned drones can help in 
productivity. Could you quantify that? Are there things these 
drones can do that you just cannot do given all the 
sophisticated equipment you already have now? What is that 
going to mean for your bottom line?
    Mr. VanderWerff. Thank you, Senator, for the question. The 
benefits of these unmanned aerial vehicles on our individual 
farms and ranches are multifold, and they are not specific to 
any one type of production system.
    Everything from cattle ranchers in the Western United 
States who are looking to find their herds of cattle over large 
distances very quickly, to specialty crop growers, like myself.
    I do not know if any of you have ever been in a commercial 
apple orchard, but if you take an area the size of 10 city 
blocks and put rows of trees on it 12 feet high, it is like 
being in a giant labyrinth. You can not only lose yourself, but 
can actually lose equipment very quickly. Unmanned vehicles 
allow us to get that bird's eye view to identify issues.
    On our grain side, the grain operation is probably where we 
are most excited about the potential benefit of these vehicles. 
Being able to, for example, fly over a corn field and look 
through the lens of an UAV for invisible infrared light 
signatures, heat signatures coming off the crop, we can 
identify plant stress. We can identify weeds. For example, a 
patch of grass will give off a different heat signature than a 
field of soybeans.
    Rather than having to walk the entire field or apply a 
herbicide to the entire field, I can simply identify an area 
with an UAV and then make that economic determination of 
whether or not it is going to be beneficial.
    Let's look at some of the issues that are going on right 
now in the Western United States with water shortages in the 
Ogallala Aquifer. I have a number of friends in Nebraska and 
the Dakotas and Kansas who are extremely excited about the idea 
that they no longer have to just blanket apply an inch of water 
to an entire quarter section. They can fly an UAV over it and 
map the heat signature coming off and apply water where it is 
needed, when it is needed, and how it is needed.
    This technology is very exciting. It is going to 
revolutionize even more of the agricultural industry that we 
are in currently. It is going to continue to make us the most 
competitive agricultural country on the planet.
    Senator Peters. Based on the large areas that you have to 
cover, the regulations which limit line of sight operations, 
that is not going to work for you, is it?
    Mr. VanderWerff. Line of sight operation is a challenge 
right now. It is a matter of location, if you are in part of 
the United States where the ground is relatively flat, line of 
sight can go a long way. You are basically limited to the 
sharpness of your eyesight.
    Where I am in Michigan, line of sight may only be a few 
hundred feet before you have trees and other obstructions. That 
is where the GPS capabilities of these technologies, as Mr. 
Misener was alluding to earlier, are so relevant to us.
    Being able to simply take your iPad and geofence the fields 
you want to fly in, swipe your finger to map out the pattern in 
which you want it to fly, the aircraft will take off. It will 
fly that pattern. It will do the mapping. It will then come 
back, land. I can upload that data into my computer and have it 
right there.
    The idea that these can take off from my home farm, fly 
half a mile or mile to another farm, do that mapping and 
return, is exciting. The technology is there but the question 
becomes whether or not we will allow the technology to reach 
its fullest potential. I believe we can do it safely and we can 
do it effectively, but again, the technology evolves ever 
faster.
    Senator Peters. Right. Thank you. Ms. Gilligan, the FAA has 
granted, and I think you mentioned in your testimony, some 60 
exceptions under Section 333, which was granted for some of 
these precision agriculture operations, as well as some aerial 
photography.
    I understand there are currently nearly 600 petitions 
pending. Does the FAA have any plans to establish a process to 
streamline this petition process similar to the 60 ones that 
have already been granted, particularly as we hear about the 
important applications this has for agriculture?
    Ms. Gilligan. Yes, sir. We are learning lessons as we go 
through this process. Today, we have issued 10 additional 
approvals in a process that we are calling a ``Summary Grant,'' 
which means we can look at an individual petition and if it is 
similar enough to one we have already fully analyzed and put 
out for public comment, we do not need to repeat that process 
again.
    We believe that will substantially increase our ability to 
handle these more quickly, because we are seeing now that there 
are certain buckets in which many of them fall. There are still 
some very unique ones, and those will have to go for public 
comment and more complete analysis.
    To the extent we can, we are trying to link new 
applications with decisions that we have already made to 
streamline them. In addition, today we issued what we are 
calling a ``Broad COA,'' Certificate of Authorization, for 
airspace, 200 feet and below.
    If the applicant can operate and meet their mission below 
200 feet, they will not have to get additional approvals from 
the air traffic organization. That will also shorten the 
process.
    We have a dedicated team, so they are learning as they go 
as well. They are getting more efficient at it as would be the 
case. We are dedicated. The Administrator has challenged us to 
move these petitions as quickly as we possibly can.
    Senator Peters. That is good. That should help our 
agriculture uses that we heard. Thank you so much. Appreciate 
it.
    Ms. Gilligan. Yes, sir. Thank you.
    Senator Ayotte. Senator Booker?

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. Ms. Gilligan, the White House drone, was 
that a commercial vehicle?
    Ms. Gilligan. No, it was not.
    Senator Booker. The airplane problems we have had with 
people flying drones close to airplanes, were those commercial 
vehicles?
    Ms. Gilligan. Not in most cases, sir.
    Senator Booker. Mr. Misener, have any of the sensational, 
salacious, exciting drone things that are showing up in 
newspapers happening because of Amazon?
    Mr. Misener. No, sir.
    Senator Booker. We need to distinguish between commercial 
operations and private use. I was happy to see my colleagues 
bring up private use, but the commercial usage, have you given 
permission for anybody commercially to fly over large crowds of 
people?
    Ms. Gilligan. No, sir; we have not.
    Senator Booker. No. That is not an issue. Mr. Misener, I am 
a little bit upset because it seems like when it comes to 
Government moving at the speed of innovation, whether it is in 
biologics, whether it is in the backlog at the Patent Office, 
or in this area, we are slowing this country where innovation 
is going on overseas at extraordinary pace, and we are being 
left behind.
    Forgive me your name, Mr. VanderWerff.
    Mr. VanderWerff. VanderWerff; yes.
    Senator Booker. Thank you very much, Mr. VanderWerff. You 
talked about the revolutionary impact allowing drones to be 
used could have on agriculture. Those revolutions are happening 
overseas, correct, right now as we speak, our agricultural 
competitors are investing in using this technology; is that 
correct, sir?
    Mr. VanderWerff. It is correct; yes.
    Senator Booker. This is what is hard for me to believe, the 
slowness with which this country is moving. If the actual 
aviation industry was regulated back in the time of the Wright 
Brothers, we may have gotten first in flight, but other people 
would be up flying planes, commercial passenger planes, before 
we even got an aviation industry started here.
    Mr. Misener, it is frustrating to me, and I would love to 
know that last week FAA allowed Amazon to begin testing UAS 
outdoors in the United States, but it was really in a limited 
fashion that still puts us in America in the back seat compared 
to what you are allowed to do in other countries, and frankly, 
no mishaps, no sensational articles, nothing like that is 
happening with the experiments that you all are doing to 
advance this technology; is that correct?
    Mr. Misener. Yes, sir, although I will say the FAA has, I 
believe, turned a corner. I have discussed this with Ms. 
Gilligan before. Things are getting better with respect to 
testing. Where they are not getting better is with respect to 
planning for the future.
    Senator Booker. Let the record show you sufficiently sucked 
up to the FAA.
    [Laughter.]
    Senator Booker. They will look at your application kindly, 
sir. Can you describe the work that Amazon is doing in other 
countries in relation to what we are doing here? How about that 
is a better way to ask it.
    Mr. Misener. Thank you, Senator. Thank you also for 
noticing that. What we are doing in other countries is just it 
is more flexible. We are allowed to innovate quickly in other 
countries in a way that we have not yet been allowed here.
    The jury is still out on whether the system that is set up 
under the grant last week will work. I think it will just 
because I feel like the FAA staff now is motivated, here I go 
again, but they are motivated to be helpful and to get us 
innovating again here in the country.
    It is just that we have not been able to do it yet, and we 
are hopeful to do it very soon here.
    Senator Booker. The FAA's dedicated professionals, I have 
no pecuniary interest in saying nice things about the FAA, 
incredibly committed folks. My comments are in no way talking 
about them.
    In fact, Administrator, I would say--Associate 
Administrator, I would say you have some constraints on how 
well you are able to move, because both the FAA and the 
industry agree that exceptions to the process is too slow and 
allows only narrow applications for companies that are lucky 
enough to be granted the exemption.
    I am asking you what steps can Congress take in the FAA 
reauthorization to strengthen your ability, the FAA's ability, 
to issue exemptions more broadly and in less time?
    Ms. Gilligan. Thank you, Senator. I think, as you know, our 
Administrator is also interested in looking at how we might be 
able to take full advantage of whatever authorities we have, 
and perhaps work with the Committee if we need to broaden 
those.
    In fact, there is technical assistance already underway 
between our staff and staff here on the Committee to look at 
these particular issues to see what more can be done. We will 
certainly continue to support the Committee as we review those 
issues.
    Senator Booker. Can the FAA quickly and currently issue 
exemptions for industry to safely operate UAS beyond the line 
of sight? That is a big issue.
    Ms. Gilligan. We would have the authority to issue those 
exemptions if in fact we could make the safety case, and I 
think the challenge that we face with beyond visual line of 
sight is we do not yet have the technology standards to be able 
to evaluate whether in fact we have safe enough technology to 
permit that to occur.
    Senator Booker. Thank you. I would just say to the Chair, a 
lot of the comments, this is being muddled, and it would be 
great to have a private drone hearing. There are a lot of 
issues about anybody and their friends being able to go out and 
get a drone and do things with it, but the commercial folks who 
have been acting responsibly are really being held back 
compared to our global competitors.
    Senator Ayotte. Thank you, Senator Booker. I think you 
raised some very good points here in terms of some of the uses 
of the drones and making sure we are clear on where the misuse 
is happening.
    I would like to call on Senator Daines.

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Thanks, Madam Chair. I certainly have 
appreciated the comments I have heard in this hearing and 
raising probably more questions than answers.
    I come from the state of Montana that places great value in 
privacy. In fact, I might argue we have different individual 
privacy expectations perhaps than people in large urban areas. 
That is why people like to live in states like Montana.
    I have also been talking to members of our state 
legislature who are interested in addressing these privacy 
concerns at the state level.
    For Ms. Gilligan, I think it probably relates to what is 
going on at the FAA. Certainly, I commend the FAA for taking 
action on the certification, on the airworthiness aspects of 
these commercial unmanned systems, and the Notice of Proposed 
Rulemaking, on small commercial unmanned aerial systems, but I 
do have concerns about the privacy aspects associated with the 
remotely piloted aircraft, many of which are not being used 
commercially. In fact, what Senator Booker was really 
distinguishing between, commercial use and non-commercial use, 
and therefore, are not subjected to the proposed rulemaking.
    My question is does the FAA think there is an appropriate 
role for local regulation of non-commercial or hobbyist uses, 
and if so, what might they be?
    Ms. Gilligan. Senator Daines, I am not sure the FAA has a 
position on local control. What I do know is that in the last 
reauthorization, Congress gave us very clear direction to allow 
hobby operations without additional regulatory restraints.
    We have complied with that. We are working with the model 
aircraft community to allow the use of what they call 
``community standards,'' and the American Modelers Association 
is taking the lead and providing information to their members 
about how they can properly operate safely and remain 
recreational users of this kind of technology.
    Senator Daines. What is your opinion, I guess, as a 
professional, someone who is in it every day, knows a lot more 
about it than I do, do you think there would be a role, do you 
think that is a good idea allowing the states to have an 
ability to regulate the non-commercial use?
    Ms. Gilligan. We are always concerned about local 
regulations that may affect the national airspace system. What 
we do know and what Congress has been clear about is that we 
need a national asset in the airspace, and those who operate 
broadly in the airspace need to know that what occurs in one 
location is safe and consistent with what can occur in other 
locations.
    I am not exactly sure whether or how a state or local 
entity might be able to carve something out to address modelers 
or to address recreational users. They may well be able to do 
it. We would want to look closely at whether and how they did 
that.
    Senator Daines. Let me ask Mr. VanderWerff at the American 
Farm Bureau, certainly I know some of our ag folks back home 
could see the value of finding a lost cow when we have more 
cows than people back home, which I am grateful for.
    In your testimony, you questioned who owns and controls the 
data collected by an unmanned system. An example you used was 
with a contractor flying the unmanned system and potentially 
being able to share or even sell that data with outside 
parties, including the Federal Government, frankly is chilling.
    What do you think is the best means of regulating this 
data, and more importantly, how can we ensure enforcement?
    Mr. VanderWerff. Thank you for the question, Senator. When 
we speak about the issue of data privacy, I guess I would refer 
you to our overall stance as American Farm Bureau and as 
agriculturists in terms of our data privacy.
    We are concerned about what is being collected, who 
potentially is viewing it, whether it was EPA or a third party 
environmental group. We believe that data ultimately belongs to 
the farmer who created it, and they should have the right to 
essentially determine who is able to use that data and for what 
purposes they would use it for.
    Senator Daines. Any thoughts on how we ensure enforcement?
    Mr. VanderWerff. I would refer that to the full written 
comments we will have with these proposed rules that will be 
out in the next short time. I would have to get back with you 
on that one specifically.
    [Mr. VanderWerff later submitted this information in 
reply:]

    As a starting point, AFBF supports adherence to the Fair 
Information Practice Principles (FIPPs), a set of internationally 
recognized practices for addressing the privacy of information about 
individuals. FIPPs is the appropriate framework for handling 
information collected by UAS, and it should be used to inform the 
stakeholders' UAS privacy discussion on the collection, storage and use 
of data.
    Farmers are concerned about UAS data collection from many 
unauthorized sources. The first concern is the prospect of government 
agencies--local, state or federal--inappropriately accessing sensitive, 
proprietary data and attempting to use it against them in connection 
with regulatory enforcement or litigation. Second, AFBF is concerned 
about data gleaned from UAS operated by commercial entities and private 
individuals, insofar as such entities and individuals are not bound by 
restrictions applicable to the government. Increasingly, private sector 
data breaches can be even more invasive and economically harmful than 
those targeting the public sector. Farmers believe that both private 
and government users must respect individuals' reasonable expectation 
of privacy in a way that distinguishes between routine, unremarkable 
uses of UAS technology and more invasive, intrusive uses. AFBF believes 
that use under the latter scenario should require some form of active 
authorization (e.g., obtaining a search warrant in accordance with the 
Fourth Amendment, obtaining written permission from the pertinent 
landowner and/or farm operator, or providing public notification).
    Invading an individual's privacy should result in civil and/or 
criminal liability, as appropriate with a state's and/or Federal law.
    UAS use in the farming/ranching context presents some unique 
challenges with respect to privacy. While AFBF recognizes that it would 
be impractical to require UAS operators to notify each and every 
individual in a position to visually observe the UAS in the air 
regarding the purpose of the flight and planned routing, UAS operators 
should nonetheless be required to secure the written consent of the 
landowner and/or farm operator if the operator knows or has reason to 
know that his or her UAS will be surveying or gathering data about 
someone else's private property.

    Senator Daines. Thank you. Mr. Morris, has the NTIA 
explored how the ownership of data will be addressed?
    Mr. Morris. Senator, our process is really just at the very 
beginning. We have put out a Request for Comment, and I 
certainly expect one of the issues raised will be an ownership 
question.
    We are not in a position to effect the legal rules that 
actually would affect ownership, but certainly in terms of 
looking at best practices that address issues like the farmer 
concern on data, that certainly is a topic that we expect will 
be discussed in our process.
    Senator Daines. Thank you. I am out of time.
    Senator Ayotte. Senator Heller?

                STATEMENT OF HON. DEAN HELLER, 
                    U.S. SENATOR FROM NEVADA

    Senator Heller. Madam Chairwoman, thank you. Thank you for 
the time, and I want to thank all of our witnesses for being 
here, appreciate your expertise. I apologize for not being on 
time. Myself and Senator Moran were in the VA Committee. I 
apologize if my questions overlap a little bit.
    I would like to address something that Senator Booker was 
talking about as far as agriculture is concerned, coming from a 
farm myself. He failed to mention fertilizing also. Maybe he 
did. All the things that you were talking about, again, I want 
to stress, are innovations that whether they are in European 
countries or Asian countries are being used today; is that 
correct?
    Mr. VanderWerff. That is correct, sir; yes.
    Senator Heller. Nevada was designated one of the six 
unmanned air system test sites. For that, we are grateful. We 
have some great facilities. Nellis, Creech, Fallon, go down the 
list, Boulder City.
    In fact, we had a test recently with the Governor of one of 
these unmanned air systems. It was a wonderful experience to be 
part of that test and to see what they are doing in that 
particular facility.
    Here is the concern, and I think it was well said by 
Senator Booker, and that is the technology cannot be successful 
if it is hampered by regulations, over burdensome, time 
consuming approval process, and that is the complaint that I am 
hearing today.
    I guess I will ask Ms. Gilligan this question. There is no 
doubt, there are privacy issues that you guys have to overcome, 
and I give you credit for the hard work it is going to take to 
overcome that.
    These first steps of just testing have become very, very 
restrictive. I believe it will dissuade a lot of companies and 
a lot of people from using some of these test sites, and 
devoting the kind of resources that will be necessary.
    I guess my question to begin with would be quite simple, 
and that is if the FAA was not required by law to begin work on 
integrating drones into the national airspace, would the agency 
be working on it at all?
    Ms. Gilligan. Yes, sir. We have applicants who have come in 
who actually want to fully certify their vehicles, and those 
are underway in our Los Angeles Office. We are building what 
are the set of standards that those vehicles need to meet.
    We have an exemption process that anyone could have applied 
for to authorize operations in the airspace. We are as mindful 
as the members of the Committee that this is a growing 
industry, and we do want to be able to support it, but we also 
want to make sure we have identified if there are risks that 
could be introduced into the system and that those risks are 
fully mitigated.
    Senator Heller. I guess a concern is, and the feedback that 
I am getting, being one of the six states, the process seems to 
inhibit testing as opposed to expanding it. Technology 
development here in the United States where other countries 
have already clearly moved far beyond what we are able to do.
    Let me give you a couple of examples. The hoops they have 
to jump through, every time they want to change designs of 
their drone, it takes months to get that new design approved. 
If they do a test and they want to test the same design in a 
different manner, they have to jump through all these hoops. It 
takes months to get the approval in order to do that.
    They are arguing it just does not foster innovation. That 
can be frustrating. That is what I am hearing, I am hearing 
that kind of frustration.
    I am going to give Mr. Misener one more chance to push back 
on the FAA.
    [Laughter.]
    Senator Heller. You said in your testimony last week that 
the approval for Amazon was a model that was already outdated. 
What is it going to take from the FAA for you to do the work 
you guys are trying to achieve?
    Mr. Misener. Thank you, Senator. I think what it will take 
will be a recognition that these are different kinds of 
aircraft than the ones they are used to dealing with. This is 
not a 777. This is a little device.
    We would like to be able to tweak things and move quickly 
and innovate. We call it ``iteration'' within Amazon. That 
means making new changes all the time, constantly improving, 
perfecting.
    I think we are almost to the spot with the FAA where we can 
do that domestically. It has just taken a long time to get 
here. My biggest concern, Senator, is we are not planning for 
that future in which drones will be able to fly beyond visual 
line of sight with a high degree of automation, we are not 
planning like the Europeans are, and we should be.
    Senator Heller. Mr. Chairman, my time has run out, but 
thank you.
    Senator Booker [presiding]. Something unprecedented has 
happened. I was designated by Kelly. That is my little bit of 
seniority. This is a shocking and unprecedented moment where I 
am now in charge----
    Senator Heller. Congratulations.
    [Laughter.]
    Senator Booker.--of the hearing on drones. A very exciting 
thing. I do have to say just for the record now that I am in 
charge that you are a pretty cool guy for someone who went to 
USC.
    [Laughter.]
    Senator Heller. I will take it.
    Senator Booker. I actually tend to agree with--I never 
thought I would agree with a Trojan as much as I do with 
Senator Heller. I would like to get into another round of 
questioning. I do not know if you have more.
    Senator Heller. Sure.
    Senator Booker. If I may begin, and just want to finish up 
with a couple of questions to Associate Administrator Gilligan, 
if you will. Can the FAA make a commitment into looking into 
how we can begin safely testing and researching the out of 
sight ability for UAS to fly? That is a big concern for me. 
From what I read and from talking to people in the industry, it 
puts a significant barrier to our ability to push the bounds of 
what is possible with this technology.
    Ms. Gilligan. The risk that is introduced with beyond 
visual line of sight operations is that the vehicle itself 
cannot sense and avoid if it is in proximity of other aircraft.
    Right now, in the manned system, we have the pilot that 
plays that role, and we are looking for how we can replace that 
role for the unmanned system. The RTCA is working with an 
industry group to design standards for sense and avoid. Once we 
have those standards, we can put them forward and we can 
determine how we can properly and safely allow for those 
extended operations.
    Senator Booker. Sorry to interrupt. Under Section 333, what 
Mr. VanderWerff had said about on a large farm, no people, no 
other aircraft in the area, could you understand an exception 
might be worthy for agricultural purposes with a risk of in air 
collisions might be significantly if not dramatically lower?
    I would imagine, Mr. VanderWerff, if you could just nod up 
or down, that other countries are using out of line of sight 
operations for their drones in agriculture; is that correct?
    Mr. VanderWerff. That is my understanding.
    Senator Booker. Yes. Could you imagine the United States 
catching up to that and making that exception?
    Ms. Gilligan. It certainly might be something where we can 
make a safety case for an exception. What we would need to 
understand is what are the other operations in the area.
    The U.S. has a very active general aviation community. We 
also have a very active manned agriculture community who have 
raised their own concerns about the idea of the use of drones 
in the airspace where they are operating as well.
    We do need to make sure that we understand what the risks 
are and that we are mitigating them properly.
    Senator Booker. You just feel like the other countries, 
Germany, France, New Zealand, they are all just being far more 
risky than the United States? They are taking unnecessary risks 
on while the United States, we are much more cautious?
    Ms. Gilligan. I do not know that they are taking on 
unnecessary risks. I do know they have far less general 
aviation in any of their airspace. They have a much less 
complex airspace system generally. Their risks are different 
than ours. I assume they are addressing their risks 
appropriately, and we would look at doing the same.
    Senator Booker. For areas of the country where we do not 
have a lot of crowded airspace, like I would imagine the apple 
orchards of certain states. I know New Jersey is not such a 
state. There are some places out West.
    Could you see us making more speedy exceptions to those 
geographic areas where there is not complex airspace, 
especially at certain heights? I do not know if the 150 to 250 
foot airspace is that crowded in farms in say the Midwest.
    Ms. Gilligan. We are using the exemption process now to 
authorize visual line of sight operations. With an appropriate 
safety case, we would use the exemption process for beyond 
visual line of sight. But, we need to answer how is it that the 
aircraft are going to be properly controlled and properly 
separated in the event there is other aircraft.
    The reality is we have a lot of what we call ``itinerant 
aircraft.''
    Senator Booker. How are foreign countries answering that 
question?
    Ms. Gilligan. I would have to look at it more closely, sir. 
I do not know exactly how they have addressed that risk, but I 
can do that.
    Senator Booker. Somehow they are addressing the risk, they 
are doing it better than the United States, they are doing it 
quicker than the United States. We are not answering those 
questions.
    Ms. Gilligan. They are doing it differently than the United 
States, sir. I agree with that. We are looking at how we can 
continue to enhance the integration of UAS.
    Senator Booker. OK. I am going to just continue. Many of 
the people on the panel--I would just like to get a chance to 
get more feedback from other panel members--have been studying 
the drones and use of regulatory structures.
    I have been very impressed with the UAS usage and 
technology abroad as I have talked about. I have seen examples 
of drone use to deliver medication in difficult places to 
reach. They have been used to monitor and protect against 
animal poaching in Africa, in exciting ways. They have been 
used to fix poles and lower the risk of people who have to 
climb up a lot of our poles.
    Like your home drones are being used to monitor farms as we 
have been told and ensure the animals are getting humanely 
treated.
    This technology to me has unbounded potential. We have a 
history in this country of embracing that potential. It has the 
ability to extremely accelerate productivity, lessen our 
environmental footprint. It actually has the ability to enhance 
safety in this country, and it also has a chance to provide 
services that would not have otherwise been practical or 
affordable.
    I would just like to ask real quickly, would anybody else 
like to comment on the applications for UAV technology?
    Mr. Villasenor. I just have a quick additional comment, if 
I may.
    Senator Booker. Yes, please.
    Mr. Villasenor. The subject of private use came up before, 
and Senator, you cited quite correctly, some very improper 
uses. I think it is important to recognize that the 
overwhelming majority of private unmanned aircraft users are 
responsible, and in fact, we all agree about the importance of 
innovation, and many of the innovations five and 10 years from 
now commercially are going to come from the people who are 
hobbyists today.
    I think it is important to recognize the needs of that 
community as well, while at the same time having zero tolerance 
for behaviors that are reckless or dangerous or outside the 
envelope----
    Senator Booker. My time has expired. If I have another 
round, I want to get the answer to that question. Mr. Heller?
    Senator Heller. Thank you, Mr. Chairman. Let the record 
reflect that the Pack 12 is dominating the discussion today. 
Having said that, I want to go back to you, Ms. Gilligan.
    I believe the question and the comments, from what I have 
heard since I have been in the Committee, is how to speed up 
the process, how to get through some of the hoops. Would it 
make any sense for the FAA to work with the six designated test 
sites to give them Certificates of Authorization with broader 
authority, something called a ``blanket geographic COA?''
    Ms. Gilligan. Yes, sir. We are looking at doing that at a 
number of the test sites. In addition, for the test site in 
Nevada, it has been the first test site that has a designated 
airworthiness representative who can issue experimental 
certificates to anyone who would want to fly their unmanned 
system in that particular test site.
    We think that is another way to encourage manufacturers to 
bring----
    Senator Heller. Explain that to me one more time. What does 
Nevada have?
    Ms. Gilligan. Yes, sir. We have initiated a program that 
would allow for the test sites to identify an individual----
    Senator Heller. Is that called ``train the trainer?''
    Ms. Gilligan. In this case, not exactly. What they are 
doing is identifying individuals who are experienced in 
aviation. They go through specific training that the FAA is 
offering, and they can then be designated by the FAA to issue 
experimental certificates for unmanned systems, much like the 
certificate that the FAA issued to Amazon. This would be a 
designated individual connected with the individual test site.
    We are setting it up only for the test sites, so again 
there is that opportunity for the test site to be able to draw 
manufacturers who may want to do work in that test site.
    We are working to see how we can enhance people taking 
advantage of what the test sites have to offer, because we 
cannot get the data that we need to better understand what the 
risks are and how to address them if we do not have people who 
are operating at the test sites.
    Senator Heller. Let me raise one other question having to 
do with news gathering organizations. We have broadcasters in 
the northern part of the state, southern end of the state, that 
currently fly helicopters. They fly helicopters over populated 
areas as a way to report the news. It is allowed, I believe, by 
the FAA.
    Ms. Gilligan. Yes, sir.
    Senator Heller. All right. I think most people would agree 
that these operations are important to inform the public and it 
is all done to get them information, I would consider, in a 
timely fashion.
    UAS operations would seem to impose a much less potential 
threat to people on the ground than helicopters do, and perhaps 
provide even greater benefits in the field of news gathering 
than even helicopters currently do.
    However, the current proposed rules would ban their use if 
even a single person is on the ground beneath them. Would the 
FAA consider a reasonable allowance for the use of UAS to cover 
news worthy events that inform the public?
    Ms. Gilligan. Sir, the reason that we have not authorized 
the use of UAS over populated areas is because the vehicle 
itself is not designed to any standards, not tested to any 
standards, and not manufactured against any particular process, 
as opposed to manned vehicles, where I am sure you aware we 
have extensive standards for both the design and manufacture to 
ensure an appropriate level of safety.
    Right now, we have not figured out how we can properly 
mitigate the risk of the unmanned vehicle which does not meet a 
defined level of safety, so we have required it be kept away 
from people. We have asked for comment on that in the Notice of 
Proposed Rulemaking.
    We have recently through an agreement that we had with CNN 
been able to authorize their use of an unmanned system not over 
a populated area but in closer proximity than we had in the 
past, so we could begin to learn more about just how we might 
be able to better mitigate that risk.
    We agree with you there is a good use for UAS in the news 
gathering environment, at this point, design and manufacturing 
standards are really not known to the FAA, so it is hard for us 
to stand behind those.
    Senator Heller. Right. It is not a problem with the idea, 
in fact, you do not have a problem with the idea.
    Ms. Gilligan. Right.
    Senator Heller. It is whether or not we get to a point in 
technology that we feel good enough that an unit is worthy 
enough to fly over human beings.
    Ms. Gilligan. That is very accurate. I believe if in fact 
there were to be an accident with an UAS over a populated area, 
the questions that this committee would be asking the 
Administrator and me is: how is it that we authorized that?
    Senator Heller. You are right.
    Ms. Gilligan. We need to assure ourselves that we have done 
the safety analysis and we have mitigated those risks before we 
can authorize the operation.
    Senator Heller. Thanks for your comments. Mr. Chairman, I 
am done.
    Senator Booker. Thank you. I have been alerted that we have 
to close the hearing. It is unfortunate. It is the saddest I 
have been since I have been an U.S. Senator.
    [Laughter.]
    Senator Booker. I want to thank everybody for coming here. 
Your testimony has been invaluable, and I am very grateful for 
that. It is exciting when you are on a new frontier of 
possibility and opportunity for this country, it is incredibly 
exciting when you have a technology that can improve the 
health, safety, and expand economic opportunities within our 
country, but it has to be done right, it has to be done with 
safety concerns addressed and the privacy concerns that were 
addressed in this hearing.
    I know we will be doing more together on this issue, but I 
just wanted to express my gratitude for you all coming here.
    I will now say that the hearing record will remain open for 
2 weeks. During this time, Senators are asked to submit any 
questions for the record. Upon receipt, the witnesses are 
requested to submit written answers to the Committee as soon as 
possible.
    With that, the hearing is now closed. Thank you.
    [Whereupon, at 4:19 p.m., the hearing was adjourned.]

                            A P P E N D I X

Prepared Statement of Air Line Pilots Association, International (ALPA)
    The following statement is submitted by the Air Line Pilots 
Association, International (ALPA), representing more than 51,000 
professional airline pilots flying for 30 airlines in the United States 
and Canada. ALPA is the world's largest pilot union and the world's 
largest non-governmental aviation safety organization. We are the legal 
representative for the majority of professional airline pilots in the 
United States and are the recognized voice of the airline piloting 
profession in the country, with a history of safety advocacy that 
extends for over 80 years. As the sole U.S. member of the International 
Federation of Airline Pilots Associations (IFALPA), ALPA has the unique 
ability to provide active airline pilot expertise to aviation safety 
issues worldwide, and to incorporate an international dimension to 
safety advocacy.
Introduction
    The need to modernize aviation extends beyond simply upgrading 
today's ground and airborne equipment. Among the most dramatic and 
challenging revolutions in aviation technology and operational 
capability to be introduced into the NAS is the Unmanned Aircraft 
System (UAS) some of which are more appropriately called Remotely 
Piloted Aircraft Systems (RPAS). ALPA recognizes the societal and 
economic benefits of employing this technology to perform a wide 
variety of tasks more efficiently, in a more environmentally 
responsible manner, and potentially more safely than the same task 
performed with conventional aircraft. However, it is vitally important 
that the pressure to capitalize on the technology not lead to an 
incomplete safety analysis of the aircraft and operations.
    UAS/RPAS aircraft are separated into two categories. The first 
category is the UAS/RPAS that weigh 55lbs or less are defined as 
``small'' (sUAS) as discussed in more detail in the recent FAA Notice 
of Proposed Rule Making (NPRM) entitled ``Operation and Certification 
of Small Unmanned Aircraft Systems.'' These aircraft are generally 
intended to be operated well away from other traffic in the airspace, 
and so ALPA's primary concern in this regard is that the standards, 
practices and regulations covering small UAS/RPAS provide the means to 
ensure the aircraft do not stray, inadvertently or deliberately, into 
areas where they may pose a hazard to airline operations. FAA's recent 
NPRM cited above is a comprehensive review of the hundreds of 
regulations necessary to address operation of small UAS/RPAS and we 
commend FAA for the effort in developing the NPRM. ALPA will comment on 
the specific provisions through the accepted public review process and 
we look forward to working with the FAA to address our concerns 
regarding ensuring the safety of operations in the National Airspace 
System (NAS).
    Large UAS/RPAS, those that weigh more than 55lbs, can range in size 
as large as a Boeing 737 . While differences in size, performance and 
operational capabilities can vary greatly, there also exists a wide 
range of technology on the ground that forms the entire system that 
also must be considered in evaluating the safety of integrating these 
aircraft into the National Airspace System, not just the aircraft 
itself. These aircraft, since they are intended to occupy the same 
airspace as that used by our members' aircraft and other users of the 
NAS, must be designed, managed and operated in the same manner and to 
the same high safety standards as other NAS users. This is a daunting 
challenge and ALPA, with other stakeholders, continues to work on many 
levels to provide our views and expertise to the many government-
industry activities whose common goal is ensuring the safety of the 
NAS.
    Some UAS aircraft are operated completely autonomous in that their 
flight route is completely computer programed and the device operates 
without a ``pilot in the loop''. Other UAS aircraft, RPA aircraft, are 
flown remotely by pilots from an operational center or control stations 
that can be located at the launch and recovery site or thousands of 
miles away. UAS is a broader descriptor and includes both autonomous 
and RPA aircraft. Pilots/operators are not currently required by 
Federal Aviation Regulations to be FAA-licensed or qualified as pilots 
or even have a common level of proficiency. In fact, in many cases, 
these operators are recruited from recreational modeling. Most of the 
current larger designs were developed for the Department of Defense 
(DOD) for use in combat areas and are not necessarily designed, built, 
maintained, or able to safely interoperate with other civil users in 
the same manner as other aircraft in the National Airspace System. As a 
result, today they are typically flown in segregated airspace, i.e., 
military restricted airspace or equivalent, but these UAS have 
demonstrated over and over again that they may potentially stray out of 
their assigned airspace in the event of a malfunction.
    The UAS/RPAS may be used to perform flight operations that may 
expose more risk for a human to accomplish reliably and repeatedly in 
potentially austere environments. The uniqueness of UAS/RPAS operations 
has revealed many safety and technological challenges to be addressed 
before integration in order to maintain the current level of safety for 
the NAS, its users, and the travelling public. The introduction of 
small and large UAS to the NAS has become the most challenging 
enterprise for the FAA and the aviation community in many years. UAS 
proponents have a growing interest in expediting access to the NAS as 
evidenced by an increase in the number and scope of UAS flights in our 
busy NAS.
    FAA has identified research and development efforts to be conducted 
at six specific test sites. Other operations in restricted capacities 
have been authorized in remote or segregated areas of the NAS. However, 
as the drumbeat to integrate the UAS/RPA as quickly as possible grows 
louder, many current and future-state technological issues raise yet-
unanswered questions about the ability of these UAS/RPAS to safely 
interoperate with today's certified aircraft in the NAS.
    Until comprehensive end-to-end solutions are developed and 
promulgated by FAA, our overarching position is that no unmanned or 
remotely piloted aircraft, public or civil, should be allowed 
unrestricted access to conduct flight operations into the NAS unless it 
meets all of the high standards currently required for every other 
airspace user. This means UAS/RPA must be designed to interoperate, 
with similar performance and functional requirements at the heart of 
their system, architectures embodying state-of-the-art safety 
technologies and system redundancies as required by currently certified 
commercial and general aviation airspace users. Of particular 
importance and concern is the ability of commercial passenger carrying 
aircraft operating in the NAS to safely perform see and avoid and 
collision avoidance maneuvers against UAS and RPAS aircraft that may be 
operating in the same area. Likewise, we believe UAS/RPAS operating in 
the NAS must themselves be able to effectively identify other traffic 
and safely maneuver to avoid conflict and collision.
    We believe that the fundamental functions of operating the aircraft 
in a safe manner must be maintained at the same level of safety 
regardless of the location of the pilot or levels of automation. At the 
center of current commercial aviation flight operations is a well-
trained, well-qualified professional pilot, and a well-qualified pilot 
remains the single most important safety component of any commercial 
aircraft. A UAS/RPAS should be able to operate as a part of commercial 
or general aviation, as the case may be, through compliance with FAA 
regulations and accompanying certification standards to meet the target 
level of safety that is performed reliably and repeatedly by well-
trained airline pilots and their aircraft in the NAS today. 
Accordingly, UAS/RPA operators performing commercial or ``For Hire'' 
operations in airspace used by manned aircraft should be required meet 
all the certification and equivalent safety requirements of a 
commercial operator and the pilots flying the aircraft must meet 
equivalent training, qualification, and licensing requirements of 
pilots of manned aircraft in the same airspace.
Harmonization of UAS/RPA Platforms
    UAS/RPA aircraft themselves are necessarily part of a larger system 
that includes the supporting ground station or control station, along 
with the command and control communications system which may employ a 
wide range of ground-or space-based elements.
    Development of a common description of the UAS/RPA remains an 
unresolved technical issue with different interpretations either by 
country, regulatory body, or the media when described in publications. 
The main point of contention is that an Unmanned Aircraft System is not 
truly unmanned in today's context; more accurately, it is an aircraft 
operated and managed by a pilot-in-command in a cockpit located in a 
ground station. So, while the term UAS sounds more autonomous or 
robotic, in reality, the FAA has stated that autonomous flights in the 
NAS are currently not authorized nor envisioned in the near term. A 
more apt description for these aircraft platforms and their support is 
the Remotely Piloted Aircraft System or RPAS for short, which is the 
accepted ICAO nomenclature. The term RPAS actually describes these 
platforms quite well, as the pilot is remotely located in the ground 
station but an integral part of the system. The FAA has representatives 
serving on international committees to harmonize the definitions, 
descriptions, procedures, and related documentation and we are 
optimistic that the FAA will begin the adoption of products from these 
groups to harmonize terminology with other regulatory organizations 
ongoing work efforts.
UAS Design Standard Barriers
    The futuristic visions of unmanned operations promise possibilities 
and convenience that offers the attraction of a flying technology 
unbound from the conventions and constraints of modern aviation. The 
reality is quite different; new UAS/RPAS technology currently lack--but 
must have--the standardization of safely integrated and interoperable 
certified systems, which the FAA requires of commercial operators in 
the NAS today. Without mature safety standards accompanying the 
introduction of this technology, safety in the NAS today would be 
significantly and negatively impacted, adding risk to commercial 
airline operations and to an overburdened Air Traffic Control system.
    There are UAS/RPAS proponents within government and industry who 
are insistent that within the next few years, UAS/RPAS should begin a 
much broader scope of civil commercial operations than is permitted 
today. Some proposals even advocate fully autonomous systems, that is, 
aircraft operations without pilots actively flying or commanding the 
aircraft (e.g., package delivery and survey) but individuals who merely 
monitor the end-to-end flight operation. At this time, the UAS/RPAS 
technologies, safety standards and certification criteria for an end-
to-end solution for NAS integration are quite immature; patience, and 
more importantly collaboration, is needed to diligently examine all the 
barriers and successfully develop comprehensive and fully mature 
solutions prior to widespread operational implementation into the NAS. 
We simply cannot afford to miss critical steps in technological design 
standards and safety analyses in an attempt to satisfy a market demand.
    The introduction of multiple variations of UAS/RPAS without first 
completing safety-focused architectural standards, analysis, rigorous 
testing, and robust aircraft and pilot certifications would impair 
aviation safety and the public's perception of safe air travel. We 
believe that all aviation stakeholders should examine UAS/RPAS 
integration to determine how these RPA platforms may impact their 
operations.
Technological Barriers Impacting Operations in the NAS
    American aviation technology is experiencing its own ``space race'' 
akin to the 1960s, with phenomenal growth in aviation science and 
technological advancements in this modern digital age, the results are 
testimony of the advanced applications underpinning NextGen and 
associated programs. These technologies are designed at their core 
architectures to be safe, reliable, and repeatable to provide the 
efficiencies required maintain the target level of safety as aviation 
transportation continues to grow. The target level of safety for 
commercial air travel in the NAS should be proactively, not reactively, 
protected. We are fully aware that there is a strong desire by UAS/RPAS 
proponents, and those who wish to become operators, to begin flying in 
the NAS as quickly as possible. Clearly, there are commercial, social, 
business and international competitive advantages to a strong UAS 
industry. However, the government and industry must take a longer view 
of this present state of technology and ensure that robust safety 
systems, in tandem with FAA certified redundant systems of UAS/RPAS are 
developed that completely integrate with commercial airline operations, 
and above all, do so safely. An imprudent rush to create and implement 
minimum standards will not only harm safety, but potentially produce a 
setback for the future expansion of UAS/RPAS operations for years to 
come.
    A June 20, 2014, newspaper article \1\ reported that 47 UAS/RPA 
accidents involving U.S. military and Federal agencies' aircraft had 
occurred since 2001, which is a safety record that no commercial 
business or airline could survive. These Federal institutions have the 
authority to self-certify the airworthiness of their own UAS/RPA which 
can involve modifying compliance with FAA certification standards to 
accommodate these agencies' unique mission requirements. This latitude 
and difference in priorities relative to commercial aviation is likely 
a contributing factor to the number of UAS/RPA accidents.
---------------------------------------------------------------------------
    \1\ ``When Drones Fall from the Sky,'' Washington Post, June 20, 
2014
---------------------------------------------------------------------------
    As such, it is easily understood that without the FAA's and other 
safety organizations' experience and collective guidance in aviation 
safety, lesser airworthiness standards and certification procedures 
will produce greater UAS/RPA accident rates. Moreover, these accident 
rates expose the importance of developing civil standards tailored 
explicitly to UAS/RPA technologies, airworthiness, and related 
certifications through established civil procedures.
    Unlike their manned counterparts, a key system on a UAS/RPA is the 
Communication and Control System (C\2\). This is what allows the pilot 
to safely and effectively control the aircraft. The system transmits 
and receives command inputs (e.g., flight maneuvers, navigation, 
aircraft status, and ATC communications) to and from the ground station 
via radio frequency link between the ground station and the UA/RPA. The 
criticality of the C\2\ system becomes self-evident, as it is the most 
vital single-system link depended upon for the UAS/RPA to successfully 
and safely operate. Link failure--which is exactly analogous to the 
pilot of an aircraft suddenly disappearing from the cockpit--may cause 
a multitude of unintentional, cascading events. The sole dependence on 
this vital link is a necessary aspect of UAS/RPAS operations but its 
failure is one of the primary causal factors why UAS/RPA have 
accidents.
    The primary C\2\ contributing failures are associated with latency 
issues, that is, the time between transmission and reception of a 
command to successfully operate the UAS/RPA. Unlike the human on-board 
pilot, whose control input is instantaneous, latency times can be from 
3 seconds to as much as 30 seconds, perhaps more. In the NAS, where 
immediate communication and required actions are expected to provide 
separation between aircraft, latency could cause more significant 
problems for Air Traffic Control (ATC) and manned aircraft in that 
airspace. The term ``lost link,'' as the phrase implies, is the result 
of the UAS/RPA having no communication or control whatsoever to 
successfully operate and command the UAS/RPA until C\2\ two-way link is 
re-established, if that is accomplished.
    The varying degrees of UAS/RPA C\2\ vulnerabilities and failures 
creates complex safety issues for UAS integration. The C\2\ data, 
voice, and video requirements placed on operating UAS/RPA using radio 
waves or satellite creates limitations that currently prevent UAS from 
performing to the safety level of manned commercial aircraft 
operations. If a UAS/RPA cannot maintain a C\2\ link, the normal 
expectation of a UAS/RPA to perform the critical functions of ensuring 
separation from terrain, obstacles, and other aircraft, as well as 
collision avoidance responsibilities, will unduly place safety burdens 
on other NAS users. Since 1931, ALPA's professional airline pilots and 
safety professionals have worked together to advocate for the safety of 
the NAS. Manned aircraft flown by pilots in the NAS today use 
Instrument Flight Rules (IFR) to take advantage of the benefits of 
FAA's ATC separation services, however, a pilot's responsibility to 
``See and Avoid'' to remain well-clear of other aircraft is a constant 
responsibility in their line of work, regardless of who or what else is 
monitoring the flight. Simply stated, pilots visually scan the 
airspace, especially when traffic is being reported to them by ATC, to 
identify the aircraft in question when a traffic alert is initiated or 
simply when a flight crew is flying into an airport that may not have a 
control tower, to avoid all potential conflicts. The UAS/RPA needs to 
be equipped with the technological ability to maintain well-clear of 
and avoid collision with other operators if it is to truly replicate 
the actions expected of every aircraft in the NAS.
    A robust and safe UAS/RPA system design should never result in the 
transference of safety responsibilities--such as maintaining 
separation--to other operators and NAS users. Accordingly, one of the 
most important capabilities yet to be developed for UAS/RPA operations 
is the Detect and Avoid (DAA) technology that is fully capable of 
performing two primary functions, staying well-clear of other aircraft 
and if that cannot be done, the ability to avoid an imminent collision 
using an active collision avoidance technology. While those 
capabilities in manned aircraft are accomplished by a combination of 
pilot skill and electronic means, UAS must rely solely on electronic 
means. The responsibility to avoid coming hazardously close to other 
aircraft is a two-way street. In addition to the UAS/RPAS ability to 
detect and avoid other aircraft, other aircraft in the NAS must 
likewise be able to ``see'' any UAS/RPA that could pose a collision 
threat. Realistically, given sizes too small to be seen by the human 
eye until the aircraft is dangerously close, the ability to be seen 
must be electronic.
    A promising system to enable that capability is called ACAS X. 
Unfortunately no funding exists to develop ACAS for UAS/RPAS to 
implement this groundbreaking technology. Specific funding for ACAS X 
(current and future manned aircraft) and ACAS Xu (for UAS/RPAS) would 
benefit manned and unmanned aircraft and play a vital role in the safe 
integration of UAS platforms into the NAS RPA's and harmonize with 
NextGen requirements in the near future, as well.
Government and Industry Initiatives
    FAA Reauthorization legislation was introduced and Congress passed 
the ``FAA Modernization and Reform Act reauthorization of 2012'' on 
February 14, 2012. However, the FAA anticipating the growing advocacy 
of UAS/RPAS expansion in the NAS stood up the UAS/RPAS Integration 
Office, AFS-80. In general, AFS-80s purpose is to develop the 
overarching aviation coordination of UAS/RPAS integration standards, 
regulatory issues, certifications required for the aircraft and for the 
pilots who fly them, as well.
    In Section 332 of the FAA Reauthorization Act of 2012, 
``Integration of civil unmanned aircraft systems into national airspace 
system,'' the Act required the FAA to develop a comprehensive plan for 
integration of UAS/RPAS into the NAS by September 2015. The UAS/RPA 
industry is focused on the much publicized military and domestic law 
enforcement UAS operations but, simultaneously, is rapidly moving 
forward on UAS many roles in civil applications. UAS petitions for 
exemption under Section 333 currently request exemptions from several 
regulations in 14 CFR Parts 61 and 91, in order to perform operations 
in areas like film making, environmental surveying, infrastructure 
inspection, 3-dimensional map making, and agriculture applications.
    As a result, the mounting pressure by the UAS industry to gain 
access into the NAS for commercial UAS operations continues, as 
evidenced by hundreds of petitions for exemption under Section 333 of 
the 2012 FAA Reauthorization Act. However, the FAA is working hard on 
an integration plan, and just released (February 2015) the long-awaited 
NPRM for small unmanned aircraft (sUAS).
    Until the sUAS rule is actually promulgated, operators file a 
petition to seek exemption from compliance with these regulations that 
the rest of the U.S. aviation community must be in compliance with 
every day. Proponents must, in their petitions for exemption, describe 
each and every means they intend to use to provide an equivalent level 
of safety. The FAA, in turn, if they grant the petition, must then 
check each and every operation for compliance with a set of 
requirements that is custom tailored for every operator. The 
requirements of the Act force the FAA to react to the legislated 
ability for proponents to request exemptions from multiple regulations 
significantly taxes an already strained FAA oversight capability.
    Even as designs and procedures are refined, these UAS/RPAS 
routinely fail. However, without quantitative failure data analyses, 
what components and how often failure occurs has not been made 
publically available. Small UAS/RPAS have failure conditions much like 
their larger cousins, C2 links, GPS, navigational and flight control 
failures appear to be quite common. As FAA points out in the NPRM, when 
these small aircraft are in the areas in which they are intended to 
operate, the risk to the public is arguably low. Hence it is critical 
to ensure they remain in those areas. Without robust standards, system 
architectures and redundant safety systems receiving certification 
through the FAA, the approved operators under Section 333 will 
certainly encounter failure conditions and create potential safety 
issues in the NAS. A significantly growing problem is unapproved small 
UAS/RPAS operations creating near mid-air collisions currently in the 
NAS also demonstrate why safety-based standards, certifications, and 
regulatory enforcement are required immediately to address this very 
serious potential safety problem.
    The FAA has been challenged in completing a plan for integration 
that incorporates a complete set of standards development, rulemaking, 
certification and safety analyses to meet the September 2015 deadline 
required in the Act. We believe in order to guarantee an ``equivalent 
level of safety'' for UAS in the NAS, realistic timelines for safety 
and aviation technology studies, accompanied by stable sources of 
funding to identify all potential hazards and ways to mitigate those 
hazards, must be developed at a pace that does not compromise safety. 
As a result of these challenges, the FAA has chartered Aviation Rule-
Making Committees (ARC) and tasked RTCA to create a Special Committees 
(SC), both of which play pivotal roles in standards, regulatory and 
policy development for many types of technological challenges in 
aviation.
    The FAA established the Small UAS/RPAS Aviation Rulemaking 
Committee (ARC) in 2008 to develop standards and regulations unique and 
appropriate to small UAS/RPAS (55 lbs and less). In 2011, another ARC 
(more than 55 lbs) was chartered to make recommendations for standards 
and regulations for the remainder of UAS/RPAS certification and 
operation. RTCA, NASA and other organizations have multiple efforts 
underway, many of which include participation by ALPA safety 
representatives.
    Currently, the research and analysis work continues for Detect and 
Avoid (DAA) and Communication and Control Links (C\2\). Technological 
dependencies and proposed architectures surrounding these systems lack 
maturity and do not yet meet the safety, performance, and functional 
requirements to operate reliably and repeatedly in an integrated and 
dynamic airspace of the current NAS.
Conclusions
    The pressure for rapid integration of UAS/RPAS into the NAS must 
not result in incomplete safety analyses or inadequate technologies 
prior to any authorization approvals to operate.
    Standards and technologies for UAS/RPA must be in place to ensure 
the same high level of safety as is currently present in the NAS before 
a UAS/RPA can be authorized to occupy the same airspace as airlines, or 
operate in areas where UAS/RPA might inadvertently stray into airspace 
used by commercial flights.
    Critical to safe UAS/RPA integration, the decisions being made 
about UAS/RPAS airworthiness and operational requirements must fully 
address safety implications of UAS/RPAS and complete interoperability 
functionalities (e.g., DAA) of these aircraft flying in, around, or 
over the same airspace as manned aircraft, and, perhaps more 
importantly, airline aircraft.
    A well-trained and experienced pilot is the most important safety 
component of the commercial aviation system. The role of the pilot is a 
major area of concern within the UAS/RPAS and piloted aircraft 
communities. UAS/RPA operators using RC model pilots, non-licensed or 
private pilots for commercial or ``For Hire'' operations should not be 
allowed to operate UAS/RPAS in any commercial or ``For Hire'' 
operation. Another concern is that, by definition, it is impossible for 
a UAS/RPAS pilot to react to anything other than an explicitly 
annunciated malfunction. A pilot on board an aircraft can see, feel, 
smell, or hear many indications of an impending problem and begin to 
formulate a course of action before even sophisticated sensors and 
indicators provide positive indications of trouble. This capability is 
necessarily lost without a pilot on board, so the margin of safety it 
represents must be replaced by other means.
    UAS/RPAS pilots should be highly trained, qualified, and monitored 
to meet the equivalent standards of pilots who operate manned aircraft 
in either private or commercial operations.
    While many UAS/RPAS have preprogrammed instructions on which that 
aircraft relies in a lost link event, the fact that the pilot is no 
longer in control of the aircraft when the aircraft is potentially near 
airspace occupied by other conventionally piloted aircraft is a safety 
concern. At present, no requirement exists to report all such events to 
a government agency (e.g., FAA or NTSB) so ALPA is concerned that the 
frequency of ``lost link'' with the UAS/RPAS is more prevalent than is 
currently being reported.
Recommendations
  1.  A comprehensive, proactive safety UAS/RPAS program should 
        incorporate technology standards, safety analyses, 
        certifications, and flight standards to ensure that 
        introduction of UAS/RPA into the NAS will not degrade the 
        existing NAS Target Level of Safety.

  2.  Federal Aviation Regulations that specifically addresses UAS/RPAS 
        operators, operations, and pilots must continue to be 
        developed. Any UAS/RPAS unique or UAS/RPAS-specific regulations 
        must be comparable and compatible with other existing 
        regulations for other airspace users.

  3.  UAS/RPAS are inherently different aircraft from manned aircraft, 
        and should be required to be equipped with safety-based 
        technologies designed with both ``Well-Clear'' and ``Active 
        Collision Avoidance'' functionalities at the heart of their 
        system architectures to operate in normal and abnormal modes 
        and conditions, in order to maintain the current level of 
        safety in the NAS.

  4.  Support FAA efforts to ensure that all the components of UAS/RPAS 
        certified by the Department of Defense and other government 
        agencies do not adversely affect the NAS level of safety prior 
        to their operating in other than segregated airspace.

  5.  UAS/RPA pilots engaged in commercial operations with the 
        potential to adversely impact traffic in the NAS must be 
        commercially licensed with an instrument rating for the 
        aircraft to be flown to ensure the continuity of safety that 
        now exists in the NAS.

  6.  Regulatory directives containing certification standards, 
        continuing airworthiness standards, and Minimum Equipment List 
        requirements for UAS/RPA that are intended to operate in the 
        NAS must be developed.

  7.  Congress should work with industry stakeholders to develop an 
        appropriate UAS/RPAS integration funding mechanism within the 
        FAA Reauthorization.

  8.  Any person or persons in direct control of a UAS/RPAS must be 
        limited to the control of a single aircraft unless operations 
        are conducted in Special Activity Airspace or under an FAA 
        Certificate of Authorization.

  9.  The FAA's limited resources will be significantly taxed without a 
        dedicated and stable source of funding for this purpose, 
        combined with realistic timelines and a systematic approach 
        that builds the path of integration based on proactive safety 
        methodologies.

    We appreciate the opportunity to comment on this important subject 
and look forward to working with Congress as it progresses.
                                 ______
                                 
  Prepared Statement of the National Association of Mutual Insurance 
                               Companies
    The National Association of Mutual Insurance Companies (NAMIC) is 
pleased to provide comments to the Senate Commerce Subcommittee on 
Aviation Operations, Safety, and Security on a variety of issues 
surrounding the growing use of unmanned aerial systems.
    NAMIC is the largest property/casualty trade association in the 
U.S.A., serving regional and local mutual insurance companies on main 
streets across America as well as many of the country's largest 
national insurers. NAMIC consists of more than 1,300 property/casualty 
insurance companies serving more than 135 million auto, home, and 
business policyholders, with more than $208 billion in premiums 
accounting for 48 percent of the automobile/homeowners market and 33 
percent of the business insurance market.
Introduction
    The recent proliferation of UASs has been nothing short of 
phenomenal, and the addition of video systems and other increasingly 
lightweight payloads are continually increasing the range of UAS uses 
and capabilities.
    The operational and technical capabilities of UASs have quickly 
outpaced regulatory efforts, and perhaps the most complex issue is the 
emergence of more, and more extensive, commercial use of UASs. 
Businesses large and small--including insurers--are actively exploring 
the myriad developing UAS capabilities and how these capabilities can 
be effectively integrated into business operations. The Federal 
Aviation Administration estimates 7,500 commercial UASs will be viable 
soon and is working with a wide range of businesses to better 
understand the potential universe of commercial UASs.
    In addition to the potential use of UASs by insurers, policyholder 
use and coverage of commercial UASs will be crucial for insurance 
companies to better understand. Some UAS experts believe that 
insurance--both for the UAS and for attendant liability--is the most 
critical issue for commercial UAS development. More UAS laws and 
regulations are being considered at both the Federal and state levels, 
and required insurance coverage may well be a key part of the eventual 
regulatory scheme for UASs. Other experts see UASs as the newest game 
changer for the insurance industry, suggesting insurance companies can 
capitalize on the use of drones because of their photo, video, data 
collection and sharing, and navigational capabilities.
    All of these areas are developing quickly and dramatically. This 
paper attempts to draw a line for 2015 to define the current issues and 
challenges more clearly. There will be more commercial use of UASs, 
more detailed UAS regulation, and emerging interpretations of civil 
liability of UAS use, particularly in the commercial context. As this 
uncertainty is resolved, prudent UAS users will want to be adequately 
insured against loss and liability. Mechanical things in the sky have a 
nasty proclivity to sometimes fall in unexpected ways and places, and 
insurance professionals who understand the issues can gain tremendous 
opportunities to help their policyholders.
What is an Unmanned Aerial System/Drone?
    Small hand-held remotely piloted aerial systems--these personal 
flying machines--can range in size from minute helicopter-like devices 
the size of hummingbirds to larger fixed-wing aircraft. How small? The 
term ``micro drone'' commonly refers to UASs that weigh less than 50 
pounds, but the Nano Drone measures only two inches across, and the 
tiny Robo-fly has a carbon fiber body weighing less than one ounce and 
a pair of flapping wings powered by electronic ``muscles.'' So-called 
``macro drones'' are much larger--the size of small airplanes or 
helicopters.
    UASs can be piloted or autonomous. Autonomous, unmanned air vehicle 
flight control systems are generally not hand-held and require 
computers to generate and correct the path of their flight, as well as 
to account for terrain obstructions, weather, and moving objects. 
Piloted systems require hardware, software, power systems, and 
connectivity to ensure that the UAS responds correctly and promptly to 
pilot commands. They may also require computers for control but are 
more often smaller and hand-held.
    The dramatic rise in the popularity of UASs is due to the wide 
range of applications being developed. These are no longer just flying 
toys that simply buzz around the trees. Cameras for UASs are highly 
developed and increasing in sophistication and daily use. UAS users can 
produce real-time maps with a resolution up to 20 times greater than 
Google Earth. Advances in microprocessors, software, and cameras give 
an operator with $1,200 worth of equipment the ability to acquire 
images that would have previously required the rental of helicopters at 
upward of $600 per hour.
    UASs were one of the most popular Christmas gifts in 2014, 
prompting the FAA to issue a holiday bulletin and video advising on 
their use. Amazon is reportedly selling more than 10,000 UASs a month, 
and Best Buy expanded its selection from one last year to eight 
different models in stores--and five more online--to meet rising 
demand. Formerly the province of the military, this democratization of 
UASs has resulted in uncertainty about what UASs are and how they can 
be appropriately used. The power of UASs to hold and deliver packages 
of increasing sizes and weights is also growing. One company claims a 
132-pound lift capacity with the promise of payloads of up to 880 
pounds. Numerous models and versions are available, or becoming 
available, with the three largest manufacturers in 2014 being French 
manufacturer Parrot, China-based DJI Innovations, and 3D Robotics in 
the United States.
    A Teal Group 2014 study calculated the UAS market at 89 percent 
military and 11 percent civil for the decade, with the numbers shifting 
to 86 percent military and 14 percent civil by the end of its 10-year 
forecast. Fortune magazine reports that the global market for 
nonmilitary drones has already ballooned into a $2.5 billion industry, 
growing by more than 15 percent annually.
    And that's under the current law. One of the biggest potential 
markets for commercial drones--the United States--isn't even fully open 
for business yet. The FAA asserts that civil UAS markets will continue 
to grow, even with the current regulatory constraints. As these 
constraints are resolved, commercial use of UASs will expand rapidly 
and the demands for more UAS and ancillary services will also grow 
quickly.
Proposed Commercial UAS Uses
    Many experts agree that there are tremendous opportunities in the 
rapidly expanding field of commercial UASs, and each commercial use has 
its own range of specific questions of liability and insurability. The 
potential commercial uses of UASs are continually expanded by technical 
advances and imagination.
    One year ago, Amazon CEO Jeff Bezos made headlines by suggesting 
that to-be-developed Amazon Prime drones could make autonomous 
deliveries in as few as 30 minutes. This was followed by reports of 
Google using a fixed-wing aircraft to deliver packages, including 
chocolate bars, dog treats, and cattle vaccines, to farmers in the 
Australian outback. DHL announced a regular drone delivery service of 
medications and other goods to a small island off the coast of Germany. 
On the lighter side, a United Kingdom Domino's franchise delivered two 
pizzas using a UAS, and a Minnesota brewery was testing a new drone 
delivery system to airlift frosty cases of beer to fishermen holed up 
in ice shacks on Mille Lacs Lake.
    The following are some additional examples:

  <bullet> Movies and videography;

  <bullet> News gathering and reporting;

  <bullet> Real estate--promotional videos

  <bullet> and photos;

  <bullet> Pipeline/hydro-transmission line inspection--including 
        difficult to-access areas of refineries and production 
        facilities;

  <bullet> Railroad and highway maintenance--access and view dangerous 
        conditions from a safe distance, even in harsh weather and 
        extreme conditions, and;

  <bullet> Construction--highly detailed elevation views, detailed and 
        exact distances with CAD-quality drawings for any photographed 
        structure.

    Popular opinion, however, may not be as favorable toward commercial 
UAS use. A December 2014 poll reported that only 21 percent of the more 
than 1,000 Americans surveyed were in favor of commercial UAS use. In 
focused questions, those surveyed were more receptive to UAS uses such 
as performing dangerous safety inspections or mapping and monitoring 
wildlife, but opposed to uses such as taking aerial photographs or 
videos and delivering small packages. Three-quarters of the persons 
surveyed were concerned that private operators using UASs could pose a 
danger to aircraft and people on the ground. Almost 90 percent of 
persons surveyed were concerned that private operators could use UASs 
in ways that violate other people's privacy.
Legal Issues for Commercial UAS Use
    Although new FAA regulations for small UASs have been proposed, 
commercial use of UASs is not permitted under current law, as the FAA 
fulfills its statutory mandate ``to develop a plan for the safe 
integration of civil unmanned aircraft systems into the National 
Airspace.'' While the FAA develops this plan, almost every state 
legislature, as well as numerous municipalities, has introduced bills 
and resolutions addressing UAS issues. While certain aspects of 
proposed UAS laws and regulations are new, most UAS-related laws and 
regulations are variations on both well-settled and emerging legal 
issues of federalism, property rights, privacy, and tort liability.
    The Government Accountability Office proposed in 2008 that the 
United States develop a clear and common understanding of what is 
required to safely and routinely operate UASs in the National Airspace 
System. Congress specifically called for UASs' integration into the NAS 
by September 2015 when it enacted the FAA Modernization and Reform Act 
of 2012.
    In the interim, the FAA has stitched together patchwork guidelines 
and interpretations upon which the agency bases its jurisdiction and 
enforcement. All unmanned aircraft, according to the FAA, are aircraft 
within the definitions found in statute under title 49 of U.S. Code, 
section 40102(a)(6) and title 14 of the Code of Federal Regulations 
section 1.1. Section 40102(a)(6) defines an aircraft as ``any 
contrivance invented, used, or designed to navigate or fly in the air'' 
and FAA's regulations (14 C.F.R. Sec. 1.1.) define an aircraft as ``a 
device that is used or intended to be used for flight in the air.''
    Because an unmanned aircraft is a contrivance or device that is 
invented, used, and designed to fly in the air, the FAA position 
remains that an unmanned aircraft is an aircraft based on the 
unambiguous language in the FAA's statute and regulations. The agency 
further concludes that because all civil aircraft are subject to FAA 
regulation under law: 49 U.S.C. Sec. 44701, UASs are subject to FAA 
regulation.
    The FAA previously made the distinction between UASs used for 
recreational purposes and those used for commercial purposes. Section 
336 of the FAA Modernization and Reform Act of 201 established a 
``special rule for model aircraft,'' specifically prohibiting the FAA 
from promulgating ``any rule or regulation regarding a model aircraft, 
or an aircraft being developed as a model aircraft'' if the following 
statutory requirements are met:

  <bullet> The aircraft is flown strictly for hobby or recreational 
        use;

  <bullet> The aircraft is operated in accordance with a community-
        based set of safety guidelines;

  <bullet> The aircraft is less than 55 pounds;

  <bullet> The aircraft is operated in a manner that does not interfere 
        with and gives way to any manned aircraft; and

  <bullet> The aircraft is not flown within five miles of an airport.

    In June 2014, the FAA provided its interpretation that ``any 
operation not conducted strictly for hobby or recreation purposes could 
not be operated under the special rule for model aircraft. Clearly, 
commercial operations would not be hobby or recreation flights.'' The 
FAA specified that flights in furtherance of a business, or incidental 
to a person's business, would not be a hobby or recreation flight.
    Section 333 of the FAA Modernization and Reform Act of 2012 grants 
the secretary of Transportation and, therefore, the FAA authority to 
determine:

  1.  If an unmanned aircraft system, as a result of its size, weight, 
        speed, operational capability, proximity to airports and 
        populated areas, and operation within visual line-of-sight does 
        not create a hazard to users of the NAS or the public or pose a 
        threat to national security; and

  2.  Whether a certificate of waiver, certificate of authorization, or 
        airworthiness certification under 49 USC Sec. 44704 is required 
        for the operation of unmanned aircraft systems identified under 
        paragraph (1).

    An exemption may be granted after a two-step process. First, the 
FAA must determine that the UAS does not pose a risk to those operating 
in the NAS, the general public, or national security, and it can be 
safely operated without an airworthiness certificate. The FAA will then 
use its existing exemption authority to grant relief from FAA 
regulations that may apply. Once an exemption is granted, the applicant 
must apply for a civil certificate of waiver or authorization 
permitting the operator to conduct the proposed operation.
    The FAA determined that UAS operations conducted for purposes other 
than hobby or recreation are subject to FAA regulations. In petitioning 
for the relief afforded under Section 333, UAS operators must seek 
exemption from regulations applicable to the specific circumstances of 
their operations with which they believe they are unable to comply. The 
FAA published detailed guidance to people who are interested in 
submitting a petition for exemption to the FAA to operate UASs in the 
NAS.
Prior Exemptions Granted by the FAA
    In June 2014, seven aerial photo and video production companies 
obtained FAA regulatory exemptions to allow the film and television 
industry to use UASs. In December 2014, the FAA granted five regulatory 
exemptions to fly UASs to perform operations for aerial surveying, 
construction site monitoring, and oil rig flare stack inspections. The 
FAA granted two more exemptions in January 2015, including one for a 
``system carrying a geo-referenced still camera to conduct 
photogrammetry and crop scouting in order to perform precision 
agriculture'' below 400 feet. The FAA has approved a request from State 
Farm for drone use. Other insurance companies, including Erie Insurance 
and USAA, have applied for, but not yet received, FAA exemptions for 
the use of UASs. The FAA is expected to address these insurance company 
applications in 2015. A detailed list of pending exemption requests 
made to the FAA can be found on the agency's website.
    In January 2015, CNN announced that it had signed an agreement with 
the FAA to explore the use of drones in newsgathering and reporting. 
CNN said it has officially ``entered into a Cooperative Research and 
Development Agreement'' with the FAA to use UASs to improve 
storytelling. The cooperation arrangement will reportedly integrate 
efforts from CNN's existing research partnership with the Georgia Tech 
Research Institute. That coordination among CNN, GTRI, and the FAA has 
already begun.
    This Cooperative Research and Development Agreement \1\ is not an 
exemption, as described above, but rather an agreement that the FAA 
will share facilities, equipment, services, intellectual property, 
personnel resources, and other cooperation with private industry, 
academia, or state/local government agencies to implement or develop an 
idea, prototype, process, or product for direct application to the 
civil aviation community and/or indirect application for commercial 
exploitation. This agreement is not referenced or included on the FAA 
website and the text of the agreement is not generally available.
---------------------------------------------------------------------------
    \1\ Designated under Federal law, a CRADA is intended to speed the 
commercialization of technology, optimize resources, and protect the 
private company involved. A CRADA allows both parties to keep research 
results confidential for up to five years. Private corporations 
participating in a CRADA are allowed to file patents, and they retain 
patent rights on inventions developed by the CRADA. The government gets 
a license to the patents.
---------------------------------------------------------------------------
    The rules also may address the ability of state and local 
authorities to regulate drones, including a possible ``preemption 
clause'' in draft rules to assert precedence over other laws. States 
and municipalities are now considering limitations on UASs. The FAA is 
charged with ensuring the safe and efficient use of U.S. airspace, and 
this authority generally preempts any state or local government from 
enacting a statute or regulation concerning matters such as airspace 
regulation.
    According to the FAA, a state law or regulation that prohibits or 
limits the operation of an aircraft, sets standards for airworthiness, 
or establishes pilot requirements generally would be preempted by FAA 
regulations. But state and local governments do retain authority to 
restrict the use of certain aircraft, including UASs, by the state or 
local police or by a state department or university.
    According to the National Conference of State Legislatures, 20 
states have enacted laws addressing UAS issues, including defining what 
a UAS is; how they can be used by law enforcement or other state 
agencies; how they can be used by the general public; regulations for 
their use in hunting game; and the FAA test sites. In 2013, 43 states 
introduced 130 bills and resolutions addressing UAS issues. At the end 
of the year, 13 states had enacted 16 new laws, and 11 states had 
adopted 16 resolutions. In 2014, 35 states considered UAS bills and 
resolutions, 10 of which enacted new laws.
    Some industry experts think that insurability of unmanned aircraft 
is the ``gorilla in the room.'' While FAA integration is a significant 
event, insurability is a necessary event before businesses can 
successfully use UASs in the NAS because no business is going to want 
to absorb the risk of liability concerns. Insurability will determine 
which sectors of the UAS market will grow and which will die, and side 
industries, such as the creation of maintenance certification and UAS 
registries, will then be developed to support this insurance segment.
Recreational Use versus Commercial Use
    As noted, the FAA allows recreational or hobby use of UASs and set 
limitations on UAS commercial use. The FAA defines ``hobby'' as a 
``pursuit outside one's regular occupation engaged in especially for 
relaxation'' and recreation as ``refreshment of strength and spirits 
after work; a means of refreshment or diversion.'' UAS use in 
furtherance of a business, or incidental to a person's business, 
incidental to, and within the scope of a business are not considered by 
the FAA to be a hobby or recreation flight.
    More than the simple joy of flight, the development of UAS 
capabilities has been in connection with the delivery of a message or 
package or to collect data. So for the FAA, using a UAS to deliver a 
beer to a friend at his pool may be a permissible hobby use, but the 
FAA said it will not tolerate commercial delivery of beer to ice 
fishermen. With respect to collecting data, the FAA will permit using a 
UAS to view ``a field to determine whether crops need water when they 
are grown for personal enjoyment'' but previously stated that it would 
not allow a farmer to use a UAS to determine ``whether crops need to be 
watered that are grown as part of commercial farming operation.''
    Whether a policyholder is insured for commercial loss of a UAS or 
any damage or liability from the commercial UAS use may depend on 
whether the policy may be limited by law or regulation. The application 
of policy coverage also needs to be considered. Insurance policies may 
specifically exclude operations in violation of law or regulations, so 
the language of policies should be reviewed to determine coverage. It 
is also important to note that the FAA limits on commercial UAS use 
exist only in Notices of Interpretation, which may or may not be 
covered, depending on the language in policies.
    With respect to recreational UAS insurance and experience, it may 
be helpful to consider the Academy of Model Aeronautics Liability 
Insurance Program for Site Owners. In its 2012 report, the academy 
noted that roughly 35 liability claims are reported annually--
approximately 20 are property damage and 15 are bodily injury claims. 
The AMA stated that the injury claims reported are mostly minor, but on 
very rare occasion the injury is severe, resulting in a settlement 
involving a large amount of money. From 2001 until 2012, the AMA and 
its insurance company reported paying out approximately $5 million, 
mostly to settle injury claims.
Regulation of Commercial Use of UASs
    It has been the position of the FAA since 2007 that UAS commercial 
operations are only authorized on a case-by-case basis. As previously 
noted, in the 2012 FAA reauthorization legislation, Congress told the 
FAA to come up with a plan for the ``safe integration'' of UASs, and 
the agency is developing regulations, policies, and standards that will 
cover a wide variety of UAS users, including commercial.
    At the same time, insurance companies are already exploring ways to 
use UASs commercially. As previously noted, property/casualty insurance 
companies have applied to the FAA for exemptions from the prohibition 
of commercial use of UASs for data collection purposes. Specifically, 
insurance companies have said that they want to use drones to:

  <bullet> Perform risk assessment/management, loss prevention, and 
        underwriting, including roof inspections;

  <bullet> Inspect areas that are inaccessible by ground more safely 
        and quickly;

  <bullet> Collect images after loss and casualty events/catastrophes; 
        and,

  <bullet> Expedite payments to customers.

    It is not difficult to imagine additional data collection and 
analysis uses of UASs for property/casualty insurance companies. UASs 
can access areas and locations that would otherwise involve exceptional 
risks for personnel, and the data collected can be critical in 
assessing how to continue the operation. It is all but certain that the 
depth and breadth of property/casualty insurance company use of UASs 
will develop and expand, particularly as attendant image capture and 
analysis programs develop and proliferate.
FAA Proposed Regulations for Small UASs
    In February 2015, the FAA proposed regulations to allow the 
operation of small UASs in the NAS. The proposed changes would allow 
for more operation of UASs, certification of their operators, 
registration, and display of registration markings. Specifically, the 
rules would allow for small commercial UASs, including business, 
academic, and research and development flights that are hampered by the 
current regulatory framework, to operate in the NAS.
    These proposed rules are only one part of Federal UAS regulation. 
Section 332(a) of the FAA Modernization and Reform Act of 2012 requires 
the secretary of Transportation to develop a comprehensive plan to 
safely accelerate the integration of commercial UASs into the NAS. 
These rules are part of that plan for small UAS operations that the FAA 
determined would pose the least amount of risk. The FAA will continue 
working on integrating other UAS operations that pose greater amounts 
of risk, which will be addressed in subsequent rulemakings.
    Until the rules are adopted, FAA exemptions for small UAS use will 
still be required. The proposed rules would not abolish the certificate 
of waiver or authorization system, and the existing exemption process 
will be required for UAS operations that fall outside the parameters of 
the rules. UASs that are not within the definition of ``small'' or that 
otherwise do not comply with the final regulations will be prohibited 
from commercial use and will have to seek a certificate of waiver or 
authorization in order to engage in commercial use.
    The FAA proposed rules reassert FAA jurisdiction over small UAS, 
noting that the operation of a small UAS still involves the operation 
of an aircraft, as FAA's statute defines an ``aircraft'' as ``any 
contrivance invented, used, or designed to navigate or fly in the 
air.'' 49 U.S.C. 40102(a)(6). Because a small unmanned aircraft is a 
contrivance that is invented, used, and designed to fly in the air, a 
small unmanned aircraft is an aircraft for purposes of the FAA's 
statutes. Because a small UAS involves the operation of an 
``aircraft,'' FAA maintains that this triggers the FAA's registration 
and certification statutory requirements.
    The FAA states that the proposed rules are designed to mitigate 
risk associated with small UAS operations in a way that would provide 
an equivalent level of safety with the least amount of burden to 
business. In general, the proposed rules are a minimally burdensome, 
well-reasoned, and productive first step in enabling small commercial 
UAS use, and it would reduce the potential for undue hazard to other 
aircrafts, people, or property. The proposed rules request comments on 
a significant range of issues and will likely be revised--perhaps 
substantially--before they are adopted.
    As the FAA faces the daunting task of developing regulations for 
larger and more complex UAS operation in the NAS, the proposed small 
UAS rules may require even further tweaking.
    There are constituencies that will not be satisfied with the 
proposed rules. Amazon and other companies that want to use UAS for 
deliveries will be disappointed that external loads are not permitted. 
The prohibition of operating over any persons not directly involved in 
the operation will impede small UASs in more populated areas. Farmers 
and other businesses involved in large areas may be limited by the 
requirements of visual line-of-sight. Commercial airlines and other 
aviators may certainly be concerned with the wider and less controlled 
use of UASs in the NAS.
    There are numerous practical considerations of the proposed rules 
that will also have to be worked out. The proposed requirement that 
small UASs may not operate over any persons not directly involved in 
the operation has been criticized as impractical. The FAA ceiling of 
500 feet for small UASs--but no floor--will also be of great 
consternation to property owners who may be told that national airspace 
exists one millimeter over their lawns or patios. Clearly, further 
development is necessary.
    While the proposed FAA rules would begin to reduce the more 
significant barriers for drone insurance at the Federal level, NAMIC 
remains concerned about the developing regulatory, commercial, and 
practical considerations of providing the greatest level of protection 
for policyholders, including the use of drones in policyholder 
servicing. There is a more detailed discussion of the relevant 
insurance specific issues of small UAS use later in this document. 
NAMIC is committed to working with our members and the federal, state, 
and local regulators to promote responsible UAS development that 
protects aircraft, people, businesses, and property.
UAS Risks and Insurance--Some Legal and Operational Considerations
    An understanding of insurance must begin with the concept of risk. 
The effective response to risk combines two elements: efforts or 
expenditures to lessen the risk, and the purchase of insurance against 
whatever risk remains. Proactive risk management involves carefully 
analyzing a situation to determine the major risks and then taking 
steps to minimize potential damage. That is what the FAA is trying to 
do--primarily, to minimize risk and damage to the NAS and other 
aircraft, which is the FAA's primary role--and secondarily, to minimize 
risk and damage as well as to protect individuals and property on the 
ground.
    Reactive risk management refers to a situation in which there is a 
reaction to problems after they happen. At that time, either the victim 
or damaged party can bear the injury of loss, mitigated perhaps by 
insurance coverage, or some or all of the liability for the injury or 
loss can be transferred to another party, who may also have insurance 
coverage.
    Whether the party injured by a UAS or a third party causing the 
damage is covered by their own insurance will depend on the terms of 
the specific insurance contract, which generally have not considered 
the likelihood and extent of UASs, and may exclude aircraft coverage. 
This is a factor that the insurance industry is working to manage and 
define, as UAS use becomes less prohibited under law.
    Reactive UAS risk management also depends greatly on whether laws 
and regulations clearly operate to transfer liability, including 
liability for damage by drones, by drone pilots and facilities 
operators, or by people who hijack drones or interfere with drone 
controls under defined tort standards, including product liability and 
negligence.
    A broader question, influencing all areas of this consideration, is 
when and how law and regulation will transfer liability to another 
party. Until standards of UAS liability are better defined, it will be 
extremely difficult for insurance companies to understand and provide 
for UAS risks and liability. The question of liability seems fairly 
clear if a drone crashes into person or property, but:

  <bullet> What if the operator was acting under FAA direction to take 
        evasive action to avoid another aircraft?

  <bullet> What if the radio signals from the other aircraft interfered 
        with the controls, which resulted in the crash?

  <bullet> What if the drone dives directly in front of a car, which 
        then swerves into a tree?

  <bullet> What if the radio signals from the drone controller 
        interferes with an electronic railroad switch and sends the 
        5:04 to Newark onto the track used by the 5:09 from Boston?

    There are even more basic questions of whether third-party 
liability will even exist, raising the attendant questions of whether 
the injured party or the third party has insurance coverage. Consider 
that the FAA says that the national airspace extends to the ground, 
even on private property, and that the FAA has set no minimum height at 
which that drone must fly.

  <bullet> Can a drone fly in national airspace 400 feet, 100 feet, 25 
        feet, or 2 feet over private property without trespassing? If 
        so, does the drone have to avoid people and property, or is 
        there some requirement to keep the NAS clear of obstacles and 
        avoid aircraft in national airspace? In a person's back yard?

  <bullet> If a person feels threatened by a drone in his or her yard, 
        can he or she hit it with a baseball bat? How about in a 
        neighbor's yard? A public park? Would a driver have to swerve 
        to avoid hitting a drone on the highway?

  <bullet> Can states preclude UAS flights on state roads, or is that 
        national airspace?

  <bullet> What is the liability for a drone that--intentionally or 
        accidentally--electronically records e-mail or security 
        passwords or takes photos of children at a pool?

  <bullet> What standards apply to determine what is reasonable 
        operation of a UAS? What is careless operation? What is 
        negligent operation? What constitutes recklessness?

  <bullet> The FAA says that it ``understands and accepts'' that a 
        person flying a UAS ``may lose sight of the unmanned aircraft 
        for brief moments of the operation.'' If that UAS hits a person 
        in that brief moment, is this assault, negligence, or merely 
        conduct that the FAA has deemed ``understandable and 
        acceptable?''

    These are but a sampling of the critical questions of law, 
regulation, and liability that must be answered for insurance companies 
to provide the wide variety of property/casualty insurance policies 
necessary to protect policyholders and those injured or damaged by 
UASs. As the regulators develop UAS rules, they will appropriately 
focus on proactive risk management. It will be the responsibility of 
the insurance industry to work with the development of these rules to 
raise and address the reactive risk management insurance issues needed 
for UAS insurance to develop as well.
    The scope of UAS safety and privacy extends far beyond the role of 
the FAA to protect the safety of the NAS. This was clearly recognized 
in President Obama's February 2015 executive order directing the 
Department of Commerce through the National Telecommunications and 
Information Administration in consultation with other interested 
agencies to develop a framework regarding privacy, accountability, and 
transparency for commercial and private UAS use.
    This is certainly a positive step, but it raises the question of 
whether combined efforts of the FAA and Commerce Department are 
sufficient to provide comprehensive regulations and enforcement for the 
myriad of commercial UAS uses, as well as the liability and 
compensation for the losses and damages that may result. Privacy, 
trespass, negligence, and recklessness are just some of the related 
issues that are the province of state and local law and judicial 
interpretations.
    There are numerous and unpredictable questions that will result 
from commercial UAS operations that will probably come before state or 
local government authorities and courts, particularly when it comes to 
liability and insurance coverage. As the FAA and Commerce Department 
appropriately resolve UAS issues under their respective Federal 
jurisdictions, it will be important to appreciate and consider that 
many if not most interpretation and enforcement of UAS standards will 
likely end up at other authorities.
    There are inherent risks in the operation of UASs, which are 
amplified and exacerbated with the proliferation of their numbers, 
uses, and increasing capabilities. The requisite combination of an 
aircraft, control hardware, control software, and a communication 
link--in addition to potentially hazardous payloads--makes risk 
assessment, management, and coverage extremely complex. It also 
directly impacts the development of regulations and legal liability of 
UAS owners and operators.
    UAS insurance policies will define the extent and limitations of 
UAS coverage, with policy agreements contractually specifying that 
extent and limitations of coverage, as well as exclusions, 
restrictions, and prohibitions. This must be based on the work of 
underwriters to define the range of UAS-related risks--their likelihood 
and severity--to adequately price and offer UAS liability insurance. 
This information, however, does not exist for UASs. A November 2014 
study of UAS liability and insurance in Europe--where commercial UAS 
use has been permitted for years--concluded that there is no reliable 
data on UAS incidents or accidents either in public form or from 
commercial sources, and that the lack of this information means that 
the assessment of damage caused by UASs remains a theoretical exercise.
    The existence and extent of insurance coverage for recreational and 
commercial use of UASs in the United States are not very clear. While 
various Internet sites purport to be or link to insurance companies 
that offer UAS insurance in various capacities, the actual coverage 
available is uncertain. The existing regulatory schemes in place for 
UASs in Europe and Asia include requirements that operators and users 
obtain and retain adequate insurance coverage. Insurance requirements 
may be part of the more extensive UAS regulatory proposals expected 
from the FAA.
    The standard commercial general liability policy that most 
businesses purchase covers bodily injury and property damage caused by 
an ``occurrence,'' which it defines as ``an accident, including 
continuous or repeated exposure to the same generally harmful 
conditions.'' As a rule, however, most, if not all, such commercial 
general liability policies have exclusions for damage caused by the 
operation of aircraft. Commercial property insurance policies also have 
various forms of aircraft exclusions, including policies that may 
specifically exclude coverage while a UAS is off the ground.
    Most homeowners' insurance policies also exclude coverage for 
aircraft, with the exception of ``model or hobby aircraft not used or 
designed to carry people or cargo.'' If a UAS has an attached camera or 
other equipment/payload, coverage could possibly be denied because the 
attachment may be considered cargo.
    Like airlines and aircraft manufacturers, UAS manufacturers and 
operators may need to be covered by specialized liability policies. It 
appears that some UAS coverage, if available, may be currently written 
on an aircraft liability form. This covers bodily injury and property 
damage to third parties and may include physical damage coverage for 
the UAS. It is underwritten based on the UAS type, the frequency and 
purpose of use, the operator experience, the revenue from use, and the 
limits purchased. Some insurers have reported providing UAS liability 
coverage through an endorsement to existing commercial liability 
policies, with no additional charge. Privacy-related liability may be 
addressed by existing E&O/cyber liability policy, although this may 
also be less than certain. For UASs valued at less than $5,000, the UAS 
itself is often not insured.
    With the exception of small UASs that are fully compliant with the 
new proposed FAA rules when they become effective, the FAA and some 
state regulations currently prohibit the commercial use of UASs, and 
the breadth of the interpretation of ``commercial'' is very broad. The 
FAA position is that a farmer using a UAS to look at his own garden is 
a recreational user, but that same farmer using a UAS to view crops he 
intends to sell is a commercial user. Similarly, the FAA has taken the 
position that reckless recreational UAS use is a violation of FAA 
rules.
    These factors are important as property/casualty insurance 
policies--commercial or otherwise--may often include a criminal act 
exclusion that excludes coverage for bodily injury caused by, or 
reasonably expected to result from, a criminal act or omission of the 
insured. The criminal act exclusion generally applies regardless of 
whether the insured person is actually charged with or convicted of a 
crime. The exclusion can include a criminal act committed by or at the 
direction of any insured. There are also state statutes that prohibit 
insurance payment for illegal activities.
    Insurance companies that make decisions to provide or not provide 
UAS-related coverage have specific areas of concern. Liability could 
exist for insurance company directors and officers who decide to 
provide UAS coverage that is in known conflict with laws or 
regulations, or fails to consider laws or regulations in deciding to 
provide such coverage.
    While laws and regulations for UAS and attendant tort liability are 
in flux, insurance agents asked to provide UAS coverage will have to 
engage in proper due diligence to ensure coverage in fact exists and 
that there are no exclusions that could inadvertently negate coverage. 
The agent would then be required to specifically advise the insured in 
writing which exposures arising out of UAS use will not be covered to 
mitigate the agent's E&O exposure. If the agent is mistaken as to law 
or fact and tells the insured that coverage exists for certain 
exposures, the agent may face a lawsuit regarding the uncovered 
liability, potentially triggering his or her E&O insurance.
    In making decisions concerning underwriting UAS risks and paying 
claims related to UASs, insurers must identify and fully understand the 
application of the specific torts, as well as state and Federal laws 
that could permit UAS use and/or generate lawsuits or fines against a 
UAS. Effective policy language is then needed to include or exclude 
specific use and liability. The following is an overview of just some 
of the major issues related to the legal and operational considerations 
of property/casualty insurance coverage for UASs.
    It has been estimated that underwriters now insure only 3 percent 
of UAS applicants. Insurers that are considering offering UAS coverage 
have to deal not only with regulatory and commercial law uncertainty, 
but also the substantial risks of UAS operational failure, which are 
exacerbated by the continually emerging technology implications subject 
to unknown and varied vulnerabilities. UAS insurance policies can cover 
the UAS itself, safety risks, privacy exposure, and cyber security 
liability; all of which have very short histories on which to assess 
risk levels and general aviation, model aviation, and even ultralights 
experience to consider and extrapolate. While there are myriad 
approaches to considering each question, this section will attempt to 
address some of the major legal issues.
1. Loss of, or Damage to, the UAS
    Inherent in the acronym UAS is the fact that it is an unmanned 
aerial ``system'' composed of (1) the flying aircraft, (2) any camera, 
video, or other payload, (3) the hardware and software that control the 
aircraft, and (4) the communication hardware and software links that 
connect the other parts of the system. For systems with relatively 
lower cost, insurance may not make sense. Larger systems, which can 
have a value in the tens or even hundreds of thousands of dollars, may 
reach a level where ``hull'' insurance may be worthwhile. UAS physical 
damage coverage will apply to loss or damage to the UAS and associated 
equipment on an agreed value basis. It is not likely, however, that a 
UAS of higher cost that is worth insuring will be for recreational use 
only. As noted above, the FAA currently prohibits commercial UAS use 
without FAA approval, and insurance policies may specifically exclude 
operations in violation of laws or regulations.
    To illustrate the complexity of insuring a UAS, consider automotive 
insurance coverage. Insurers consider the manufacturer, model, and 
value of the vehicle as well as the operator's gender, age, driving 
record, and other factors. Accepted underwriting standards are 
considered, with relevant minimum and state regulatory coverage 
requirements, to determine how to price and provide a policy.
    With UASs, the relevant pools are too small, and the actuarial 
classes and policyholder risk matrices are not particularly relevant.
    UAS coverage may have to be looked at anew. UAS insurance contracts 
may specify matters as simple as whether the UAS is insured both in the 
air and on the ground, and as complex as defining the permissible 
operations of the UAS covered under the policy. It has been said that 
UASs exist for missions that are too ``dull, dirty, or dangerous.'' 
Insuring a UAS may include understanding just how dirty and dangerous 
the work for which the UAS will be used and how the operations will be 
conducted to minimize unknown and unacceptable risk. Pricing a policy 
for a FAA-certified pilot to take pictures with a UAS over a wheat 
field will likely entail less risk than for insuring Uncle Ernie 
spotting bluefish at a populated ocean resort.
    Existing property/casualty insurance policies may exclude or limit 
coverage for improper or reckless use, and there may be few, if any, 
relevant standards for gauging proper or appropriate use that are 
applicable to a UAS. Existing, more general property/casualty insurance 
policies may also contain specific aircraft exclusions, and analogous 
aviation standards may or may not be applicable to any UAS policies.
    When a UAS crashes or is lost, any responsibility for the loss by 
the manufacturer or software provider will be more difficult, if not 
impossible, to establish. The legal and practical ability of an insurer 
to pursue reimbursements for UAS manufacturer defects or product 
liability is murky. It can be complicated by the possibility of damage 
to the system resulting from a failure.
    In considering UAS coverage, there is also an interesting and 
unresolved question of UASs and state and local trespass laws. To 
understand the risk of loss or damage to a quarter-million-dollar UAS, 
it would be prudent to understand the local rights of land owners to 
prevent or impede UASs from being on, over, or near their property. 
Deer Trail, Colo., decided not to offer hunting licenses for shooting 
down drones that might fly into the hamlet's airspace, but local 
interpretations of the extent of property owners' rights to take action 
against UASs for trespass, invasion of privacy, and nuisance may impact 
the physical risk to UAS loss or damage and insurance risk.
2. Regulatory Liability
    Insurance coverage for a UAS, and any liability for the operation 
of a UAS, can be limited or prohibited by law or regulation, as well as 
the terms of the insurance policy. Operation in violation of law or 
regulation may void or limit the application and coverage of policies 
under state contract or insurance law or pursuant to the terms of the 
policy.
    With respect to recreational UAS use, the FAA's authority to ``take 
enforcement action against anyone who operates a [drone] or model 
aircraft in a careless or reckless manner'' was affirmed in November 
2014 by the National Transportation Safety Board. The NTSB directed an 
administrative law judge to decide whether the aircraft was operated 
carelessly or recklessly, but confirmed the authority of the FAA to 
issue an assessment order and fine the operator $10,000 for reckless 
operation of an unmanned aircraft.
    The FAA has proposed regulations for small UASs, but it maintains 
that all other commercial UAS operations are not in a regulatory ``gray 
area'' and that the FAA ``is responsible for the safety of U.S. 
airspace from the ground up.'' The FAA asserts that it has a number of 
enforcement tools available, including a verbal warning, a warning 
letter, and an order to stop the operation. The FAA has reportedly 
looked for companies offering commercial UAS services and warned them 
to stop doing so, in some cases threatening ``enforcement action.''
    Recall, however, that the FAA determination and definition of 
commercial vs. hobby UAS use are through a Notice of Interpretation 
with Request for Comment, rather than statute or regulations that the 
FAA is still drafting. There are many issues concerning UAS use and FAA 
authority that has not been codified in law or promulgated in Federal 
regulations, raising numerous questions of the enforcement authority of 
the FAA in this regard and the impact of the notice on insurance 
coverage provisions.
    State UAS laws have also been enacted, and additional UAS 
provisions are being considered. A number of states prohibit using a 
UAS to electronically survey persons or the private property of another 
without permission. Texas law enumerates lawful uses for unmanned 
aircraft, including their use in oil pipeline safety and rig 
protection.
    In North Carolina it is a crime to fish or hunt with a UAS, harass 
hunters or fisherman with a UAS, or distribute images obtained with a 
UAS.
    Exactly how these state laws will work when the FAA finalizes its 
rules remains to be determined. But, UAS use raises a number of issues 
concerning the respective ``airspace'' rights of private landowners, 
local authorities, and the Federal Government.
3. Trespass and Privacy Liability Considerations
    The Congressional Research Service has deemed privacy the most 
contentious UAS issue. Property/casualty insurance policies, 
particularly for commercial UASs, may include, or specifically exclude, 
coverage for and indemnification of tortious liability, including civil 
actions for trespass and privacy violations. Property lines are not 
always clear, and a shift of wind could inadvertently blow a UAS over a 
property line. These issues and the attendant liability and coverage 
depend highly on legal concepts of property and airspace that are 
evolving with UAS use.
    Trespass in airspace requires the property owner to have possessory 
rights to the airspace allegedly violated by the UAS. To constitute an 
actionable trespass, an intrusion has to subtract from the owners use 
of the airspace above his property that he can actually use. With 
respect to privacy, in a public place, there is no right to be alone 
nor is there any privacy invasion if a photograph is taken in a public 
place.
    In 1587, matters were simple and clear under the common law--the 
owner of a piece of land also owned everything above and beneath it, 
Cujus solum ejus est usque ad coelom--from heaven to hell.
    Then modern law came and muddied it all up. In 1946, the U.S. 
Supreme Court determined that Congress had declared a public right of 
transit in navigable airspace and national sovereignty in that 
airspace. The court declined, however, to draw a clear line as to where 
that airspace over a property began. In the almost 70 years that have 
passed since that decision, that clear line remains undrawn.
    Congress did declare a public right through ``navigable airspace,'' 
and defined that space as minimum safe operating altitudes including 
airspace needed for takeoffs and landings. Now that many readily 
available UASs can take off and land on coffee tables, the forthcoming 
FAA UAS regulations will require the FAA to make some official 
determination that its jurisdiction is either from the ground up or 
from some point in the air down. This determination will not only be 
critical to define Federal and state UAS jurisdictions, as well as 
personal rights, but will also directly impact liability of UAS 
operators for trespass, privacy issues, and cybersecurity.
    An FAA designation of UAS navigable airspace will generally 
inhibit, if not preclude, allegations that a UAS in that airspace 
trespassed on private property or violated privacy. Should the FAA 
define UAS ``navigable airspace'' as ``from the ground up,'' the FAA 
may practically eliminate private property limits--as well as state 
jurisdiction--on UASs.
    There is a bill proposed in California that would define trespass 
as the ``knowing entry upon the land of another also to include 
operation of an unmanned aerial vehicle below the navigable airspace 
overlaying the property.'' That means flying a drone over private 
property--below what the FAA deems ``navigable airspace''--could at 
some point constitute trespassing in California. The problem is that 
there may be no airspace below FAA jurisdiction. FAA officials have 
reportedly taken the position that national airspace extends down to 
the ground--that the FAA considers the air one millimeter above a 
person's lawn or patio--to be the NAS subject to Federal Government 
regulation. FAA officials admit that this is not ideal, but that's what 
the laws say and that's what the rules say.
    With respect to privacy, the FAA has in the past opined that it is 
not taking specific views on whether or how the Federal Government 
should regulate privacy or the scope of data that can be collected by 
manned or unmanned aircraft. Numerous Federal and state legislative 
proposals regarding UAS and privacy have been made, however. The 
Preserving American Privacy Act would prohibit UASs from capturing data 
in ``highly offensive'' ways; the Drone Aircraft Privacy and 
Transparency Act would require UAS operators to submit a ``data 
collection statement'' to the FAA.
    President Obama issued an executive order on Feb. 14, 2015, 
establishing transparent principles for the Federal Government's use of 
UASs in the NAS and to promote the responsible use of this technology 
in the private and commercial sectors. The order primarily addresses 
government use of UASs. It also creates a ``multi-stakeholder 
engagement process to develop and communicate best practices for 
privacy, accountability, and transparency issues regarding commercial 
and private UAS use in the NAS'' to include stakeholders from the 
private sector. Insurance should certainly be a consideration with 
respect to accountability, and NAMIC will request that the National 
Telecommunications and Information Administration include insurance 
issues in the agenda of the process.
4. Cyber
    A commercial UAS that is not used for delivery of goods will likely 
be involved in the collection, storage, and transmission of electronic 
data. Owners and operators of these commercial UASs should seek 
liability coverage for the collection, storage, or transmission of 
protected private and business data, and claims resulting from actions 
such as libel, slander, invasion of privacy, and misappropriation. A 
UAS collecting or storing information can lose, irretrievably corrupt, 
inappropriately transmit, or have its data hacked/stolen by third 
parties resulting in liability.
    Cybersecurity and data breach exposures simply did not exist when 
commercial general liability policy forms were developed. Policyholders 
have attempted to interpret existing policy provisions to provide 
coverage for such exposures, and insurers have developed various 
exclusions to bar coverage for cybersecurity exposures. The insurance 
industry has also developed specialized cyber insurance policies that 
provide coverage for, among other things, liability arising out of data 
breaches. Lawyers advise that policyholders relying on commercial 
general liability for cyber coverage may be using a bad risk management 
technique and should initiate a thorough review of their policies to 
see which cyber events are covered and which aren't.
5. Personal Injury/Property Damage
    The law--through statute, regulation, or judicial decision--will 
generally seek to constrain and direct human action and social behavior 
by considering the risks posed to people and property, and the law has 
a long history of managing the risks of things falling out of the sky. 
Statutes and regulations will attempt to provide strict liability 
standards for certain injuries or damages from a UAS, but with rapidly 
evolving technology and very limited experience and expertise, there 
will undoubtedly be a wider range of practical and legal questions that 
will have to be addressed under common law claims, with judges making 
decisions on duty, breach, causation, and damages.
    What is the extent of the duties of a UAS operator to not present 
foreseeable risk to others? When is UAS operation unreasonable in light 
of those risks? What damages or injuries from a UAS are foreseeable as 
a natural consequence of UAS operation? After an accident, what 
determines the extent of operator error versus equipment failure, 
versus software malfunctions, versus communications problems? As noted, 
a study of UAS liability and insurance in Europe concluded that the 
lack of reliable data on UAS incidents or accidents means the 
assessment of damage caused by UASs remains a theoretical exercise.
    Then there is the concept of negligence per se, which results from 
the violation of a law meant to protect the public, such as a speed 
limit or building code. Unlike ordinary negligence, a plaintiff 
alleging negligence per se need not prove that a reasonable person 
should have acted differently--the conduct is automatically considered 
negligent--and the focus of a lawsuit will be whether it proximately 
caused damage to the plaintiff. Some courts may apply FAA 
interpretations and state regulations to establish negligence per se 
and some may not. In the most relevant example, one court may deem 
commercial UAS operation as negligence per se in violation of the FAA 
notice, while another court may require plaintiffs to prove duty, 
breach, causation, and damages.
    While certain legal questions exist surrounding UAS damage and 
injury, there is no question that the potential liability for harm from 
even the smallest UAS can be significant, if not catastrophic. It has 
been reported that Congress is already getting pushback from private 
and commercial pilots who worry about collisions. The FAA receives 
reports nearly every day about drones sighted flying near manned 
aircraft or airports. Mark Baker, president of the Aircraft Owners and 
Pilots Association, which represents private pilots, said online videos 
show that ``operators are flying near airports, in the clouds, and in 
congested airspace.'' He called such actions reckless and said they 
will inevitably lead to a collision.
    The MIT International Center for Air Transportation concluded that 
it is the responsibility of the FAA to ensure the safety of UAS 
operations in the NAS. FAA Order 8040.4 specifies that a risk 
management process should be applied to all high-consequence decisions 
by the FAA, which includes the incorporation of a new class of aircraft 
in the NAS. Published in support of Order 8040.4, the FAA System Safety 
Handbook provides general guidance to FAA personnel and contractors on 
implementing a risk management process, but it does not supersede 
existing regulations.
Conclusion
    No less an authority than Lloyd's has opined that insurers must 
play a role in developing standards of good practice for operating 
UASs, particularly where there is a lack of regulatory specification. 
To facilitate the ongoing development of commercial operation of UASs 
for their own use and for policyholder use, insurers will look to cover 
responsible operators. ``By requiring proof from the insured of a 
safety and privacy conscious mind-set, insurers can help protect 
against cases of misuse, which at the formative stage of the market 
could set back UAS acceptance considerably,'' according to Lloyd's. By 
applying business sense and hazard expertise, insurers will be critical 
to earning the trust of the public, regulators, and opinion leaders in 
a UAS field, where both risks and opportunities will continue to be 
defined.
    When damage or injuries result from a UAS, a key question will be 
who is responsible and liable for damages. NAMIC member companies want 
to provide comprehensive policyholder protection, but many serious 
questions continue to go unanswered about UAS regulations and civil 
liability. If the regulation of drones remains unclear and incomplete, 
it will be very difficult for insurers to meet policyholder needs.
    The FAA's recently proposed small UAS regulations would eliminate 
the need for the vast majority of the FAA exemption requirements that 
have hampered reasonable commercial use of drones by NAMIC members and 
policyholders. The proposed rules also offer important UAS operational 
requirements and performance standards that further define 
responsibility and standards of care that can facilitate greater 
property/casualty coverage. The proposed rules request comment on 
further developments in this area, and NAMIC is ready with its 1,300 
members nationally to propose even more comprehensive enhancements.
    There will always be risks in the commercial use of drones, and 
property/casualty insurance will be a critical consideration. The 
proposed FAA rules eliminate some of the more significant barriers for 
drone insurance at the Federal level, but responsible insurance 
coverage for this emerging area will require more development of 
federal, state, and local regulations, as well as related standards of 
liability, negligence, and property rights.
    NAMIC is committed to working with its members and federal, state, 
and local regulators to promote responsible UAS development that 
protects aircraft, people, businesses, and property. As UAS regulations 
and civil liability standards evolve, NAMIC will work to ensure that 
these regulations provide the necessary clarity and breadth that its 
members need to provide policyholder protection. As these legal and 
regulatory gaps are addressed, NAMIC wants to ensure that its members 
can be in the business of providing effective protection and 
compensation.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                           Margaret Gilligan
    Question 1. I am pleased that FAA was recently able to publish the 
proposed rule addressing small UAS. Even with the limitation for line 
of sight operations, it is a positive step forward, and I look forward 
to opportunities that rule, when finalized, will unlock. As noted, the 
current framework limits the opportunities to only line of sight 
operations, though, so it begs the question: what steps would the 
agency need to approve case-by-case beyond line of sight exemptions if 
the Section 333 exemption authority from the 2012 FAA Bill were 
expanded to beyond line of sight operations?
    Answer. Beyond line of sight (BLOS) UAS operations present an 
additional layer of complexity, not only in terms of operational risk, 
but also in terms of air traffic interface and the requirement of the 
pilot in command to ``see'' and avoid other aircraft. Currently, BLOS 
public (governmental) UAS operations are authorized in the national 
airspace system on a case-by-case basis, and only after a number of 
risk mitigation procedures are implemented, including procedures to 
address the requirement for the pilot in command to see and avoid other 
aircraft. Even if Section 333 operations were permitted to operate 
BLOS, the requirement to see and avoid other aircraft would still 
exist.
    The Agency's approach to UAS integration considers safety first, 
and as such, must be incremental. The Administrator recently announced 
the Pathfinder Program. The FAA is partnering with three leading U.S. 
companies who have committed extensive resources to perform research 
that will help us determine if and how we can safely expand unmanned 
aircraft operations in the United States. BNSF Railroad will explore 
the challenges of using these vehicles to inspect their rail 
infrastructure beyond visual line-of-sight in isolated areas. CNN will 
be researching how visual line-of-sight operations might be used for 
newsgathering in urban areas. PrecisionHawk, a manufacturer, will be 
surveying crops in rural areas using unmanned aircraft flying outside 
of the pilot's direct vision.

    Question 2. What can Congress do now to help the FAA and other 
stakeholders facilitate the integration of UAS in a safe and secure 
manner?
    Answer. We expect that as integration moves forward, there will be 
additional demands on our resources. We thank Congress for recognizing 
the importance and requirements of UAS integration and for its support 
through an increased budget supporting research and development.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                           Margaret Gilligan
    Question 1. Unmanned Aerial System (UAS) Center of Excellence. Can 
you provide a timeline for the process and ultimate announcement for 
the COE on Unmanned Aerial Systems?
    Answer. On May 8, the FAA announced it has selected Mississippi 
State University as the FAA's Center of Excellence (COE) for Unmanned 
Aircraft Systems (UAS). The COE will focus on research, education, and 
training in areas critical to safe and successful integration of UAS 
into the Nation's airspace.
    In addition to Mississippi State University, other team members 
include: Drexel University; Embry Riddle Aeronautical University; 
Kansas State University; Montana State University; New Mexico State 
University; North Carolina State University; Oregon State University; 
University of Alabama, Huntsville; University of Alaska, Fairbanks; 
University of Kansas, University of North Dakota; and Wichita State 
University.

    Question 2. UAS Waivers. On October 14, 2014, electric utility 
Southern Company asked for an exemption from the FAA to develop 
unmanned aerial systems to help restore power and identify downed 
electricity lines following hurricanes and tornados. Exemption requests 
for movie making, real estate surveys, and R&D into package deliveries 
have been approved but the Southern Company request continues to be 
delayed. Can you explain the priorities being set by the FAA for these 
exemptions?
    Answer. Southern Electric Company's 333 Exemption was granted on 
March 26, 2015.
    The agency recently implemented improvements to streamline the 
exemption review process by increasing the use of summary grants. 
Petitions that are similar to exemptions the agency has previously 
granted can be processed through the summary grant. Novel requests 
require additional review. Additionally, the FAA is granting a 
``blanket'' Certificate of Waiver or Authorization (COA) with each 
exemption and has modified the pilot certification and medical 
certificate requirements from the earlier exemptions.

    Question 3. How does the FAA plan on managing the airspace below 
500 feet?
    Answer. The FAA uses a risk-based approach when considering 
airspace management. For example, on March 23, 2015 we established an 
interim policy to expedite issuance of appropriate airspace 
authorizations for certain commercial unmanned aircraft (UAS) operators 
who obtain Section 333 exemptions. The new policy does not evaluate 
every UAS operation individually but considers operational limitations 
that will allow one COA for all operations at and below 200 feet. We 
will consider increases to the existing 200 foot limit through a risk-
based approach. This will allow us to analyze future operations that 
will allow us to safely integrate small UAS into the NAS.
    Under the new policy, the FAA will grant a COA for flights at or 
below 200 feet to any UAS operator with a Section 333 exemption for 
aircraft that weigh less than 55 pounds, operate during daytime Visual 
Flight Rules (VFR) conditions, operate within visual line of sight 
(VLOS) of the pilots, and stay certain distances away from airports or 
heliports. Additional details may be found at http://www.faa.gov/news/
updates/?newsId=82245

    Question 4. What research has the FAA conducted on small UAVs? 
Where is the data being collected and analyzed?
    Answer. The FAA has ongoing research focused on two key areas that 
must be addressed to enable routine integrated UAS operations, 
including small UAS operations. These two areas are ``Detect and 
Avoid'' and ``Command and Control.'' The FAA's UAS research and 
development requirements are set by the FAA's UAS Integration Office 
and are executed on behalf of the FAA by the NextGen organization, both 
at FAA Headquarters and the FAA's Technical Center in Atlantic City, 
NJ.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Dean Heller to 
                           Margaret Gilligan
    Question 1. In December 2013 (well over a year ago now) the FAA 
identified the six designated UAS test sites as mandated by Congress. 
Since that time, it is my understanding that each of these six test 
sites have received at least one Certificate of Authorization (COA) to 
test UAVs--effectively meaning they are ``considered'' open and 
available for testing. However, it is also my understanding that there 
are numerous test site COA applications still in the FAA queue for 
review and approval. Additionally, it is my understanding there are COA 
applications from other entities that are not FAA designated test sites 
and private companies applying for Section 333 exemptions in order to 
fly ``for profit''. How many COAs and Section 333 exemption requests 
are currently in FAA's review and approval process queue?
    Answer. As of May 8, 2015, there are 229 non-Test Site COAs 
requests in queue. We have received 1280 Petitions for Exemption under 
Section 333 and have processed 353 of those requests. The UAS Test 
Sites have 54 active COA's and 34 in process.

    Question 2. How long, on average, does it take for COAs and for 
Section 333 exemptions to be reviewed and approved?
    Answer. The FAA recently revised its approach for Section 333 
exemptions, speeding up the approval process for many UAS operators. 
The FAA is able to issue summary grants when it finds that it has 
already granted a previous exemption similar to the new request. 
Summary grants are more efficient because they don't need to repeat the 
analysis preformed for the original exemption on which they are based. 
This streamlined approach now allows the FAA to issue between 40-50 
Section 333 exemptions a week.
    As part of this streamlined approach, the FAA grants a COA for 
flights at or below 200 feet when it issues the Section 333 exemption. 
This applies to aircraft that weigh less than 55 pounds, operate during 
daytime Visual Flight Rules (VFR) conditions, operate within visual 
line of sight (VLOS) of the pilots, and stay certain distances away 
from airports or heliports. Operators wishing to operate above 200 feet 
would need to request an additional COA. The target goal for COA 
processing is 60 days, and we routinely beat that goal with processing 
timeframes in the low to mid 50-day range.

    Question 3. Since the designated test sites were specifically 
created to assist the FAA achieve its congressionally mandated mission 
directive of safely integrating UAS into the National Airspace System 
(NAS), are the COA applications of designated test sites given any type 
of review and approval preference?
    Answer. The Test Site COAs must undergo the same evaluations as 
other COA applications, and there are limited resources within the FAA 
that complete this safety function. Generally, Test Site COAs are not 
prioritized over other COA applications, but they do have a higher 
level of visibility, which enables issues to be identified and resolved 
more quickly.

    Question 4. Is the FAA working with the six designated test sites 
to give them COAs with broader authority ``blanket geographic COAs'' 
that allow the test sites to have greater flexibility to achieve 
testing objectives?
    Answer. As of March 24, 2015, two of the six test sites had applied 
for and received broad area COAs and a third Test Site has several 
broad area COA applications in process.

    Question 5. Is the FAA considering working with the test sites to 
create a ``train the trainer'' program that allows the test sites to 
approve testing activities at a local level?
    Answer. The FAA issued an Order for Designated Airworthiness 
Representatives (DAR) for UAS Certification at UAS Test Sites on 
September 17, 2014.
    This order sets policy and provides training requirements limited 
to the issuance of special airworthiness certificates in the 
experimental category at UAS Test Sites. Experimental certificates are 
issued to aircraft that do not possess traditional airworthiness 
certificates, for specific operations including crew training or 
showing compliance with regulations. As of April 24, 2015, only one 
Test Site has applied for and been designated a DAR.

    Question 6. The Governor of Nevada has sent a letter to the FAA 
encouraging them to allow the designated test sites to have authority 
to operate under the parameters recently published in the Notice of 
Proposed Rule Making (NPRM) so as to provide the FAA with empirical 
data to prove up the proposed regulations. Has the FAA considered this 
option? Is the FAA willing to support this approach?
    Answer. This topic was discussed at a recent Technical Interchange 
Meeting between the FAA and the Test Sites (March 30-April 1). The FAA 
requested the Test Sites provide a proposal on this concept of 
operations and specifically requested suggestions and proposals for how 
current statutory requirements, such as the requirement for a 
certificated pilot for commercial operations, could be addressed. As of 
April 24, 2015, we have not received this proposal. We have committed 
to the Test Sites to expedite the review process once the proposal is 
received.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                           Margaret Gilligan
    Question 1. Associate Administrator, UAS research, development, and 
manufacturing are areas of great interest to New Mexico, especially 
southern New Mexico. As you know, NMSU has served as UAS Flight Test 
Center for more than a decade. As such, it has played an important role 
in providing the FAA UAS data and background. How is FAA integrating 
feedback from NMSU and other universities into the rule-making process? 
How has the information they have collected helping craft new policies? 
Do you think there is any room for improvement in how you work with 
universities?
    Answer. When developing final rules, the FAA considers feedback and 
comments from all entities, including universities. We also rely on 
universities, such as New Mexico State University and those included in 
the UAS Test Sites to inform our UAS research and development efforts. 
We are entering a new level of cooperation with our Nation's 
universities through the establishment of the Center of Excellence for 
Unmanned Aircraft Systems (COE UAS), announced on May 8. The team led 
by Mississippi State University was selected and will focus on 
research, education and training in areas critical to safe and 
successful integration of UAS into the Nation's airspace. The team 
brings together 15 of the Nation's leading UAS and aviation 
universities that have a proven commitment to UAS research and 
development and the necessary resources to provide the matching 
contribution to the government's investment.

    Question 2. The universe of UAS application continues to grow every 
day. This variety of uses presents an opportunity for the FAA to build 
and expand partnerships with other Federal agencies. For example, in 
Alamogordo, New Mexico, an SBA grant will establish a Regional 
Innovation Cluster focused on the development of unmanned systems for 
agriculture, forestry management, and clean-energy development. This 
SBA program will support public-private partnerships to spur unmanned 
system development. Is the FAA working with the SBA to capitalize on 
the data and research that may result program? Is FAA working to 
support similar public-private partnerships? Is the FAA working with 
other agencies who are interested in UAS development?
    Answer. The FAA works closely with interagency partners such as DoD 
and NASA on UAS integration related activities and research. While we 
are not currently working with the SBA and the Regional Innovation 
Cluster in Alamogordo, New Mexico, we see this as an excellent 
opportunity for involvement by one or more of the UAS Test Sites to 
provide partnership assistance and subject matter-expertise. We will 
refer this opportunity to the Test Sites for additional follow-up. The 
FAA is also engaged in our own public-private partnerships.
    On May 6 we announced a partnership with industry to explore the 
next steps in unmanned aircraft operations beyond the type of 
operations the agency proposed in the small unmanned aircraft systems 
(UAS) proposed rule, published in February. The FAA is working with 
these industry partners on three focus areas, including: visual line-
of-sight operations in urban areas, extended visual line-of-sight 
operations in rural areas, and beyond visual line-of-sight in rural/
isolated areas. Additional details may be found at http://www.faa.gov/
news/press_releases/news
_story.cfm?newsId=18756.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                          John B. Morris, Jr.
    Question 1. What can Congress do now to help the FAA and other 
stakeholders facilitate the integration of UAS in a safe and secure 
manner?
    Answer. Pursuant to the FAA Modernization and Reform Act of 2012 
(Public Law 112-95), the Federal Aviation Administration (FAA) is 
executing a plan to safely integrate unmanned aircraft systems (UAS) 
into the National Airspace System (NAS). I would defer to my colleagues 
at the FAA regarding how best to ensure safe and secure integration. 
NTIA is pleased to be working with private sector stakeholders and our 
colleagues across the Federal government, including the FAA, to promote 
privacy safeguards for commercial UAS operation, as requested by the 
February 2015 Presidential Memorandum.

    Question 2. How long do you anticipate NTIA will take in working 
through the multi-stakeholder process with regard to privacy and best 
practices?
    Answer. Ultimately, stakeholders will determine the duration of the 
NTIA process to develop best practices that can enhance privacy, 
transparency, and accountability in the commercial operation of UAS. As 
directed by the February 15, 2015, Presidential Memorandum ``Promoting 
Economic Competitiveness While Safeguarding Privacy, Civil Rights, and 
Civil Liberties in Domestic Use of Unmanned Aircraft Systems,'' NTIA 
will bring industry, civil society, technical experts, academics, and 
other stakeholders together to craft best practices that mitigate 
potential privacy, transparency and accountability issues raised by 
UAS, while at the same time promoting growth and innovation. NTIA will 
act as a facilitator and convener of the multistakeholder process, 
ensuring the process is open, transparent, and consensus-based, but 
NTIA will not make substantive decisions about what the best practices 
should include. Stakeholders will discuss the relevant issues, draft 
best practices, and make the substantive decisions. NTIA expects that 
stakeholders will work diligently and efficiently. We anticipate that 
the group will set a working timeline that reflects the scope of their 
anticipated efforts.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Roger F. Wicker to 
                          John B. Morris, Jr.
    Question. How will your UAS multistakeholder process differ from 
previous efforts? How are best practices different than a code of 
conduct?
    Answer. NTIA has previously convened stakeholders to develop 
privacy codes of conduct for mobile apps and commercial uses of facial 
recognition technology. The hallmark of these processes is that they 
are open, transparent, and consensus-driven. Although all NTIA 
processes share these foundational traits, none of NTIA's 
multistakeholder efforts are identical. Each process involves different 
stakeholders, different topics, and potentially different procedural 
norms.
    In addition to these typical differences, NTIA's UAS 
multistakeholder process will differ from previous efforts in two 
important ways. First, the UAS process will focus on three aspects of 
commercial UAS operation: privacy, transparency, and accountability. 
Previous processes focused on one aspect of the relevant technologies: 
privacy. Second, the goal of the UAS process is slightly different from 
previous efforts. The UAS process is intended to help stakeholders 
develop non-binding best practices for privacy, transparency, and 
accountability challenges arising from commercial UAS. Previous efforts 
have been intended to help stakeholders develop codes of conduct that 
would be adopted by companies and enforced by the Federal Trade 
Commission under the Commission's existing authority to hold companies 
to their promises. The NTIA UAS process is focused on best practices 
rather than a code of conduct because commercial UAS operations are 
just beginning to expand. It is unlikely that stakeholders have 
sufficient experience to draft a binding code to govern this emerging 
commercial sector, but it is realistic for stakeholders to draft 
voluntary best practices that can help guide the commercial rollout of 
this important technology.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                      Gerald L. Dillingham, Ph.D.
    Question 1. What can Congress do now to help the FAA and other 
stakeholders facilitate the integration of UAS in a safe and secure 
manner?
    Answer. Congress could help by encouraging FAA to consider a number 
of efforts that stakeholders suggested could help facilitate the 
integration of UAS into the national airspace. These include:

  <bullet> Consider if the position of the UAS Integration Office 
        within FAA and if the office has enough authority to ensure 
        integration of UAS;

  <bullet> Develop an implementation plan that would identify the 
        means, necessary resources, and schedule to safely and 
        expeditiously integrate civil UAS into the NAS; and

  <bullet> Expand its UAS public education campaign to increase the 
        safety on the national airspace.

    Question 2. How can we ensure that the test sites are used more 
effectively? Are there other areas in terms of research that need 
attention from the FAA and other stakeholders?
    Answer. There are a number of mechanisms to ensure that the test 
sites are used more effectively:

  <bullet> Increased R&D direction from FAA: According to some of the 
        test site operators we spoke to as part of our ongoing work, 
        there is uncertainty about what research and development should 
        be conducted at the test sites to support the integration 
        process. However, FAA states it does provide support through 
        weekly conference calls and direct access for test sites to 
        FAA's UAS office. FAA is also working with MITRE Corporation 
        (MITRE), DOD, and the test sites to define what safety, 
        reliability, and performance data are needed and develop a 
        framework, including procedures, for obtaining and analyzing 
        the data. However, FAA has not yet established a time frame for 
        developing this framework.

  <bullet> Clear path from research and development to commercial 
        applications: The FAA's implementation of its Section 333 
        exemption authority provides an avenue for companies to engage 
        in commercial applications without the need for an 
        airworthiness certificate. Officials at one test site said that 
        it would be helpful if there was a route that would allow the 
        university and test site to be able to apply for the equivalent 
        of the section 333 exemption, enabling the university to 
        conduct research that crosses over into commercial 
        applications. The university could also work with smaller 
        companies, such as a precision agriculture consulting group. 
        These companies may not feel quite as comfortable with applying 
        for a section 333 exemptions directly through FAA, due to the 
        lack of legal resources, and could instead work with the 
        university under the umbrella of the test site.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                      Gerald L. Dillingham, Ph.D.
    Question 1. Is the U.S. falling behind other countries in allowing 
for UAS development and commercial use? If so, why?
    Answer. While other countries have been allowing UAS operations for 
years, recent actions by FAA has moved the United States towards 
allowing greater UAS operations, and proposed rules are similar to 
rules in other countries. Foreign countries are also experiencing an 
increase in UAS use, and some have begun to allow commercial entities 
to fly UASs under limited circumstances. According to industry 
stakeholders, easier access to testing in these countries' airspace has 
drawn the attention of some U.S. companies that wish to test their UASs 
without needing to adhere to FAA's administrative requirements for 
flying UASs at one of the domestically located test sites, or obtaining 
an FAA COA. It has also led at least one test site to partner with a 
foreign country where, according to the test site operator, UAS test 
flights can be approved in 10 days.
    As part of our ongoing work, we identified a number of countries 
that allow commercial UAS operations and have done so for years. 
According to a MITRE study, the speed of change can vary based on a 
number of factors, including the complexity and size of the airspace 
and the supporting infrastructure. In addition, according to FAA, the 
legal and regulatory structures are different and may allow easier 
access to the airspace in other countries for UAS operations. While UAS 
commercial operations can occur in some countries, there are 
restrictions controlling their use.
    If UASs were to begin flying today in the national airspace system 
under the provisions of FAA's proposed rules, their operating 
restrictions would be similar to regulations in other countries. For 
example, FAA proposes altitude restrictions of below 500 feet, while 
Australia, Canada, and the United Kingdom restrict operations to 
similar altitudes. However, there would be some differences in the 
details. Other proposed regulations require that FAA certify UAS pilots 
prior to commencing operations, while Canada and France do not require 
pilot certification.

    Question 2. What will be the biggest markets for UAS uses? What 
types of UAS will do that work?
    Answer. According to a study by a UAS industry group, precision 
agriculture and public safety are the most promising commercial and 
civil markets and are thought to comprise approximately 90 percent of 
the known potential markets for UAS.

    Question 3. How soon will the FAA integrate UAS?
    Answer. FAA has identified a broad three-phase approach to FAA's 
UAS integration plans--Accommodation, Integration, and Evolution--with 
associated priorities for each phase that provide additional insight 
into how FAA plans to integrate UAS into the national airspace system. 
This phased approach has been supported by both academics and industry. 
FAA plans to use this approach to facilitate further incremental steps 
toward its goal of seamlessly integrating UAS flight into the national 
airspace.
    While limited operations continue through these means of FAA 
approval in the accommodations phase, FAA has been planning for further 
integration. Currently, FAA has authority to authorize all UAS 
operations in the national airspace--military; public (academic 
institutions and federal, state, and local governments including law 
enforcement organizations); and civil (non-government including 
commercial). Currently, since a final rulemaking is not completed, FAA 
only allows UAS access to the national airspace on a case-by-case 
basis. FAA provides access to the airspace through three different 
means:

  <bullet> Certificates of Waiver or Authorization (COA): Public 
        entities including FAA-designated test sites may apply for COA. 
        A COA is an authorization, generally for up to 2 years, issued 
        by the FAA to a public operator for a specific UAS activity.

  <bullet> Special Airworthiness Certificates in the Experimental 
        Category (Experimental Certificate): Civil entities, including 
        commercial interests, may apply for experimental certificates, 
        which may be used for research and development, training, or 
        demonstrations by manufacturers.

  <bullet> Section 333 exemptions: Since September 2014, commercial 
        entities may apply to FAA for issued exemptions under section 
        333 of the 2012 Act, Special Rules for Certain Unmanned 
        Aircraft Systems. This exemption requires the Secretary of 
        Transportation to determine if certain UASs may operate safely 
        in the national airspace system prior to the completion of UAS 
        rulemakings.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Thune to 
                            John Villasenor
    Question. What can Congress do now to help the FAA and other 
stakeholders facilitate the integration of UAS in a safe and secure 
manner?
    Answer. Congress is uniquely positioned to promote safe and secure 
UAS integration. Three years ago, by enacting the FAA Modernization and 
Reform Act of 2012 (FRMA), Congress has already taken the key initial 
step in this process.
    Moving forward, Congress can play a key role in continuing to 
promote dialog, raise awareness, and spur the FAA and other relevant 
government entities to take the regulatory and other steps needed to 
ensure the safe, responsible, and productive use of UAS technology.
    In a future Commerce Committee hearing on UAS, I would recommend 
including a one or more representatives from the UAS hobbyist 
community. Some of America's greatest innovators have started out as 
hobbyists--and that will certainly occur in the realm of UAS as well. 
The UAS hobbyist community is different in many ways from the 
commercial UAS community--and operates under a different regulatory 
framework. Ensuring that Members of the Committee have the opportunity 
to hear about this important aspect of the UAS ecosystem will be 
helpful as the UAS policy discussion continues.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                            John Villasenor
    Question 1. Does Congress need to pass legislation for Federal 
preemption?
    Answer. At present, I do not believe that Congress needs to 
specifically pass legislation for Federal preemption with respect to 
UAS. That may change in the future--if, for example, states were to 
enact legislation that would potentially impede the FAA's ability to 
oversee the safety of the National Airspace System, especially at the 
lowest altitudes where UAS operations will be most common. But, at 
least at present, I do not believe such legislation is warranted.

    Question 2. Should Congress treat privacy issues associated with 
UAVs differently than other technologies?
    Answer. As I noted in my written testimony in the March 24, 2015 
hearing, I think that existing privacy frameworks--including the 
Constitution, common law, and statutory law--will provide significantly 
more privacy protection with respect to UAS than is sometimes 
suggested.
    While the temptation to enact UAS-specific privacy laws is 
understandable, it is difficult to draft laws that would both (1) avoid 
being duplicative with respect to protections we already have, and (2) 
avoid unintended consequences that could impede non-privacy-violating 
uses of UAS.
    In addition, UAS technology is changing very quickly. As I wrote in 
testimony before the House Judiciary Committee in 2013:

        If, in 1995, comprehensive legislation to protect Internet 
        privacy had been enacted, it would have utterly failed to 
        anticipate the complexities that arose after the turn of the 
        century with the growth of social networking and location-based 
        wireless services. The Internet has proven useful and valuable 
        in ways that were difficult to imagine over a decade and a half 
        ago, and it has created privacy challenges that were equally 
        difficult to imagine. Legislative initiatives in the mid-1990s 
        to heavily regulate the Internet in the name of privacy would 
        likely have impeded its growth while also failing to address 
        the more complex privacy issues that arose years later.\1\
---------------------------------------------------------------------------
    \1\ Eyes in the Sky: The Domestic Use of Unmanned Aerial Systems, 
Written Testimony of John Villasenor before the House Committee on the 
Judiciary--Subcommittee on Crime, Terrorism, Homeland Security, and 
Investigations (May 13, 2013), available at http://www.brookings.edu//
media/research/files/testimony/2013/05/
17%20privacy%20drones%20villasenor/villasenorte
stimonymay17

    Finally, even if UAS-specific privacy laws are shown to be 
necessary, such laws may in some cases be better handled at the state 
level.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Thune to 
                              Paul Misener
    Question. What can Congress do now to help the FAA and other 
stakeholders facilitate the integration of UAS in a safe and secure 
manner?
    Answer. Congress has already given the FAA the authority to 
regulate UAS; however, the FAA needs impetus to act, especially on 
permitting commercial operations of highly-automated UAS beyond line of 
sight. Therefore, Congress should provide oversight. There is also an 
opportunity in the next FAA reauthorization act to direct the FAA to 
move more quickly to permit UAS operations in a truly performance-based 
manner.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                              Paul Misener
    Question 1. Unmanned Aerial System (UAS) Center of Excellence. Will 
the UAS Center of Excellence serve a valuable role addressing issues 
related to integration that will be useful to Amazon as you consider 
options for potential applications?
    Answer. Amazon supports the UAS center of excellence program and we 
look forward to actively participating with the academic consortium 
that is ultimately awarded the center. There are numerous research 
projects the FAA could fund through the center of excellence that could 
benefit the UAS industry, such as air traffic management for small UAS 
at low altitudes, and safety equipage requirements.

    Question 2. You've testified that the FAA is behind other 
countries, do you think the FAA can catch up?
    Answer. Although the United States is catching up in permitting 
current commercial UAS testing, the United States remains behind in 
planning for future commercial UAS operations, in particular for highly 
automated commercial UAS that fly beyond line of sight. The FAA should 
also elevate their level of intensity and participation in 
multinational organizations, such as the Joint Authorities for 
Rulemaking on Unmanned Systems (JARUS) and ICAO. International 
harmonization of rules is strongly desirable, and domestic 
balkanization by states and localities is not. Harmonized UAS rules, 
perhaps developed through JARUS or ICAO, should be a top FAA priority 
internationally. And within the United States, uniform Federal rules 
should apply.

    Question 3. What can Congress to do ensure the U.S. doesn't fall 
further behind?
    Answer. Congress should continue to provide close oversight of the 
FAA's activities, as should the GAO and DOT Inspector General. Although 
we are encouraged by the FAA's general preference to adopt a 
performance-based approach to regulating small UAS operations, we would 
like Congress, possibly in the FAA reauthorization act, to ensure the 
FAA truly embraces performance-based permissions, which will enable 
small UAS innovation to flourish. Congress can also provide the impetus 
to move the FAA more quickly towards commercial operations.
    The FAA needs a comprehensive UAS plan on how it will collect, 
analyze, and use safety data. What data do they need, how do they want 
to collect it, where will it go, who will analyze it, and what will be 
done with it? Congress should also ensure that UAS research being 
conducted by others is considered and utilized by the FAA. For example, 
NASA has an unmanned traffic management initiative for small UAS flying 
at low altitudes, which could help the FAA safely allow highly 
automated UAS flying beyond line of sight.

    Question 4. What would you like to see in the next FAA 
Modernization and Reform Act?
    Answer. We would like to see the FAA take a true performance-based 
approach to permitting UAS. Overly prescriptive restrictions are likely 
to have the unintended effect of stifling innovation and, over time, 
will fail to offer any corresponding safety benefit as small UAS 
technology evolves. By contrast, genuine performance-based permissions 
would facilitate the development, testing, and introduction of UAS 
technologies, including Prime Air, as soon as safely possible.

    Question 5. The FAA has an industry advisory group looking at UASs, 
is that group effective? What else could be done?
    Answer. Although the FAA has asked a subcommittee of one of its 
aviation rulemaking committees (ARC) to examine beyond visual line of 
sight operations, the group (which Amazon sits on) has only met twice 
since its inception over a year ago. This low level of government 
attention and slow pace are inadequate, especially compared to the 
regulatory efforts in other countries.
    We would like the FAA to establish a new Small UAS ARC to address 
the issues that will likely not be resolved in the proposed rule for 
small UAS. This is not to suggest that regulators here or abroad can 
quickly adopt comprehensive regulations for UAS operations beyond 
visual line of sight. That may take some time. But regulators should 
start developing a performance-based regulatory framework for future 
commercial UAS operations now.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                            Jeff VanderWerff
    Question 1. Even with all of the challenges associated with safe 
integration of unmanned aircraft, as highlighted by some of the other 
witnesses at the table, do the potential economic impacts outweigh the 
drawbacks in the agriculture community? How do the potential benefits 
of UAS reach beyond the borders of your farm land and impact the 
overall economy?
    Answer. There is no denying the economic boon that UAS will bring 
once their potential can be fully realized. A study conducted by the 
Association for Unmanned Vehicle Systems International (AUVSI) found 
that the UAS industry will create more than 70,000 new jobs in the 
first three years after they are allowed to fly in U.S. airspace, and 
over 100,000 new jobs by 2025. The resultant economic impact will total 
over $13.6 billion in the first three years and is predicted to grow to 
over $82.1 billion by 2025.
    The AUVSI study concluded that the commercial agriculture market 
will dwarf all other industry segments with its economic impact. During 
the 11-year period 2015-2025, UAS integration is expected to contribute 
$75.6 billion in economic impact by agriculture, compared to $3.2 
billion by public safety and $3.2 billion by other activities.
    Farmers will reap benefits from UAS through their ability to 
perform important, time saving functions that support everyday farming 
and ranching activities. Equipped with sophisticated cameras and/or 
sensors tailored to the unique specifications and needs of the user, 
UAS can help farmers and ranchers scout and monitor crops and pastures 
more efficiently by capturing accurate, high-resolution images covering 
up to hundreds of acres in a single mission. The imagery and data 
gleaned from a UAS can assist in identifying the particular location 
where a specific treatment--be it fertilizer, water, pesticides or 
herbicides--is necessary. It allows the spot-treatment of sections of 
fields and pastures as opposed to watering or spraying the entire 
field. It allows ranchers to check on livestock on range lands and 
pastures. By doing this, the producer not only lowers the cost of 
treatment but also lowers the environmental impact.
    The value of spot-treatment is exemplified during droughts. 
Agriculture is a water-dependent industry. Whether they are growing 
plants or raising animals, farmers and ranchers need water. It is no 
secret that the past few years have been especially difficult for 
farmers in Western states, particularly in California, where 
historically low rainfall has created an emergent crisis with no end in 
sight. In fact, the drought is so severe that the governor of 
California earlier this month introduced the first mandatory water 
restrictions in the state's history. Although no technology could 
completely counterbalance effects of this magnitude, deploying UAS 
above affected fields in California and elsewhere in the Western U.S. 
could help minimize the amount of water used. Rather than apply an inch 
of water on a blanket basis, for example, a UAS could quickly scan the 
field to more precisely identify the areas most in need of treatment.

    Question 2. With an expanded use of UAS in agriculture it seems 
that farmers could have two options: either they will own and operate 
their own UAS, or they will hire someone that specializes in UAS 
services for a fee. Which do you expect to be the more popular option? 
Why?
    Answer. These will be the two options available for farmers who 
want to utilize UAS on their farms. Determining which option is more 
popular takes into account a variety of variables this includes 
individual preference. While I cannot make a prediction on which option 
will be more popular, one variable will be influential for all farmers 
and ranchers, return on investment. Depending on which option provides 
the greatest return on investment for that farmer's specific 
circumstance will impact the decision. As with all business decision 
the return on investment is a critical component.

    Question 3. Which option would you use for your farming operation?
    Answer. While we will certainly evaluate both options, we feel that 
based on where the technology is headed, and the potential for drone 
pesticide application, we will own and operate our own UAVs. I would 
suspect, however, that there will be significant interest among farmers 
who simply wish to contract for this service.

    Question 4. Who will or should own the data if a farmer hires 
another company to provide UAS services--the UAS company or the farmer/
client? What are some of the potential drawbacks with regard to each 
approach?
    Answer. AFBF supports UAS technology and the enormous potential it 
brings to farming. But it is critical that the data remain under the 
ownership and control of the farmer and is not available to government 
agencies or others without express permission.
    Privacy is a serious issue for farmers. They should be able to use 
and enjoy their own property for personal and business purposes without 
unwarranted intrusions either by the government or private actors. Nor 
should any unauthorized parties be permitted to aggregate, use and/or 
retain data collected from a farm or ranch without the express 
permission of the farmer or rancher. Absent a strong set of principles 
to deter such behavior, an activist group opposed to a common and 
permissible farming practice, such as pesticide usage, could deploy a 
UAS over a field to obtain information that could be used as part of a 
slanted campaign to discredit the farm and or lead to an unwarranted 
lawsuit that the farmer must spend resources to defend.
    In addition, farmers and ranchers are concerned about data privacy. 
For example, a farmer's crop information may be valuable to suppliers 
and other companies for contract purposes and for many other reasons. A 
framework must be established--preferably through industry action--to 
protect farmers' data from unauthorized access by both government 
agencies and private actors. Any violations of that framework must 
trigger serious consequences and provide protections for the land 
owner/operator.

    Question 5. In your testimony you highlight a number of attractive 
uses for UAS among growers and ranchers, particularly relating to the 
precise information they can provide. Are there other applications that 
may be of use to agriculture? For example, do you think UAS will 
replace conventional spraying methods (both land and air tractors) in 
the near future?
    Answer. The Federal Aviation Administration (FAA) is currently 
reviewing the comments on a proposed rule for the ``Operation and 
Certification of Small Unmanned Aircraft Systems.'' This specific rule 
is for UAS weighing less than 55 pounds. AFBF did submit comments to 
the FAA.
    Since the proposed rule is only for small UAS, the applications of 
UAS within the agricultural community are currently focused on imagery 
and surveillance. However, projecting the future of UAS precision 
agriculture operations in this country does not require the stretch of 
imagination. Other countries like Australia, Canada, the United 
Kingdom, France and Japan are already benefiting from UAS flights. 
Japan and Australia, in particular, are surpassing the U.S. with 
respect to UAS in agriculture: Farmers in those countries have been 
safely flying UAS to apply pesticides and fertilizer to their crops for 
more than 20 years.

    Question 6. What can Congress do now to help the FAA and other 
stakeholders facilitate the integration of UAS in a safe and secure 
manner?
    Answer. Providing flexibility by instituting regulations and 
legislation through a genuine performance-based standard. A final rule 
that may take 18-24 months to finalize cannot be based solely on the 
snapshot of UAS technology as it exists today. Farms are tailor-made 
for application of performance-based UAS standards; with their 
privately owned, contiguous and sparsely populated fields, they offer a 
natural setting to conduct UAS operations without adversely affecting 
safety. Instead of prohibiting operations such as those that are 
conducted over non-participating persons, at night, and beyond visual 
line of sight, performance-based standards should be used to authorize 
such operations in circumstances where it is demonstrated that the UAS 
can be operated safely. Any legislation or regulation should be 
flexible and forward looking, rather than excessively prescriptive and 
cemented in time.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Roger F. Wicker to 
                            Jeff VanderWerff
    Question 1. Unmanned Aerial System (UAS) Center of Excellence. 
Would you agree that the Center of Excellence can serve an important 
role by providing objective research for FAA consideration?
    Answer. AFBF supports the FAA using the Center of Excellence in 
addition to other public or private entities that promote research and 
development for UAS.

    Question 2. Is beyond line of sight operations needed for 
agricultural uses? If so, at what altitudes?
    Answer. Yes, beyond visual line of sight (BVLOS) is needed for 
agricultural purposes. While some farms only consist of several acres 
and could be fully surveyed within-visual line of sight, many more 
farms do not fit this description. For these larger farms, in 
particular, the importance of being able to conduct BVLOS operations is 
magnified. Owners and operators of large farms need to survey huge 
plots of land to protect their crops from threats. If farmers and 
ranchers are restricted to visual line of sight requirements then 
farmers and ranchers with large acreage would need to fly multiple, 
potentially redundant missions to cover the necessary ground. Instead 
of capturing the imagery and collecting the relevant data all at once, 
these farmers would be forced to expend precious additional resources 
into stitching together maps and synthesizing data. This would be 
highly inefficient--both in terms of manpower and time--and could 
nullify the potential time and cost savings that make UAS so attractive 
with little corresponding safety benefit.
    In addition, a BVLOS prohibition is redundant in the agricultural 
context when considering the safety mechanisms already available and 
installed on many UAS, especially when combined with the remote, 
uncongested airspace over most farms. UAS can be controlled via proven 
operational safeguards such as geofencing, visual observers, flight 
termination mechanisms, and others that either exist now or will in a 
short time frame. AFBF also supports the use of risk mitigation 
procedures to notify manned aircraft that an UAS is operating in the 
vicinity. But imposing a blanket BVLOS prohibition given the 
availability of recognized risk mitigation measures and rapidly 
developing UAS technology is unnecessarily prescriptive, particularly 
in the open environment of a farm where the chances of UAS harming 
general aircraft or persons on the ground are significantly reduced.
    Given the remoteness of most farms and the uncongested airspace 
over them, there is no reason why the 500 foot ceiling, as proposed in 
the Federal Aviation Administration's proposed rule, could not be 
lifted under certain circumstances. For example, such operations could 
be limited to certain times and classes of airspace and subject to the 
operator obtaining a certificate of waiver or authorization.

                                  <all>
</pre></body></html>
